<html>
<title> - CARGO SECURITY AT LAND PORTS OF ENTRY: ARE WE MEETING THE CHALLENGE?</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





  CARGO SECURITY AT LAND PORTS OF ENTRY: ARE WE MEETING THE CHALLENGE?

=======================================================================

                                HEARING

                               before the

                        SUBCOMMITTEE ON BORDER,
                 MARITIME, AND GLOBAL COUNTERTERRORISM

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 22, 2009

                               __________

                           Serial No. 111-40

                               __________

       Printed for the use of the Committee on Homeland Security



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
57-596 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California          PETER T. KING, New York
JANE HARMAN, California              LAMAR S. SMITH, Texas
PETER A. DeFAZIO, Oregon             MARK E. SOUDER, Indiana
ELEANOR HOLMES NORTON, District of   DANIEL E. LUNGREN, California
Columbia                             MIKE ROGERS, Alabama
ZOE LOFGREN, California              MICHAEL T. McCAUL, Texas
SHEILA JACKSON LEE, Texas            CHARLES W. DENT, Pennsylvania
HENRY CUELLAR, Texas                 GUS M. BILIRAKIS, Florida
CHRISTOPHER P. CARNEY, Pennsylvania  PAUL C. BROUN, Georgia
YVETTE D. CLARKE, New York           CANDICE S. MILLER, Mississippi
LAURA RICHARDSON, California         PETE OLSON, Texas
ANN KIRKPATRICK, Arizona             ANH ``JOSEPH'' CAO, Louisiana
BEN RAY LUJAN, New Mexico            STEVE AUSTRIA, Ohio
BILL PASCRELL, JR., New Jersey
EMMANUEL CLEAVER, Missouri
AL GREEN, Texas
JAMES A. HIMES, Connecticut
MARY JO KILROY, Ohio
ERIE J.J. MASSA, New York
DINA TITUS, Nevada
VACANCY

                    I. LANIER AVANT, Staff Director

                     ROSALINE COHEN, Chief Counsel

                     MICHAEL TWINCHEK, Chief Clerk

                ROBERT O'CONNER, Minority Staff Director

                                 ______

      SUBCOMMITTEE ON BORDER, MARTIME, AND GLOBAL COUNTERTERRORISM

                LORETTA SANCHEZ, California, Chairwoman

JANE HARMAN, California              MARK E. SOUDER, Indiana
ZOE LOFGREN, California              MICHAEL T. McCAUL, Texas
SHEILA JACKSON LEE, Texas            GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 MIKE ROGERS, Alabama
ANN KIRKPATRICK, Arizona             CANDICE S. MILLER, Michichgan
BILL PASCRELL, JR., New Jersey       PETER T. KING, New York (Ex 
AL GREEN, Texas                      Officio)
ERIC J.J. MASSA, New York
BENNIE G. THOMPSON, Mississippi (Ex 
Officio)

                     Alison Northop, Staff Director

                          Nikki Hadder, Clerk

                Mandy Bowers, Minority Subcommittee Lead

                                  (ii)







                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Loretta Sanchez, a Representative in Congress from 
  the State of California, and Chairwoman, Subcommittee on 
  Border, Maritime, and Global Counterterrorism..................     1
The Honorable Mark E. Souder, a Representative in Congress from 
  the State of Indiana, and Ranking Member, Subcommittee on 
  Border, Martime, and Global Counterterrorism...................     2
The Honorable Bennie G. Thompson, a Representative in Congress 
  from the State of Mississippi, and Chairman, Committee on 
  Homeland Security..............................................     3

                               Witnesses
                                Panel I

Mr. Todd Owen, Executive Director, Cargo and Conveyance Security, 
  Office of Field Operations, Customs and Border Protection:
  Oral Statement.................................................     5
  Prepared Statement.............................................     6
Ms. Janice Ayala, Deputy Assistant Director, Office of 
  Investigations, Immigrations and Customs Enforcement:
  Oral Statement.................................................    11
  Prepared Statement.............................................    12

                                Panel II

Ms. Colleen M. Kelley, National President, National Treasury 
  Employees Union:
  Oral Statement.................................................    31
  Prepared Statement.............................................    32
Mr. Stephen Russell, Chairman and CEO, Celadon Group, Inc. 
  (representing American Trucking Associations):
  Oral Statement.................................................    40
  Prepared Statement.............................................    41

                                Appendix

Questions From Chairwoman Loretta Sanchez for Janice Ayala.......    53
Question From Honorable Mark E. Souder for Janice Ayala..........    54
Questions From Chairwoman Loretta Sanchez for Colleen M. Kelley..    55
Questions From Chairwoman Loretta Sanchez for Todd Owen..........    56
Questions From Honorable Mark E. Souder for Todd Owen............    57
Questions From Chairwoman Loretta Sanchez for Stephen Russell....    60
Questions From Honorable Mark E. Souder for Stephen Russell......    62

 
  CARGO SECURITY AT LAND PORTS OF ENTRY: ARE WE MEETING THE CHALLENGE?

                              ----------                              


                       Thursday, October 22, 2009

             U.S. House of Representatives,
                  Subcommittee on Border, Maritime,
                       and Global Counterterrorism,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:07 a.m., in 
Room 311, Cannon House Office Building, Hon. Loretta Sanchez 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Sanchez, Thompson, Harman, 
Cuellar, Kirkpatrick, Green, and Souder.
    Ms. Sanchez. [Presiding.] The subcommittee will come to 
order. The Subcommittee on Border, Maritime and Global 
Counterterrorism is meeting today to receive testimony on 
``Cargo Security at Land Ports of Entry: Are We Meeting the 
Challenge?''
    So good morning, everybody. Today's hearing will examine 
cargo security at our land ports along entries on our northern 
and southern border. This subcommittee is focused on reviewing 
the growing challenge the Department of Homeland Security faces 
in identifying, interdicting and investigating cargo security 
threats.
    To put the challenge we face at land ports of entry into 
perspective, let's think about it this way. There are over 160 
land border crossings between the northern and southern 
borders; 43 of these crossings are dedicated to commercial use 
only, and many of those are operated and staffed 24 hours a 
day. Over 11 million truckloads and 2 million railcars come 
through those ports annually, contributing to over $338 billion 
dollars and $109 billion worth of imports respectively.
    With those numbers in mind, it is important to facilitate 
trade and to ensure that cargo and truck crossings are secure, 
and that is the challenge that we will examine today.
    This hearing comes at a time when our ports of entry are 
experiencing infrastructure limitations and staff shortages 
that result in overworked offices. This hearing--also, a new 
wave of violence has hit many of our major ports, such as the 
recent shootings that we saw at the Port of San Ysidro in San 
Diego, which were linked to a human trafficking attempt. In 
addition, there has been an increase in cocaine and cash 
trafficking between the United States and Canada.
    With the volume of trucks and railcars entering and exiting 
the country, it is imperative that we have means to ensure that 
they are secure and that we inspect them as needed. As a 
sovereign nation, we need to be able to control the ingress and 
the egress from our country, not just the people, but of cargo, 
and that is why I am interested in hearing from both of our 
government and industry witnesses today about what is and what 
is not working.
    Also, I am interested in hearing from ICE about 
investigations into truck-related seizures that originate in 
Mexico or Canada but are found in the United States. I believe 
that we must improve our overall border infrastructure to 
accommodate the growing amount of commerce and increasing 
number of people who really do cross back and forth on the 
border today--and I saw Mr. Cuellar, and I know that he has 
talked to me about this over and over--because we need to avoid 
delays and we need to make sure that trade is going on in a 
smooth manner.
    Considering many of the primary inspections of trucks 
crossing into the United States are done by CBP officers, there 
is a valid argument to be made that staff shortages at ports of 
entry facilitate the importation of narcotics into this 
country. I have always advocated for an increase in officer 
staff. I know that Chief Aguilar, in particular, has been very 
interested in this issue, and we have worked on it together, 
and I hope that we will take a look at a CBP authorization bill 
that might address some of these problems. That is also one of 
the reasons why I wanted to hold this hearing today.
    I want to thank all of you for being here today, and I look 
forward to receiving your testimony.
    Now I will yield to my ranking member, Mr. Souder, for his 
opening statement.
    Mr. Souder?
    Mr. Souder. Thank you, Madam Chair.
    I think this hearing is important and timely. On the one 
hand, we have the U.S. manufacturing industry suffering from a 
recession, and the last thing we need to worry about is whether 
or not that we will be able to get parts and supplies across 
the border.
    On the other hand, we have Secretary Napolitano and FBI 
Director Mueller confirmed before Congress at the end of 
September that Al Qaida remains committed to attacking the U.S. 
According to FBI Director Mueller, ``of particular concern to 
the FBI are individuals who can travel with fewer restrictions 
to these areas of extremist activity and then enter the United 
States under less scrutiny.''
    We know that terrorist groups, not to mention criminal and 
drug organizations, are constantly looking for vulnerable 
points in order to bring weapons or people or drugs into the 
United States. In addition, we see a growing trend of 
intellectual property right violations, which are reportedly 
helping to fund cartels and terrorist organizations and 
dramatically hurt U.S. industry.
    Our inspection and investigative capabilities must be 
robust. This hearing is an opportunity to hear how CBP's 
advanced targeting is working and the status of imaging and 
radiation scanning equipment, also what our ICE investigators 
are seeing in terms of trends and how do they allocate 
resources across the wide-ranging mission sets.
    At the same time, we must evaluate whether we are 
unnecessarily causing delays or hurdles at the border. 
According to testimony from the American Trucking Association 
on the second panel, the value of trade between the U.S. and 
Canada has decreased by 30 percent. The trade value between the 
U.S. and Mexico has decreased by 18 percent. This decrease is 
not the fault of the customs inspections, but I think we need 
to take an objective look at the processes at the border to see 
where additional facilitation is needed and could be helpful.
    I would like to welcome Steve Russell, representing the 
American Trucking Association, on the second panel. His company 
is based in Indianapolis, Indiana, and I think his testimony 
will be especially valuable, given his experience moving cargo 
on both borders.
    The security and facilitation at land ports of entry is not 
just an issue for border states. My congressional district in 
Indiana, it is the largest manufacturing district in the 
country. The recession is heavily felt there. It is essential 
for timely delivery of goods for companies to stay in business. 
Specific facilitation issues that should be on the table are C-
TPAT and the FAST expansion, especially options for extending 
the lanes leading up to the expedited processing lane for 
program participants.
    Additionally, where do things stand with ACE and the ITDS, 
two programs intended to modernize border processing for both 
trade and CBP, as well as link in other federal entities? To 
the extent that they are able, I hope the witnesses will be 
forthcoming with additional resource requests and legislative 
changes that may be necessary to work with CBP and ICE--to 
assist the work CBP and ICE are doing to carry out their 
critical missions. I am confident that Ms. Kelley and Mr. 
Russell in the second panel will have multiple recommendations 
for us.
    On a related note, I would again like to express my desire 
for this subcommittee to consider border security legislation 
that will address both sides of this issue, how to better 
secure our borders and ports of entry and how to better 
facilitate legitimate trade and travel.
    Thank you again, Madam Chair, and I look forward to the 
testimony.
    Ms. Sanchez. I thank Mr. Souder. And, believe me, we are 
taking a look. I have been talking to our chairman of the full 
committee about those bills that we might be able to mark up, 
so we are hoping some will come forward in this new month of 
November.
    The chair will now recognize the chairman of the full 
committee, the gentleman from Mississippi, Mr. Thompson, for an 
opening statement.
    Mr. Thompson. Thank you, Madam Chairwoman, for convening 
today's hearing on cargo security at our nation's land ports of 
entry.
    America's land ports of entry are critical gateways to 
travel and trade. Every year, approximately 11 million 
truckloads and more than 2 million railcars arrive at U.S. land 
borders. The dedicated men and women of the Department of 
Homeland Security have the difficult task of detecting, 
interdicting and investigating threats in this stream of 
commerce.
    At the same time, they are charged with facilitating the 
legitimate trade and travel that is the lifeblood of the 
economy, both in border regions and across the country. This is 
no easy task.
    Given the volume of commercial traffic crossing our 
borders, it is imperative that DHS ensure cargo trucks and 
railcars do not become vehicles for smuggling operations. Just 
this month, a Canadian truck driver was arrested in Blaine, 
Washington, with 192 pounds of cocaine, worth about $3 million. 
In June of this year, a total of 1,090 pounds of marijuana was 
discovered in two commercial trucks in El Paso, Texas.
    Incidents such as these are a warning sign regarding other 
possible threats coming into the U.S. through our ports of 
entry. This method of smuggling narcotics or other contraband 
could also be attractive to those who seek to do harm. It is 
imperative that we address the potential threats.
    DHS has made strides in utilizing inspection technology and 
equipment, encouraging stakeholders to assist in securing the 
supply chain, and enhancing cooperation among law enforcement 
agencies.
    However, significant challenges remain. Many ports of entry 
were constructed decades ago and were simply not built to 
accommodate modern security technology and procedures. In 
addition to infrastructure challenges, staffing has not kept up 
with the need. Thousands of new Border Patrol agents have been 
hired in recent years, while only a relatively small number of 
Customs and Border Protection officers have been added to the 
ranks at the ports of entry.
    These limitations not only undermine our security, but 
hamper the department's ability to expedite vital commerce. 
Ultimately, we must do what it takes to secure our borders and 
ensure our ports of entry operate efficiently in moving goods 
and people across our borders. Each of our witnesses today 
bring a unique perspective on how best we can meet that 
challenge.
    Madam Chair, I want to thank our witnesses for joining us 
today, and I look forward to hearing from their testimony.
    Ms. Sanchez. I thank the chairman.
    Other members of the subcommittee are reminded that under 
the committee rules opening statements may be submitted for the 
record. I welcome our first panel of witnesses.
    Our first witness, Mr. Todd Owen, was appointed Executive 
Director of the Cargo and Conveyance Security Office within the 
Office of Field Operations at Customs and Border Protection--
that must be a long title on your card--in May of 2006. Mr. 
Owen is responsible for all cargo security programs and 
policies for the CBP, including the Customs-Trade Partnership 
Against Terrorism program, all non-intrusive inspection 
technology, and radiation portal monitor deployments, the 
National Canine Enforcement Program, and the National Targeting 
Center for Cargo.
    Welcome.
    Our second witness, Ms. Janice Ayala, currently serves as 
the Deputy Assistant Director of the Financial, Narcotics and 
Public Safety Division within the ICE Office of Investigations. 
Another long title there. In this position, she has direct 
oversight of the financial, narcotics and national gang 
programs conducted by ICE offices throughout the United States.
    So without objection, your testimony, your written 
testimony, will be put into the record. I know that you have it 
before us. I will ask you to summarize your statements in 5 
minutes or less.
    Let's start with Mr. Owen.

     STATEMENT OF TODD OWEN, EXECUTIVE DIRECTOR, CARGO AND 
 CONVEYANCE SECURITY, OFFICE OF FIELD OPERATIONS, CUSTOMS AND 
                       BORDER PROTECTION

    Mr. Owen. Good morning.
    Chairwoman Sanchez, Ranking Member Souder, members of the 
subcommittee, I am honored to be here this morning to discuss 
how U.S. Customs and Border Protection is fulfilling our border 
security and trade facilitation responsibilities at our land 
border ports of entry.
    I would like to begin by expressing my gratitude to the 
Congress for its continued support of the mission and people of 
CBP. Among the numerous priorities that were recognized in the 
American Recovery and Reinvestment Act of 2009, Congress 
provided CBP with $680 million for greatly needed improvements 
to our aging port of entry infrastructure, tactical 
communications equipment, and non-intrusive inspection 
technology. This funding will allow CBP to more efficiently 
meet our twin goals of border security and facilitation.
    CBP has made tremendous progress in ensuring that supply 
chains importing goods into the United States are more secure 
against potential exploitation by terrorist groups or narco-
smugglers. CBP uses a multilayered approach to ensure the 
integrity of supply chains from point of stuffing through 
arrival at U.S. ports of entry. This multilayered defense is 
built upon interrelated initiatives, which include the Trade 
Act of 2002, the Automated Targeting System, non-intrusive 
inspection equipment, radiation portal monitors, the Customs-
Trade Partnership Against Terrorism, or C-TPAT program, and the 
Free and Secure Trade initiative, or FAST. These complementary 
layers enhance security and protect our nation.
    In the land border environment, CBP receives advanced 
manifest data on every truck and every rail shipment prior to 
arrival at the border crossing. CBP performs a risk analysis on 
each shipment using our Automated Targeting System and, along 
with other targeting tools, high-risk shipments are identified 
by the primary CBP officer and sent to a secondary examination 
location for closer scrutiny and inspection.
    In our ports of entry, CBP deploys non-intrusive inspection 
technology, which includes large-scale X-ray and gamma imaging 
systems, which allows CBP officers to assess the contents of 
each trailer or container for anomalies or areas of concern.
    Prior to 9/11, CBP deployed only 64 large-scale, non-
intrusive systems to our nation's borders. Today, we have over 
230 systems operational, with another 50 new or replacement 
systems to be deployed over the next 18 months as part of the 
stimulus funding that CBP received this year.
    In fiscal year 2009, one out of every four trucks that 
crossed our land borders underwent a non-intrusive inspection 
technology review. CBP also deploys radiation detection portals 
at entry points nationwide. The first radiation portal monitor 
was deployed in Detroit in 2002, and today we have over 1,400 
scanning portals, allowing us to scan 100 percent of the cargo 
from Mexico, 99 percent of the cargo from Canada, and 98 
percent of our maritime cargo arriving into our sea ports.
    CBP also works in partnership with the trade community to 
secure supply chains before arrival at the U.S. port of entry. 
Under the Customs-Trade Partnership Against Terrorism program, 
9,000 companies voluntary strengthened their security measures. 
CBP validates these security enhancements and affords the 
member reduced inspections to facilitate this low-risk trade.
    Additionally, the FAST program promotes free and security 
trade by using common risk-management principles, supply chain 
security, industry partnerships, and advanced technology to 
improve the efficiency of screening and clearing commercial 
cargo at our shared border. Collectively, C-TPAT and FAST 
programs address CBP's dual responsibility of security and 
trade facilitation through voluntary partnerships with the 
trade community.
    Madam Chairwoman, members of the committee, thank you for 
the opportunity to describe some of our land border security 
initiatives and to highlight some of our progress to date. I 
would be happy to take any questions. Thank you.
    [The statement of Mr. Owen follows:]

                    Prepared Statement of Todd Owen

    Chairwoman Sanchez, Ranking Member Souder, esteemed members of the 
Subcommittee, it is a privilege and an honor to appear before you today 
to discuss the work U.S. Customs and Border Protection (CBP) does in 
performing our twin goals of border security and facilitation of 
legitimate trade and travel. Our work is of critical importance-we must 
be constantly vigilant towards meeting the challenge of securing our 
borders and enforcing trade laws, yet we must accomplish these tasks 
without stifling the flow of legitimate trade and travel that is so 
critical to our nation's economy.
    I want to begin by expressing my ongoing gratitude to the 
Subcommittee for its continued support of the mission and people of 
CBP. It is clear that the Subcommittee is committed to providing CBP 
with the resources we need in order to increase and maintain the 
security of our borders. We appreciate your efforts and assistance.
    CBP is the largest uniformed federal law enforcement agency in the 
country. We station over 21,000 CBP officers at access points around 
the Nation, including air, land, and sea ports. We have deployed over 
20,000 Border Patrol agents between the ports of entry. These forces 
are supplemented with 1,266 Air and Marine agents, 2,392 agricultural 
specialists, and other professionals.
    CBP has a wide range of responsibilities that include stemming the 
illegal flow of drugs, contraband and people; protecting our 
agricultural and economic interests from harmful pests and diseases; 
protecting American businesses from theft of their intellectual 
property; enforcing textile agreements; detecting import safety 
violations; regulating and facilitating international trade; collecting 
import duties; facilitating legitimate travel; and enforcing U.S. trade 
laws. At the same time, our employees maintain a vigilant watch for 
terrorist threats. In fiscal year 2008, CBP processed more than 396 
million pedestrians and passengers, 122 million conveyances, and 29 
million trade entries; examined 5.6 million sea, rail, and truck 
containers; performed over 25 million agriculture inspections; 
apprehended over 720,000 illegal aliens between our ports of entry; 
encountered over 220,000 inadmissible aliens at the ports of entry; and 
seized more than 2.8 million pounds of illegal drugs.

OVERVIEW OF CARGO SECURITY PROGRAMS
    I am pleased to appear before the Subcommittee today to highlight 
key accomplishments related to cargo security in the land environment. 
I would also like to take this opportunity to bring attention to 
holistic cargo security programs that are applied to all environments. 
CBP has made tremendous progress towards securing the supply chains 
bringing goods into the United States from around the world, and 
preventing their potential use by terrorist groups, by: using cutting-
edge technology to increase the ability of front-line CBP Officers to 
successfully detect and interdict illicit importations of nuclear and 
radiological materials; moving resources where they are most needed; 
integrating all CBP offices; sharing information, including actionable 
intelligence, across all aspects of CBP; and utilizing a multi-layered 
approach to ensure the integrity of the supply chain from the point of 
stuffing, through arrival at a U.S. port of entry. This layered 
approach includes comprehensive cargo security programs that are 
applied to all modes of transportation:
        Advance Information
                o 24-Hour Rule
                o Automated Targeting Systems
                o Importer Security Filing
        The Customs Trade Partnership Against Terrorism (C-TPAT) and 
        Free and Secure Trade (FAST)
        Container Security Initiative (CSI)
        Use of Non-Intrusive Inspection Technology and Mandatory Exams 
        for All High Risk Shipments
        Southwest Border Initiative
    I will discuss each one of these layers in greater detail.

ADVANCE INFORMATION
    CBP requires advanced electronic cargo information, as mandated in 
the Trade Act of 2002, for all inbound shipments for all modes of 
transportation. This advanced cargo information is evaluated using the 
Automated Targeting System (ATS) before arrival in the United States.
    ATS provides decision support functionality for CBP officers 
working in Advanced Targeting Units at our ports of entry and Container 
Security Initiative ports abroad. The system provides uniform review of 
cargo shipments for identification of the highest threat shipments, and 
presents data in a comprehensive, flexible format to address specific 
intelligence threats and trends. ATS uses a rules-based program to 
highlight potential risk, patterns, and targets. Through rules, the ATS 
alerts the user to data that meets or exceeds certain predefined 
criteria. National targeting rule sets have been implemented in ATS to 
provide threshold targeting for national security risks for all modes 
of transportation: sea, truck, rail, and air. The DHS Science and 
Technology Directorate is exploring additional methodologies for 
conducting risk assessment.
    The Importer Security Filing interim final rule, also more commonly 
known as "1 went into effect earlier this year and has already yielded 
promising results. This program will provide CBP timely information 
about cargo shipments that will enhance our ability to detect and 
interdict high risk shipments. Comments on aspects of this rule were 
accepted until June 1,2009, and implementation using informed 
compliance will continue until January of next year. Shipments 
determined by CBP to be high-risk are examined either overseas as part 
of our Container Security Initiative, or upon arrival at a port.

CUSTOMS TRADE PARTNERSHIP AGAINST TERRORISM (C-TPAT)
    CBP works with the trade community through the Customs Trade 
Partnership Against Terrorism (C-TPAT) to better secure goods moving 
through the international supply chain. C-TPAT has enabled CBP to 
leverage supply chain security throughout international locations where 
CBP has no regulatory reach. Under the C-TPAT program, a prospective 
member submits basic company information and a security profile via an 
internet based portal system. CBP conducts records checks on the 
company in its law enforcement and trade databases and evaluates the 
security profile, ensuring the company meets the minimum security 
criteria for its particular business sector. Members who pass initial 
vetting are certified into the program. Using a risk-based approach, 
Supply Chain Security Specialists conduct on-site visits of foreign and 
domestic facilities to confirm that the security practices are in place 
and operational.
    In 2009, CBP continued to expand and strengthen the C-TPAT program 
and ensure that certified member companies are securing their goods 
moving across the international supply chain to the United States. 
Teams of Supply Chain Security Specialists conducted validations and 
revalidations of C-TPAT members' supply chains. This ensures that 
security protocols are reliable, accurate, and effective.
    As C-TPAT has evolved, we have steadily increased the rigor of the 
program and program membership. CBP has strengthened the C-TPAT program 
by clearly defining the minimum-security requirements for all 
categories of participants wishing to take part in the program, and 
thereby gain trade facilitation benefits. As of October 8,2009, there 
were 9,484 companies certified into the C-TPAT program. CBP's goal is 
to validate all partners within one year of certification, revalidate 
all companies not less than once every three years, and revalidate all 
highway carriers on an annual basis, due to the risks associated with 
the Southern Border Highway Carrier sector of C-TPAT.

    Membership consists of 9,484 Certified Partners which includes 
4,327 importers, 2,585 carriers, 817 brokers, 783 55 Marine Port 
Authority and Terminal Operators and 917 Foreign Manufactures as of 
October 2009. C-TPAT has conducted 12,947 on-site validations of 
manufacturing and logistics facilities in 90 countries. 298 C-TPAT 
importer partners have been designated Tier 3, meaning they have 
exceeded the minimum security criteria and have been granted the 
highest level of program benefits.

FREE AND SECURE TRADE (FAST)
    CBP's Free and Secure Trade (FAST) program is an innovative 
partnership between the United States, Canada, and Mexico designed to 
ensure security and safety while enhancing the economic prosperity of 
the member countries. This innovative trusted shipper program allows 
for expedited processing for commercial carriers who have completed 
background checks and fulfill certain eligibility requirements. At the 
land border ports of entry, FAST is integrated into the C-TPAT program. 
The C-TPAT and FAST programs promote supply chain security from the 
point of origin in a foreign country to the point of destination in the 
United States. Participation in FAST requires that every link in the 
supply chain, from manufacturer to carrier to driver to importer is 
certified under the C-TPAT program.
    Any conveyance using FAST lane processing must be a CBP approved 
carrier, carry qualifying goods from a CBP approved importer, and 
employ a driver with a valid FAST-Commercial Driver Card. To be 
approved, the carrier and importer must be participants in C-TPAT. In 
addition to these requirements, manufacturers in Mexico must be C-TPAT 
participants, and all FAST shipments, when crossing the border, must 
have a high-security seal properly placed, adhering to guidelines 
outlined by CBP.
    The FAST program promotes free and secure trade by using common 
risk-management principles, supply chain security, industry 
partnerships, and advanced technology to improve the efficiency of 
screening and clearing commercial traffic at our shared borders. FAST 
expedites and facilitates commercial crossings by implementing the 
mandated requirements of securing the flow of people, transportation, 
and goods under a secure infrastructure. FAST is aimed at improving and 
ensuring the integrity of the supply chain of participants ranging from 
manufacturing to transportation and importation.
    For all U.S.-bound FAST trucks, Mexico Customs uses automated 
readers that interface with the U.S. system in order to verify the 
status of the FAST driver card. Mexico Customs receives a "yes" or 
"no"response when the card is read, indicating whether the card is 
valid with CBP. This process ensures that only approved FAST drivers 
are utilizing the dedicated lane to enter the U.S. from Mexico. FAST 
shipments also receive expedited processing through the Mexico export 
process.
    CBP's layered enforcement strategy begins with the vetting and 
approval of all applicants through the FAST and C-TPAT programs. CBP 
has further implemented a strategy that incorporates rule-sets 
established at the headquarters level combined with the efforts of the 
National Targeting Center-Cargo (NTC-C) and port Manifest Review Units 
(MRU). Based on findings from the NTC-C and MRU, CBP officers are able 
to take the appropriate actions on arriving shipments. These 
enforcement actions may include document review, canine sweeps, Non-
Intrusive Examinations, Radiation Portal Monitoring, and physical 
examination. In addition, CBP uses Random and Stratified Compliance 
Examinations along with high-security seals to measure compliance with 
program participants.

CONTAINER SECURITY INITIATIVE (CSI)
    Although the Container Security Initiative (CSI) is maritime-
focused, containers are commonly routed across multiple modes of 
transportation, making this layer of security an integral aspect to 
national security. CSI was announced in January 2002 and is currently 
operational in 58 foreign seaports in 32 countries to address the 
threat of terrorist use of maritime containers before those containers 
are loaded on vessels destined for the U.S. CSI stations 
multidisciplinary teams of CBP officers, along with our colleagues from 
ICE, to work with host country counterparts to identify and examine 
containers that are determined to pose the highest risk for terrorist 
activity. In fiscal year 2009, CSI officers reviewed over nine million 
bills of lading and examined over fifty-six thousand containers in 
conjunction with host country counterparts.
    NON INTRUSIVE INSPECTION RADIATION DETECTION TECHNOLOGY
    The deployment of imaging systems and radiation detection equipment 
has contributed to tremendous progress in ensuring that supply chains 
bringing goods into the United States from around the world are secure 
against exploitation by terrorist groups. Non-Intrusive Inspection 
(NII) technology serves as a force multiplier that allows officers to 
detect possible anomalies between the contents of a container and the 
manifest. CBP relies heavily on the use of NII, as it allows us to work 
smarter and more efficiently in recognizing potential threats.
    Prior to 9/11, not a single Radiation Portal Monitor (RPM), and 
only 64 large-scale NII systems were deployed to our nation's borders. 
By October of 2002, CBP had deployed the first RPM at the Ambassador 
Bridge in Detroit. Today, CBP has deployed 453 RPMs at Northern border 
land ports of entry; 385 RPMs at Southern border land ports of entry; 
431 RPMs at seaports; 55 RPMs at mail facilities; 232 large-scale gamma 
ray or x-ray imaging systems; and 3,000 small scale NII systems 
nationwide. Additionally, CBP has deployed over 1,400 Radiation Isotope 
Identifier Devices and over 18,000 Personal Radiation Detectors. These 
devices allow CBP to inspect 100 percent of all identified high-risk 
cargo.
    Currently, CBP uses radiation detection technologies to scan 99 
percent of trucks and 98 percent of personally owned vehicles arriving 
through northern border ports, 100 percent of vehicles arriving through 
southern border ports, and 98 percent of arriving sea containers. CBP 
uses RPMs to scan 99 percent of all cargo arriving in the U.S. by land 
and sea. In addition, CBP officers now use handheld radiation 
identification devices to scan 100 percent of private aircraft arriving 
in the U.S. from foreign destinations. To date, CBP has used the 
deployed systems to conduct over 37 million examinations, resulting in 
over 8,300 narcotic seizures, with a total weight of over 2.5 million 
pounds, and over $27 million in undeclared currency seizures.
    CBP is working in close partnership with the DHS Science and 
Technology Directorate to develop the next generation of NII Scanners 
and Automated Target Recognition Systems for deployment to maritime, 
land, and air ports of entry.
    Used in combination with our layered enforcement strategy, these 
tools provide CBP with an increased capability to detect contraband, 
including illicit nuclear or radiological materials.

SOUTHWEST BORDER SECURITY INITIATIVE
    In March, Secretary Napolitano announced its comprehensive border 
security policy, aimed at supporting the Mexican government's campaign 
against violent drug cartels and reducing the flow of contraband in 
both directions across the border. Along with the Merida Initiative, 
the National Southwest Border Counternarcotics Strategy, and the 
Administration's renewed commitment to reduce the demand for illegal 
drugs in the United States, the Department of Homeland Security has 
engaged in a far-reaching Southwest Border Security Initiative to crack 
down on Mexican drug cartels. The initiative focuses on enhanced border 
security, including the deployment of hundreds of new personnel, and 
enhanced intelligence technology to maximize capabilities and 
strengthen coordination with other federal law enforcement entities 
such as the Department of Justice, the Bureau of Alcohol, Tobacco, 
Firearms and Explosives, the Drug Enforcement Administration, and the 
Federal Bureau of Investigations, as well as state, local, tribal, and 
Mexican law enforcement authorities.
    A key and growing area of emphasis involves DHS' role in 
interdicting the illegal flow of weapons and currency into Mexico. A 
large portion of illegal consumed in the United States pass through 
Mexican territory and territorial seas. Illicit trafficking profits 
back to Mexican drug trafficking organizations across our common 
border. The recent surge in violence in the interior and border cities 
of Mexico poses a significant threat in Mexico and is a serious concern 
of the United States. Secretary Napolitano has tasked all DHS 
components, including CBP, to examine how we can reasonably increase 
our enforcement activities in an effort to identify and interrupt 
efforts to smuggle weapons and bulk cash shipments into Mexico.
    CBP is working with its partners in the Drug Enforcement 
Administration and the High Intensity Drug Trafficking Area centers to 
expand the National License Plate Reader (LPR) initiative to exploit 
intelligence on drug traffickers and drug trafficking organizations. 
The LPR initiative will utilize established locations to gather 
information regarding travel patterns and border nexus on drug 
traffickers to enable intelligence driven operations and interdictions. 
It should be noted that the LPR program is not specific to the 
Southwest border. The initial phase of the initiative is along the 
Southwest border, but the program will be expanded to encompass the 
Northern border and other areas throughout the country. Its 
capabilities can be utilized to assist other law enforcement entities 
in investigations of their high value targets, by combining existing 
law enforcement database capabilities with new technology to identify 
and interdict conveyances being utilized to transport bulk cash, drugs, 
weapons, and other illegal contraband.
    In a spirit of cooperation, CBP has established positions at the El 
Paso Intelligence Center, the Organized Crime Drug Enforcement Task 
Force Fusion Center, and the Drug Enforcement Administration Special 
Operations Division. These initiatives enhance interaction with the 
Intelligence Community and law enforcement agencies to more effectively 
facilitate the collection, analysis, and dissemination of actionable 
drug-related intelligence. CBP has also established two full-time 
positions at the National Gang Intelligence Center and has partnered 
with the National Gang Targeting, Enforcement and Coordination Center.
    With regard to CBP, the Southwest Border Security Initiative:
    Initiates 100 percent southbound rail scanning--CBP previously did 
not screen any of the cargo traveling by rail from the United States 
into Mexico; it is now scanning all rail cargo for weapons, ammunition, 
and currency. Existing non-intrusive inspection equipment is being used 
to detect contraband in cargo on each of the eight rail crossings on 
the southwest border.
    Adds Border Patrol Agents at POEs--CBP placed up to 100 Border 
Patrol agents at southwestern ports of entry to assist the Office of 
Field Operations (OFO) and to bolster outbound inspections from the 
U.S. into Mexico in order to detect arms and bulk-cash smuggling.
    Added Mobile Response Teams--Three Mobile Response Teams of 25 CBP 
officers each are periodically deploying to the southwest border to 
participate in focused operations developed to combat arms and bulk 
cash smuggling.
    Augments Search Technologies--An additional four low-energy mobile 
x-ray units have been moved to the southwest border, in addition to the 
seven already present, to help CBP identify anomalies in passenger 
vehicles.
    Engages Canine Teams--A total of twelve teams of ``cross-trained'' 
canines--trained to identify both firearms and currency--have been 
deployed to the southwest border.
    Adds License Plate Readers--Outbound lanes currently equipped with 
license plate readers will receive upgraded license plate reader 
technology to improve ability to identify the vehicles of known or 
suspected smugglers of cash, weapons, drugs, or persons. This 
information is shared with other law enforcement agencies through El 
Intelligence Center and the Organized Crime Drug Enforcement Task Force 
Fusion Center.
    Enhances Operation Stonegarden Grant Funding on the Border--Through 
Operation Stonegarden, an additional $30 million in Operation 
Stonegarden grants were made available to state, local and tribal law 
enforcement to be used for law enforcement personnel, overtime, travel 
and other related costs in order to further increase the law 
enforcement presence along the Southwest border. This funding has 
enhanced the Department's capabilities to coordinate with state, local 
and tribal law enforcement in order to effectively deter violence, 
enforce immigration laws and combat illegal trafficking.
    Actively Engages State, Local, and Tribal Law Enforcement--DHS is 
aggressively reaching out to law enforcement in border communities and 
is leading bi-monthly conference calls with chiefs of police and 
sheriffs in a classified setting.

CONCLUSION
    Madame Chairwoman, Members of the Committee, thank you again for 
this opportunity to testify and thank you again for your continued 
support of CBP. CBP has employed a thorough, multi-layered approach to 
address cargo security in the land environment, while continuing to 
facilitate the flow of legitimate trade.
    At CBP, we strive for seamless integration between our component 
offices, and we pride ourselves on the use of actionable intelligence 
gathering and the ability to adapt to potential threats by use of a 
multi-layered, flexible approach. With your ongoing support, I feel 
confident that we will make more and more strides towards efficiently 
and effectively achieving our twin goals of border security and 
facilitation of legitimate trade and travel.
    I will be happy to answer any of your questions.

    Ms. Sanchez. Thank you, Mr. Owen.
    I will now recognize Ms. Ayala for 5 minutes to summarize 
your testimony, please. Welcome.

STATEMENT OF JANICE AYALA, DEPUTY ASSISTANT DIRECTOR, OFFICE OF 
      INVESTIGATIONS, IMMIGRATION AND CUSTOMS ENFORCEMENT

    Ms. Ayala. Thank you.
    Chairwoman Sanchez, Ranking Member Souder, and 
distinguished members of the subcommittee, on behalf of 
Secretary Napolitano and Assistant Secretary Morton, thank you 
for the opportunity to discuss ICE's role in combating 
smuggling at our land ports of entry.
    First and foremost, ICE uses its broad federal authorities 
to meet the challenges of security at the ports of entry by 
conducting investigations through collaboration with the 
intelligence community and other federal, state, local and 
foreign partners.
    More than 6,500 ICE personnel stationed both in the United 
States and abroad keep ports of entry and transit points 
provide a 24/7 investigative response to any call for 
assistance to a seizure or incident from our law enforcement 
partners, especially CBP.
    ICE routinely responds to initiate investigations with 
reports of seizures of weapons, narcotics, undeclared currency, 
counterfeit goods, and other forms of contraband. ICE special 
agents respond with the identifying, disrupting and dismantling 
the entire illegal enterprise. ICE special agents utilize our 
customs and immigrations authorities to initiate investigations 
into the larger transnational criminal organizations who seek 
to exploit our borders and ensure their prosecution by the U.S. 
judicial system.
    ICE special agents also provide actionable intelligence and 
source information to CBP gleaned from ongoing investigations, 
source debriefs, trend analysis, and other sources in order to 
interdict contraband at and between the ports of entry. ICE has 
the largest force of investigators in DHS, and we protect our 
borders by investigating criminal organizations who exploit 
weaknesses in our legitimate trade, travel and financial 
systems.
    ICE has the ability to expand the scope of investigations 
beyond the domestic 26 SAC offices and the 56 attache offices 
situated throughout the world. This worldwide investigative 
posture enables us to address security threats before they 
reach our borders and ports of entry.
    The challenges of conducting investigations in the port 
environment are many, but not insurmountable. The port and port 
environments vary by geography, size and activity. In some 
instances, the larger size of the port makes surveillance a 
challenge, while small port of entry invites possible detection 
by co-conspirators.
    In the port environment, ICE agents routinely overcome 
these issues of counter surveillance, internal conspiracies, 
and other impediments by utilizing the investigative tools 
available to them. These investigations are enabled by 
roadblocks, cross-border coordination, and information-sharing 
amongst our law enforcement partners which positions ICE to 
respond to any incident at or between the ports of entry.
    The following is an example of the type of investigation 
done by ICE special agents to identify, dismantle and disrupt 
not only the money-laundering components of criminal 
organizations, but the underlying criminal activity. Beginning 
in June 2006, ICE Special Agent in Charge Atlanta began 
investigating a member of a drug-trafficking organization based 
in northern Mexico, with criminal enterprises established in 
McAllen and Atlanta, Georgia, metropolitan areas.
    In particular, this organization was responsible for the 
clandestine introduction of large quantities of cocaine and 
marijuana into the U.S. from Mexico through south Texas ports 
of entry by utilizing commercial tractor-trailer trucks loaded 
with legitimate merchandise. This same type of commercial 
tractor-trailer truck smuggled currency back to Mexico.
    During the course of the investigation, the SAC Atlanta 
employed numerous investigative methods to infiltrate the 
organization, and this multi-jurisdictional, bi-national 
investigation resulted in the indictment of 41 individuals in 
the U.S. and Mexico, including a high-ranking member of the 
Gulf Cartel. Furthermore, ICE and its partner agencies were 
able to seize over 12,000 pounds of marijuana, 200 kilograms of 
coke, and almost $23 million in currency.
    In addition to the exemplary casework done by ICE special 
agents, ICE employs initiatives such as Operation Armas 
Cruzadas and Firewall, the Container Security Initiative, 
Vetted Investigative Foreign Units, the Border Enforcement 
Security Task Forces, or BESTs, the Northern Border Integrated 
Border Enforcement teams, or IBETs, and intelligence fusion de-
confliction centers.
    The BEST is an international law enforcement model 
confronting the multifaceted threat of border-related crimes 
through the sharing of resources, information and expertise. 
BESTs serve as a platform from which interagency and our 
international partners can work together to address cross-
border crimes and is the investigative foundation of bulk cash 
smuggling Operation Firewall and weapons smuggling operation 
Armas Cruzadas.
    They also complement and support the Container Security 
Initiative, overseas, and IBET program. Both ICE and CBP remain 
committed to work collaboratively to fulfill our overall 
homeland security mission. In properly communicating and 
coordinating our referrals, as well as information gained from 
those referrals, ICE and CBP can ensure the interdictions are 
brought to the logical and most effective conclusion, which is 
through proper investigations that can provide border 
intelligence and additional opportunities to secure the border 
and ports of entry.
    I would like to thank the subcommittee for its continued 
support of ICE and its enforcement missions, and I would be 
pleased to answer any questions you may have.
    [The statement of Ms. Ayala follows:]

                   Prepared Statement of Janice Ayala

INTRODUCTION
    Chairwoman Sanchez, Ranking Member Souder, and distinguished 
Members of the Subcommittee:
    On behalf of Secretary Napolitano and Assistant Secretary Morton, 
thank you for the opportunity to discuss U.S. Immigration and Customs 
Enforcement (ICE)'s role in combating smuggling at our land ports of 
entry through robust interagency coordination. First and foremost, ICE 
uses its broad federal authorities to meet the challenges of security 
at the ports of entry by conducting intelligence-driven investigations 
through collaboration with the intelligence community, and other 
federal, state, local and foreign partners.
    The challenges of conducting investigations in the port environment 
are many, but not insurmountable. The port and border environments vary 
by geography, size, and activity. In some instances, the large size of 
the port of entry makes surveillances a challenge, while a small port 
of entry invites possible detection by coconspirators. In the port 
environment, ICE agents routinely overcome issues of 
countersurveillance by co-conspirators, internal conspiracies, 
corruption, and other impediments by utilizing their knowledge of 
customs and immigration laws, investigative tools, specialized 
techniques, and law enforcement authorities to initiate investigations 
into the larger transnational criminal organizations who seek to 
exploit our borders and ensure their prosecution by the U.S. judicial 
system. These multiagency investigations are enabled by robust, 
crossborder coordination and information sharing amongst our law 
enforcement partners, especially U.S. Customs and Border Protection 
(CBP), which positions ICE to respond on a 24/7 basis to any incident 
at the port of entry or the borders that poses a potential threat to 
security.
    ICE has the largest force of investigators in the Department of 
Homeland Security (DHS), and we protect our borders by investigating 
criminal organizations that exploit weaknesses in our legitimate trade, 
travel, and financial systems to further their illicit enterprises. 
More than 6,500 ICE special agents detect, disrupt, and dismantle 
crossborder criminal networks engaged in the smuggling of people, 
narcotics, bulk cash, and weapons across our borders. ICE is focused on 
countering the illicit activities that occur at our land ports of entry 
along the shared border with Mexico and Canada. Furthermore, ICE has 
the capability to expand the scope of its investigations beyond the 
domestic 26 Special Agent in Charge offices to the 56 Attache offices 
situated throughout the world. This worldwide investigative posture and 
shared initiatives enable us to address security threats before they 
reach our borders and ports of entry.
    Outlined below and explained in detail in this statement are 
several ICE and DHS programs and initiatives designed to challenge the 
criminal organizations that perpetuate the criminal activity that 
threatens the security of our borders and ports of entry. ICE works in 
concert with its domestic and international law enforcement partners to 
investigate the smuggling of weapons, narcotics, contraband, and the 
bulk cash which fuels the criminal activity. ICE capitalizes on its 
robust authorities and expertise to remain vigilant and adaptive to 
threats to our borders and ports of entry.
    ICE's efforts, along with the broader U.S. Government response to 
combating smuggling at our land ports of entry, require effective 
operational collaboration and expanded information sharing with 
domestic and other foreign law enforcement agencies. ICE facilitates 
these objectives through unique initiatives, which I will describe 
later, such as Operation Armas Cruzadas, Operation Firewall, the 
Container Security Initiative (CSI), Vetted Foreign Investigative 
Units, Border Enforcement Security Task Forces (BESTs), the Integrated 
Border Enforcement Team (IBET), the Border Violence Intelligence Cell 
(BVIC), the Weapons Virtual Task Force (WVTF), and through the use of 
formal interagency agreements. We also collaborate and share 
information with federal, state, and local law enforcement partners in 
national and regional coordination centers. And not long ago, we 
renegotiated formal interagency agreements with the Drug Enforcement 
Administration (DEA) and the Bureau of Alcohol, Tobacco, Firearms and 
Explosives (ATF) to facilitate even closer coordination and expanded 
information sharing.

    IMPLEMENTATION OF THE SOUTHWEST BORDER INITIATIVE
    The Southwest Border is an important area of focus for the 
Department of Homeland Security, which plays an integral role in 
implementing the comprehensive U.S.-Mexico border security policy 
announced by Secretary Napolitano on March 24. Along with the Merida 
Initiative, the National Southwest Border Counternarcotics Strategy, 
and the Administration's renewed commitment to reduce the demand for 
illegal drugs in the United States, the Department of Homeland Security 
has taken important steps to improve security along the U.S.Mexico 
border. As first outlined by the Secretary on April 15, DHS has 
redeployed personnel and technology in order to bolster the federal 
government's action against cartels on the southwest border. ICE 
doubled assignments to ICE BESTs; tripled the number of intelligence 
analysts working at the border; and quadrupled the number of agents 
designated as Border Liaison Officers to work in close cooperation with 
Mexican law enforcement. Within Mexico, ICE increased its investigative 
workforce by 50 percent.

    COLLABORATION WITH THE GOVERNMENT OF MEXICO
    Cooperation is a critical piece to effective law enforcement along 
the borders and at the ports of entry-this includes ICE coordination 
with its counterparts in Mexico. The violent cartels operating in 
Mexico are a binational threat that must be dealt with in a bilateral 
way--both the United States and Mexico must focus on smuggling channels 
that flow both ways across the border. Indeed, earlier this year, 
President Calderon of Mexico identified the illegal flow of weapons 
from the United States as one of the greatest security threats to his 
country. On April 1, Secretary Napolitano traveled to Cuernavaca, 
Mexico with Attorney General Holder to attend a joint U.S.Mexican 
conference on arms trafficking. At the conference, the Secretary and 
the Attorney General discussed future joint efforts to prevent firearms 
from being smuggled into Mexico from the United States.
    Interagency collaboration with the Mexican government is a part of 
a broader theme of shared responsibility that Attorney General Holder 
and Secretary Napolitano agree is central to our strategic effort to 
secure the SWB. Stopping the flow of firearms and bulk cash into Mexico 
is an important component of the larger strategy to secure our borders 
from the criminal organizations that use those resources to traffic 
contraband and perpetrate violence. Comparative to CBP uniformed 
presence at the nation's borders to stop the flow of firearms and bulk 
cash, ICE's investigative presence at the ports of entry serves an 
equally important role to identify, disrupt, and dismantle the criminal 
organizations engaged in the movement of firearms and bulk cash 
smuggling. ICE accomplishes this through Operation Armas Cruzadas and 
Operation Firewall.
    Operation Armas Cruzadas. ICE has intensively deployed resources 
for Operation Armas Cruzadas, a comprehensive, collaborative effort 
with the Government of Mexico (GoM) to identify, disrupt, and dismantle 
the criminal networks that illicitly transport arms across the border. 
ICE and CBP have stepped up efforts to interdict southbound weapons 
smuggling, pursuant to DHS authority to enforce export provisions of 
the Arms Export Control Act as specifically designated within 22 
C.F.R.Sec. 127.4 of the International Traffic in Arms Regulations and 
to prevent smuggling of weapons in violation of 18 U.S.C. Sec. 554. 
Under Operation Armas Cruzadas, ICE has implemented numerous activities 
that promote an intelligencedriven, systematic approach to arms 
trafficking investigations. Since its inception in 2008, Operation 
Armas Cruzadas has resulted in the seizure of 1,880 weapons, more than 
$7.9 million, 206,412 rounds of ammunition, and the arrests of 257 
individuals on criminal charges, resulting in 147 criminal indictments 
and 96 convictions.
    A recent case out of Laredo, Texas, demonstrates the significant 
impact of our proactive efforts at penetrating Mexican weapons 
trafficking networks with ties to the interior of the United States. A 
joint investigation by ICE and ATF began with a seizure of 25 .22 
caliber rifles, a 9mm pistol, a 16-gauge shotgun, a 20-gauge shotgun, 
100 rounds of 9mm ammunition, and other various parts of disassembled 
weapons by CBP during an Armas Cruzadas operation. ICE special agents 
from the Laredo BEST responded with ATF special agents to interview the 
driver, in which they learned that he was paid to drive the truck to 
Mexico by a resident of Oklahoma. What followed was a joint 
investigation between ICE and ATF in which investigators uncovered a 
conspiracy to purchase firearms in the U.S. illegally and arrange for 
their covert movement to Mexico.
    Based on this collaborative information, ATF agents obtained a 
search warrant for a residence in Oklahoma and subsequently seized 
approximately 950 firearms, including rifles, shotguns and handguns, 
ammunition and approximately $30,000 in U.S. currency. This 
investigation illustrates how criminal organizations facilitate the 
movement of weapons through our ports of entry. However, through 
innovative initiatives like Operation Armas Cruzadas, coupled with the 
collaboration of multiple law enforcement agencies and authorities, 
this criminal organization was unraveled and its future efforts to 
utilize the ports of entry to smuggle firearms were stymied.
    Operation Firewall. In addition to addressing weapons smuggling, 
ICE partners with CBP to combat the illegal movement of cash across the 
SWB. This currency is the lifeblood of the violent drug cartels; the 
United States must interrupt the illegal flow of money derived from the 
illicit narcotics trade and other criminal activity. ICE's Operation 
Firewall counters bulk cash smuggling through partnerships and close 
operational collaboration with foreign partners, including Mexico. On 
the first day of operations in 2005, at the Benito Juarez International 
Airport in Mexico City, Mexican authorities seized $7.8 million en 
route to Cali, Colombia, concealed inside deep fryers, rotisseries and 
voltage regulators. Other notable seizures in Mexico include $7.3 
million seized inside rolls of fabric and plastic, and $4.7 million 
concealed inside air conditioning equipment and metal piping destined 
for Colombia. ICE and CBP continue to make seizures in the arena of 
bulk cash smuggling. This September, ICE and CBP analyzed trade data of 
containerized cargo and seized over $22 million concealed inside 
containers in Colombia and Mexico. These seizures demonstrate that 
criminal organizations continue to utilize containerized cargo as a 
prime mode of transportation for contraband and the illicit proceeds 
generated by it.
    While ICE can point to many successes overseas in the area of bulk 
cash smuggling, the work done here at home is of equal importance to 
identifying, dismantling, and disrupting not only the money laundering 
components of criminal organizations, but the underlying criminal 
activity as well.
    Beginning in June 2006, and in conjunction with the Drug 
Enforcement Administration (DEA) Atlanta Division, the ICE Special 
Agent in Charge (SAC) Atlanta began investigating members of a drug 
trafficking organization (DTO) based in Northern Mexico, with criminal 
enterprises established in the McAllen, Texas, and Atlanta, Georgia, 
metropolitan areas. In particular, this DTO was responsible for the 
clandestine introduction of large quantities of cocaine and marijuana 
into the United States from Mexico through the utilization of 
commercial tractortrailer trucks loaded with legitimate merchandise. 
The organization also utilized commercial tractortrailer trucks to 
smuggle currency back to Mexico.
    During the course of the investigation, SAC Atlanta, with the 
assistance of DEA Atlanta, employed numerous investigative methods to 
infiltrate the organization, including 24 court orders. The results of 
this multijurisdictional, binational investigation resulted in the 
indictment of 41 individuals in the United States and Mexico, and 
included the indictment of a high ranking member of the Gulf Cartel. 
Furthermore, ICE, DEA, ATF, FBI, CBP, and the Georgia State Patrol were 
able to seize approximately 12,833 pounds of marijuana, 224 kilograms 
of cocaine, $22.7 million in currency, forfeiture sought on 14 
properties, and 18 bank accounts.

COORDINATION OF FOREIGN AND DOMESTIC INTERAGENCY OPERATIONS
    Container Security Initiative. Announced in January 2002, the CBP 
Container Security Initiative (CSI) was first implemented in foreign 
ports that ship the greatest volume of containers to the United States. 
Under the CSI program, a team of CBP officers and ICE special agents 
are deployed overseas to work with host nation counterparts to target 
all containers that pose a potential threat, ensuring that they are 
identified and inspected at foreign ports before they arrive at the 
ports of entry in the United Sates. In September 2002, CSI commenced 
operations at the ports of Rotterdam, Netherlands and Le Havre, France. 
There are presently 58 ports with a CSI presence and 28 with ICE 
Special Agents assigned overseas. As members of the CSI team, ICE 
Special Agents act as an extension of the ICE Attache office, gathering 
information and intelligence to identify, disrupt and dismantle 
criminal organizations that attempt to exploit the international 
transportation system.
    BEST. More than a DHS program, BEST is a law enforcement model that 
recognizes confronting the multifaceted threat of borderrelated crimes 
such as narcotics, weapons and human trafficking requires sharing 
resources, information, and expertise. BESTs serve as a platform from 
which interagency--and international--partners can work together to 
address crossborder crime. The BESTs operating on our land borders, at 
or near land ports of entry, and in major maritime port cities, 
incorporate personnel from ICE, CBP, DEA, ATF, the Federal Bureau of 
Investigation (FBI), the U.S. Coast Guard (USCG), and respective U.S. 
Attorney's Offices, along with other key federal, state, local, tribal, 
and foreign law enforcement agencies. The Mexican Secretaria de 
Seguridad Publica (SSP) currently participates in BESTs along the SWB, 
and Canadian law enforcement agencies such as Canada Border Services 
Agency, Royal Canadian Mounted Police, Ontario Provincial Police, 
Niagara Regional Police Service, and Toronto Police Service participate 
in the BESTs along the Northern Border.
    As testament to the success of the BEST, the GoM has agreed to 
provide representatives to every BEST team on the SWB. Additionally, 
other GoM agencies and foreign partners are working with ICE to expand 
their participation in the BESTs, thus enhancing the international 
scope and participation of the initiative. Since the launch of the 
Southwest Border Initiative on March 24, ICE has established new BESTs 
in Las Cruces and Deming, New Mexico, as well as in Detroit and Mexico 
City resulting in a total of 17 BESTs covering highthreat smuggling 
corridors.
    A major component of the BEST in Mexico City is the use of the 
joint vetted units. ICE Attache personnel are working closely with 
their Mexican counterparts to build specialized, vetted investigative 
units to focus on bilateral weapons smuggling investigations, and 
provide an immediate investigative response to weapons seizures within 
Mexico. These vetted units will address an information requirement gap 
that currently exists with respect to tracing weapons and exploiting 
investigative leads. With the establishment of the vetted units, weapon 
serial numbers will be more consistently obtained and traced within 
ATF's eTrace database prior to the weapons being turned over to the 
Mexican military. More comprehensive weapons trace data will facilitate 
better identification of U.S. sources of weapons. The vetted units will 
better exploit the seizures through interviews, telephone data/record 
analysis and other investigative tools, leading to the identification 
of crossborder weapons smuggling networks. This information is then 
shared with BESTs located at the ports of entry to investigate and 
identify the larger criminal organizations. A robust information 
sharing platform will facilitate the exchange of leads for coordinated 
exploitation of U.S. leads by U.S. agencies, and Mexican leads by GoM 
agencies.
    Overall, the BEST model has been very successful. ICE, with the 
help of our partners, has cracked down on arms trafficking, human 
smuggling, bulk cash smuggling and narcotics smuggling organizations. 
These efforts have disrupted cartel operations in both the United 
States and Mexico. Since July 2005, the efforts of BEST teams, working 
in conjunction with the Department of Justice (DOJ) and other law 
enforcement agencies, have been responsible for 2,895 criminal arrests, 
3,463 administrative arrests, 1,306 indictments and 1,114 convictions. 
In addition, BESTs have seized approximately 9,618 pounds of cocaine, 
213,553 pounds of marijuana, 1,106 pounds of methamphetamine, 131 
pounds of crystal methamphetamine, 1,560 pounds of ecstasy, 263 pounds 
of heroin, 113 pounds of hashish, 22 pounds of opium, 2,471 weapons, 
over 365,000 rounds of ammunition, 1,090 vehicles, and $30.7 million in 
U.S. currency and monetary instruments.
    Integrated Border Enforcement Team. In addition to the BESTs along 
the Northern border, the Integrated Border Enforcement Team (IBET) 
concept was organized in 1996 and formalized in April 2001 to target 
crossborder criminal activity along the Northern border with Canada. In 
November 2006, ICE signed the IBET Charter as a core member and has 
been involved in the IBET concept since its inception. IBET consists of 
five core agencies with law enforcement responsibilities at the border. 
These agencies include: ICE, CBP, USCG, the Royal Canadian Mounted 
Police, and the Canada Border Services Agency. Furthermore, the IBETs 
are comprised of multiagency groups of law enforcement officials 
dedicated to securing the integrity of the CanadaU.S. border while 
respecting the laws and jurisdictions of each nation. As such, the IBET 
investigative priorities are (1) national security, (2) crossborder 
criminal activity, and (3) organized crime related to the U.S./Canada 
border. Currently there are 23 offices located in 15 IBET regions along 
the U.S./Canada border.
    National Intellectual Property Rights Coordination Center. The ICE-
led National Intellectual Property Rights Coordination Center (IPR 
Center) has employed a true task force model designed to optimize the 
roles and coordinated enforcement efforts of the agency partners to 
address the problem of counterfeit merchandise. The IPR Center has 
imbedded representation from ICE, CBP, the FBI, the Food and Drug 
Administration's Office of Criminal Investigations, and the U.S. Postal 
Inspection Service. The IPR Center is further supported by the Computer 
Crime and Intellectual Property Section, Criminal Division, U.S. 
Department of Justice.
    The IPR Center serves as the U.S. Government's primary location--a 
``One Stop Shop''--for investigations, intellectual property rights 
holders, counterpart domestic and foreign law enforcement agencies, and 
the public to submit intelligence and lead-based information for 
analysis, assessment and investigative referral. The IPR Center also 
serves as a clearinghouse for deconfliction of all leads generated or 
received by partner agencies to ensure a timely, coordinated and 
dedicated response.
    The IPR Center also develops enforcement initiatives and provides 
investigative guidance on a variety of commercial fraud and IPR 
priority enforcement and targeting programs, including public health 
and safety, inbond diversion, Fraud Investigative Strike Teams, anti-
dumping/countervailing duties, and various bilateral and free trade 
agreements. Specifically, ICE developed and implemented Operation 
Guardian, a comprehensive, multiagency enforcement initiative that 
combines the specific areas of expertise from our partner agencies to 
investigate illegal importations of substandard, tainted, hazardous and 
counterfeit commodities posing a health and safety risk to consumers. 
In fiscal years 2008 and 2009, Operation Guardian resulted in the 
identification and detention of tainted, counterfeit and/or substandard 
tainted infant formula, contaminated shrimp and honey, tainted pet 
foods, counterfeit medical devices, computer components, 
pharmaceuticals, and circuit breakers.

EXPANDED INFORMATION SHARING WITH FOREIGN, FEDERAL, STATE, LOCAL, AND 
TRIBAL LAW ENFORCEMENT PARTNERS
    Border Violence Intelligence Cell. The Border Violence Intelligence 
Cell (BVIC) supports the national effort to combat weapons smuggling 
and stem the surge in violence along the Southwest Border. This unit 
facilitates timely information sharing with state, tribal, local, 
foreign, and other federal law enforcement agencies, and serves as the 
focal point for analyzing allsource intelligence in support of the 
BESTs and ICE Attache Mexico offices. Through the BVIC, the BESTs, ICE 
Attache offices, and the U.S.vetted GoM Arms Trafficking Group exchange 
crossborder weaponsrelated intelligence through a virtual intelligence 
network, creating a seamless investigation of the criminal networks 
that span the SWB. The BVIC, in cooperation with the ATF weapons desk 
at the El Paso Intelligence Center (EPIC), serves as the central point 
for analyzing allsource intelligence and trends in firearms smuggling. 
Since March 30, 2009, analysts working with the BESTs, in coordination 
with the BVIC, have produced 213 intelligence reports, over 60 
comprehensive target folders, and 114 investigative leads relating to 
suspected weapons traffickers operating along the SWB.
    Weapons Virtual Task Force. The Weapons Virtual Task Force (WVTF) 
is a community of interest within the Homeland Security Information 
Network--a secure, unclassified webbased information sharing platform. 
The community was created to assist information exchange between ICE 
and its Mexican law enforcement counterparts under the Armas Cruzadas 
initiative. Using the WVTF, law enforcement on both sides of the border 
can upload and share information pertinent to law enforcement actions 
along the SWB. While currently in its infancy, it is anticipated that 
the WVTF system will incorporate any GoM enforcement action results or 
intelligence developed by Mexican law enforcement related to Armas 
Cruzadas. The information will then be available for ICE investigators 
and analysts to view and analyze. Last month, ICE sent a team to Mexico 
to train Mexican law enforcement on the use of the system. This 
training is a strong step toward a closer relationship and better 
information exchange, and will continue as additional users on both 
sides of the border are added.

FORMAL INTERAGENCY AGREEMENTS
    The successes of the BESTs, as well as Operations Armas Cruzadas 
and Firewall, illustrate how colocated taskforces and multiagency 
initiatives can stem the flow of crossborder criminal activity and 
enhance the security of our ports of entry. Interagency roles, 
responsibilities and coordination are guided by numerous statutes, 
presidential directives and formal, interagency agreements. Given the 
extent of ICE authorities in enforcing the nation's customs and 
immigration laws, ICE has cooperation agreements with federal, state, 
local, and foreign law enforcement agencies in order to more 
effectively leverage our combined resources. I would like to highlight 
two of the more recent partnerships entered into by ICE. These are the 
June 18, 2009, Interagency Cooperation Agreement between ICE and DEA 
and the June 30, 2009, Memorandum of Understanding between ICE and ATF.
    Interagency Cooperation Agreement between ICE and DEA. On June 18, 
2009, ICE and DEA announced an Interagency Cooperation Agreement 
Regarding Investigative Functions Related to the Controlled Substances 
Act. Specifically, the June 18, 2009, agreement provides the following: 
(1) a commitment by both ICE and DEA to share information through 
mechanisms including the Special Operations Division, the OCDETF Fusion 
Center and EPIC; (2) authorization for the ICE Assistant Secretary to 
select an unlimited number of ICE agents for crossdesignation by the 
Administrator of DEA; (3) delineation of crossdesignated ICE agents' 
authority to investigate narcotics smuggling with a clearly articulable 
nexus to the U.S. border, including related transportation and staging 
activities within the United States; and (4) procedures for 
deconfliction and operational coordination in both the domestic and 
foreign counternarcotics environments. The agreement took immediate 
effect and will be reviewed one year after its initial effective date. 
In addition, after the oneyear review, the agreement will be reviewed 
thereafter every two years, or at any time, upon written request by 
either party.
    Memorandum of Understanding between ICE and ATF. When ICE and ATF 
join forces through joint investigations or via the BEST teams, both 
agencies bring balanced authorities to any investigation. The June 30, 
2009, Memorandum of Understanding between ICE and ATF established the 
clear roles that both agencies have over domestic and international 
trafficking of firearms, ammunition, explosives, weapons, and 
munitions. The agreement recognized that both law enforcement agencies 
are actively engaged in the fight against persons and criminal 
organizations involved in violent crime and gun trafficking.
    The agreement requires that ATF report to ICE any information 
relating to attempted or planned violations of federal law within the 
jurisdiction of ICE. The agreement imposes a reciprocal requirement 
upon ICE to report to ATF any information relating to attempted or 
planned violations of federal law within the jurisdiction of ATF. The 
agencies also agree to coordinate information concerning firearms and 
explosives investigations that involve each other's investigative 
jurisdiction.
    Moreover, ATF and ICE will invite each other's participation in any 
investigations within the jurisdiction of the other. In addition, the 
agreement sets forth important policies concerning the shared use of 
human confidential sources of information and the control of 
intelligence. The agencies agreed to coordinate efforts as they relate 
to activities at Federal Firearms Licensees, Federal Explosives 
Licensees, gun shows, international borders and ports of entry.

CONCLUSION
    The coordination and information sharing initiatives I have 
discussed today portray the extensive cooperation currently underway 
between ICE and our counterparts in CBP, as well as state and local 
governments, the federal government, and foreign governments and how 
this is enabling us to address the challenges of security at our ports 
of entry. Taken together, all of these initiatives represent a 
substantial advancement towards operating in a truly complementary 
fashion, by harnessing each agency's particular authorities and 
expertise in more efficient ways as opportunities arise to secure the 
border and our land ports of entry.
    I would like to thank the Subcommittee for its continued support of 
ICE and our law enforcement mission. I would be pleased to answer any 
questions you may have.

    Ms. Sanchez. Thank you for your testimony, Ms. Ayala.
    I will now remind each member that he or she will have 5 
minutes to question the witnesses. And I will now recognize 
myself for the questions I would like to ask.
    Mr. Owen, it is my understanding that commercial vehicles 
found to be carrying drugs have used the Trusted Traveler 
Programs, such as FAST lanes, to transport those drugs. Is that 
true? And if it is, how are commercial--are these commercial 
vehicles carrying cargo with foreign license plates? What is 
the process to have them--to come into the United States? And 
how are they tracked within our country?
    Mr. Owen. Madam Chairwoman, under the C-TPAT program, a 
foreign--a Mexican highway carrier may apply for the program, 
demonstrate to CBP that it is meeting clearly defined minimum 
security criteria in terms of personnel screening, conveyance 
tracking, stuffing of the container, those things. And the 
driver will also apply for a FAST card, which requires 
additional background checks on the individual.
    There are 93,000 FAST drivers in the country right now, and 
that includes both borders, the northern and southern borders, 
and there are 9,400 C-TPAT members. The highest-risk enrollment 
sector we have in C-TPAT are the Mexican highway carriers.
    There were 71 incidents involving C-TPAT members over the 
last 2 years, and 35 of those involve Mexican highway carriers, 
so that is our area of most concern, are the individuals 
driving the trucks that come in from Mexico. Taken again in its 
totality over those 93,000 drivers, those 9,000 C-TPAT 
companies, incidents of these are very, very infrequent, but we 
do take them very seriously.
    We will suspend the companies out of the program. We will 
revoke the FAST driver's license or the FAST cardholder's 
license until we conduct what we call a post-incident analysis 
to figure out where the breakdown occurred, if it was just a 
rogue driver that deviated from the policies and the procedures 
of the company that he employed or if there is a more systemic 
issue.
    So while the incidents are very infrequent, they are very 
significant to us, and we take them as such.
    Ms. Sanchez. Now, I remember with respect to C-TPAT, when 
we were working in the cargo containers at the water ports, 
that the program had a lot to be desired as far as our ability 
to--as I recall in the program, a company which did a plan, and 
in some cases we would put it on a shelf, and we wouldn't take 
a look at it, and we didn't have any audits going on. We 
wouldn't go into the company to see if, in fact, they were 
following that, if there were--obviously, if there weren't 
initial audits, there were no follow-up audits going on, and we 
have gotten to very few of those companies with respect to the 
containers.
    Can you talk a little bit about where we are, how often we 
audit, what is the process with C-TPAT, as it applies to these 
carriers that are bringing things across--cargo across the land 
borders?
    Mr. Owen. Yes, ma'am. In the first years of the C-TPAT 
program, in 2003-2004, we did struggle with staffing. The 
program was very well received by the trade community, and we 
were, quite frankly, overwhelmed at the number of applicants.
    Since that time, beginning in 2005, we significantly added 
staffing. We went from 38 supply chain specialists in the early 
years. We have 200 specialists now. We had three C-TPAT offices 
nationwide. We now have seven C-TPAT field offices. These 
employees perform the most critical work, which, as you 
mentioned, is the verification that the plan they gave us in 
paper has, in fact, been adopted and implemented throughout 
their supply chains.
    To date, we have now performed over 12,000 foreign 
validations, so 12,000 times C-TPAT specialists have traveled 
overseas to look at the point of stuffing, to look at the 
drayage or the movement from the point of stuffing to the sea 
port, worked with the sea port and the terminal operators, 
making sure that whole supply chain is secure. So we have come 
quite far from where we were in those early years where we were 
doing very few validations.
    As to your question, as to the routineness of the 
validations, if you will, because Mexico is our greater threat 
sector, we revalidate those companies every year, and we also 
do unannounced validations or spot checks, if you will, on some 
of the facilities.
    The unannounced efforts are something that we just started 
within the last year after a recommendation from GAO in 2008 
that said you really need to take the program to the next 
level. You need to do more robust validations, more spot 
checks, those types of things.
    So the rest of the members outside of the C-TPAT Mexican 
companies are required to be validated once every 4 years by 
the SAFE Port Act. And, in fact, we revalidate them once every 
3 years, so we are a little bit ahead of the game with that. 
But the Mexican segment does pose our greatest risk, and we do 
revalidate them every year.
    Ms. Sanchez. Mr. Owen, I am also concerned about the growth 
of our forces, if you will, in looking at cargo and people 
coming across the border, especially at the land border. We 
have really increased the size of our force, which has brought 
in a lot of new people. We hired a lot of these people during a 
time when unemployment was low, so we were really fighting to 
try to get people in, to train them, et cetera.
    And I am a little worried about the increase in corruption 
that we have seen. I know in 2007, we had eight confirmed cases 
of corruption among those people who are working on the front 
line for us. And in 2008, we saw 21 confirmed cases.
    So can you explain to me, without giving out any big 
information, but just to let us know what type of a system you 
have got in place to target and weed out corrupt officers? How 
do you incorporate anti-corruption into agent and officer 
training in the culture at CBP? And have there been any cases 
where outside groups have infiltrated into the CBP?
    Mr. Owen. In terms of our Office of Internal Affairs, over 
the last 2 years, they have significantly increased their staff 
of criminal investigators in Washington, as well as throughout 
the country. I believe we now have over 200 investigators just 
within our Office of Internal Affairs.
    They have also come up with a comprehensive strategy that 
begins with the employment screening of an applicant trying to 
obtain a job within CBP, and we are using polygraphs for some 
critical candidates in certain key positions. There are also 
analytical tools that we employ to identify certain trends 
within officers' activities while on the job that may indicate 
an area of concern for us.
    So we do recognize integrity is a very critical aspect of 
what we are doing. We cannot have a solid security program if 
the weakest link is the officer at the front booth. So our 
internal affairs office does take this very impressively. We 
have increased staff, and they do, again, have some analytical 
tools that work to identify trends that need to be looked at 
more closely.
    Ms. Sanchez. I have a lot more questions in that arena, but 
I will ask my ranking member now, Mr. Souder of Indiana. The 
gentleman is now recognized for his questions.
    Mr. Souder. I have a number, as well, but I have a couple 
of follow-ups. One is, why aren't all employees polygraphed? In 
most law enforcement agencies, all applicants are polygraphed. 
Why haven't we implemented that in CBP?
    Mr. Owen. Well, I would have to defer that question back to 
our Office of Internal Affairs, but I know it is something that 
we are doing for the critical key positions as they are 
entering, but we can take that back----
    Mr. Souder. What is a critical position?
    Mr. Owen. Again, I would have to defer to our Office of 
Internal Affairs----
    Mr. Souder. Please provide to the committee the definition 
of critical and the status of the investigations Law 
enforcement officers are routinely polygraphed. It is not a 
perfect system, but it is usually just part of the hiring 
process. "It has been intriguing why we haven't done that, as 
we have ramped up concerns about the border and ports of entry. 
It is not to question the overwhelming majority, but the 
problem is the more you hire, the more risk you have, and it is 
something we normally do in law enforcement.
    I also wanted to ask Ms. Ayala, a ballpark here today and 
get back to us, with what percent--and you might want to break 
it by major and minor--what percentage of the things that we 
find at the border, whether it be narcotics, other illegal 
contraband, people on terrorist watch lists, and so on, but 
particularly contraband, come from a tip or an investigation as 
opposed to a cold hit?
    It is important to do a cold hit, to make sure, but I am 
wondering what kind of the balance is.
    Ms. Ayala. I think it would be difficult to give you 
percentages, because I think it varies depending on what area 
you are in, as far as offices and the level of non-
discretionary work versus discretionary work that they have, as 
far as response to large ports of entry or to airports or sea 
ports. But we do have a variety of different ways, and we try 
to maximize each and every opportunity, whether it be from a 
cold hit so that we can respond and make sure that we develop 
the information that we need to identify the organization, the 
domestic and the international arena, and then be able to feed 
back that information to CBP to then affect other interdicted 
activity.
    With that said, we also work with the interagency, through 
a task force environment, such as a BEST and so forth, to look 
at local area threats and how we can maximize our efforts in 
developing proactive cases.
    So I think it would be difficult to give you percentages 
overall. It may be just, again, depending on----
    Mr. Souder. What if I narrow my scope of my question? Most 
commercial trucks come at El Paso and at the Otay Mesa 
commercial of entry, And if you take the Otay Mesa entry, the 
El Paso entry, the Buffalo, Detroit, and maybe the biggest in 
Arizona, and those ports of entry on major cases and--or a 
significant find, hopefully you are--like you say, if you get a 
cold hit, you go the other direction.
    Because when we are dealing with, for example, most major 
trafficking organizations in the United States, in cities, or 
whether we are dealing particularly in narcotics, which I am 
most familiar with, coming through the Caribbean or through, 
almost all those are investigations. And if the overwhelming 
majority isn't from a tip, the question is, are we working that 
structure hard enough?
    To me, in other words, it is not if we are getting a 
significant percentage on a cold hit, then we need more 
investigators.
    Ms. Ayala. We do get a significant percentage from cold 
hits in order for us to be able to respond to those incidents. 
Whether it be at, again, these busy ports of entry, of course, 
then we need a larger investigative force to attack that issue. 
And then we currently do that through our current ICE 
investigators and through force multipliers through other task 
forces.
    But while that tip is important, that initial seizure, we 
really do--our goal is to identify the entire organization, 
which, then again, takes additional resources not necessarily 
at those ports of entry, but in the interior of the United 
States and abroad to bring the complete conspiracy to light and 
the case to a complete fruition.
    Mr. Souder. I will see. I may have some follow up to that.
    Mr. Owen, given the fact that truck traffic is 
significantly down the last few years, what are you doing to 
make sure, during this period where we have less traffic, that 
we are trying to expand the FAST lanes? I have seen it in a few 
locations. What I have seen is much about being things--
projects being delayed as I have seen stepped up.
    What are we doing at these critical crossings? Because, 
clearly, the long waits are at a few major ports. We have 
shorter waits at some of the smaller ones.
    Mr. Owen. Yes, sir. And you are right. With the economy 
being down, we still see about 57,000 trucks and sea 
containers, rail containers that cross the border every day. So 
even with the downturn in economy, the volume is still 
significant.
    Through the deployment of additional non-intrusive 
inspection equipment, we have actually been able to increase 
our exam rate in 2009. We examined 25 percent of the trucks 
using X-ray or gamma ray in 2008. We are up to 30 percent this 
year. So we are doing a good job, I think, of meeting those 
twin responsibilities of security, yet facilitating the trade.
    To your point as to the infrastructure, even if we have 20 
booths at the port of entry and all 20 are staffed, if it is a 
two-lane highway leading from Mexico into the port of entry, 
you are going to have the backups. So I agree with you that the 
solution is not necessarily infrastructure within the port of 
entry, although that needs to be updated. The average age of 
the ports are more than 40 to 45 years old. But the 
infrastructure leading up to the port and out of the port is 
just as critical as the booths that we have within the actual 
port of entry.
    Mr. Souder. It is not like this hasn't been a problem for a 
long time in Detroit and Buffalo. Do you coordinate at all with 
other stakeholders. Are we pushing that to be resolved? Because 
the counter push is to weaken inspections because we have no 
capacity.
    Mr. Owen. Yes, sir. And we do work with the Canadian 
government, as well as the stakeholders. Each crossing is a 
little different as to whether it is owned by a private bridge 
owner or a GSA facility, a CBP-owned facility. But we do work 
with all of the stakeholders to try to address the 
infrastructure challenges and not have a negative impact on the 
wait times and definitely not compromise our enforcement 
mission because of the--because of the backups.
    Mr. Souder. I yield back. Thank you.
    Ms. Sanchez. Thank you, Mr. Souder.
    I will now recognize my colleague from Laredo, Mr. Cuellar, 
for 5 minutes.
    Mr. Cuellar. Thank you, Madam Chair. Thank you for having 
this meeting.
    Ms. Ayala and Mr. Owen, thank you for being here with us.
    The number of 18-wheelers coming across are tremendous. I 
mean, just in my hometown of Laredo, as you know, Ms. Ayala, 
there is about, both ways, 12,500 a day, 18, you know, cargo. 
That doesn't include the railcars, doesn't include air cargo 
coming in. So I can understand the pressure, and I certainly 
appreciate the work that Treasury Union and some of the other 
folks have been talking about, trying to get more men and women 
in blue. I have always said, we need the men and women in 
green, but we need the men and women in blue, also. So we are 
hoping we can work with you.
    Mr. Owen, do you have, quickly, the amount of money we 
should adequately have in--when we are talking about men and 
women in blue, to properly staff our ports of entry, both south 
and north? I know the other administration didn't want to give 
us, and they told me off the record why, but can you tell us 
what we should be staffing it at?
    Mr. Owen. I know for each of our crossings we do have 
figures as to what is our appropriate staffing at those 
locations. And we do work very aggressively to try to make sure 
that the attrition rate is not significant enough where it is 
negatively impacting the workforce that we have there.
    I think two positive changes to help us attract and retain 
CBP officers, as well as Border Patrol agents, in July of 2006 
with the passage of the enhanced retirement for the CBP 
officers, that definitely helps us retain the officers.
    Mr. Cuellar. Well, let--well, let me ask you this question. 
Could you, in private or whatever the terms might be, show the 
committee later what the staffing models should be for each 
level, for each port of entry? I am kind of curious to see what 
we are looking at. And for two good reasons, I am not going to 
put it out there, but I would like the Madam Chair to see that 
later, see what the proper staffing should at each port of 
entry, number one.
    The other thing is, I have talked to the two rail companies 
that come through Laredo. And I think this applies also to the 
C-TPAT, also, where my understanding is what the drug cartels 
are doing now, is they are looking for, instead of trying to 
have somebody walk through or put them in a car, they are 
looking at the 18-wheelers, the cargo and the railcar, also.
    I know that the--just yesterday, I was talking to one of 
the rail companies that were complaining, because they were 
saying Homeland is fining us when this is happening across the 
river, so why are they fining us? And at the same time, I can 
understand where there has to be some responsibility, corporate 
responsibility.
    It is an issue that I would like to follow up at a later 
time, because I know we can talk about that, but, you know, 
they are looking for FAST, C-TPAT, railcars, where they think 
they can go in. And if you put the probability chances--okay, 
we get caught once, it is okay. We got another truck coming in 
or we have another way or--you know, you all really need to 
look at that and see how we can get more of the corporate 
involvement.
    I know they are trying hard, but that is what is happening. 
And we know that is what is happening, the railcars and, of 
course, this, because it is a concern, especially in an area 
like Laredo. I mean, if you got 12,500 trucks a day--and I know 
they are both ways--I mean, that is a lot of vehicles, and you 
have got to provide the security while at the same time not 
create those long bottlenecks that we have seen for miles 
sometimes.
    Mr. Owen. Yes, sir. Yes, sir. We are concerned with the 
smuggling on the rail, and we are working cooperatively with 
those two rail carriers that you addressed.
    As for the penalties that are issued, the carrier has a 
responsibility to ensure to do everything within their 
possibility--that there are possible to make sure that the 
conveyance has not been compromised. That is just the section 
of the law where we--they are subject to the penalties.
    But I will tell you that there are provisions for us to 
offset some of those penalties and an acknowledgement of the 
security enhancements that have been made, so we are working 
cooperatively with the rail carriers on that.
    I would also like it noted, too, that the eight rail 
crossings that we have from Mexico, all of them are equipped 
with non-intrusive inspection equipment, so we do X-ray 100 
percent of the railcars that are coming in from Mexico. It 
allows us to very effectively find any illegal aliens that are 
attempting to make entry, as well as many of those narcotic 
interdictions that you are referencing, sir.
    Mr. Cuellar. The case in 2008 where there was this lady 
that--I think your internal affairs got for importing drugs, 
where drug cartels are recruiting people to get hired by you. 
That is--as some of the other members said, that is something 
that you have got to look at very carefully, because--and in 
Mexico and other places, they have done a good job at 
infiltrating law enforcement, and I am sure that doesn't stop 
across the river.
    So you are going to have this concerted effort to--where 
those drug cartels are going to recruit to get people in, in 
the inside. So whatever you all need to do to--you know, your 
internal affairs and whatever counter work you all need to do, 
that is a big concern, because if they are doing that across 
the river, I don't see why they are not going to continue that.
    But I want to thank Ms. Ayala. It is always a pleasure 
seeing you again.
    Mr. Owen, thank you for the work.
    Ms. Sanchez. I thank my colleague from Texas.
    We will now hear from the young lady from Arizona, Ms. 
Kirkpatrick, for 5 minutes.
    Ms. Kirkpatrick. Thank you, Madam Chairwoman.
    Mr. Owen, as you know, trucks that are coming from Mexico 
northward into the United States are routinely stopped at some 
point and subjected to some type of check. But southbound 
vehicles routinely drive right through without stopping.
    My concern is about the illicit trafficking of weapons and 
cash southbound. And so my question is, do you currently have a 
plan to stop southbound traffic in the same way that you do 
northbound? If so, where are we in the implementation of that 
plan? And do you require additional resources from Congress to 
make that happen?
    Mr. Owen. Thank you. Yes, ma'am. With the southbound 
traffic, you are right. The challenge there is the 
infrastructure. Unlike ports of entry when you are entering the 
United States, in most cases there are not booths where the 
trucks will slow down and be interviewed by a CBP officer, 
present certain documents. It is usually just highway, straight 
open into Mexico. And that makes our challenge very difficult.
    We have increased our level of outbound inspections, both 
not only in passenger vehicles, but in buses and bus--and 
trucks. We have significantly increased the level of currency 
that we have seized this year since we began this initiative in 
March. I believe on the southwest border last year, we seized 
approximately $10 million. And in the fiscal year that just 
ended at the end of September, we were up to almost $38 million 
just in bulk cash going out into Mexico along the southwest 
border.
    So the infrastructure is a challenging piece for us. The 
making sure we have the sufficient dedicated resources to 
direct towards outbound is important. But I would also note 
that the Mexicans share responsibility here, as well. The 
Mexican government also needs to build up their capacity to do 
more inbound inspections, as the trucks are leaving the U.S. 
heading into Mexico itself.
    Ms. Kirkpatrick. And is anything happening with that from 
the Mexican side?
    Mr. Owen. Yes. Yes, we have different working groups with 
the Mexicans. The Mexicans are securing additional technology. 
They are making some personnel changes within their customs 
service and things like that, so they are doing more southbound 
inspections in certain locations.
    We are better coordinating our outbound efforts and their 
inbound efforts so that the smugglers cannot just wait us out 
or move down the street, down the road to another crossing, so 
there is a much higher level of engagement with the Mexican 
government now, particularly in the last year, as we have been 
focusing more on outbound.
    Ms. Kirkpatrick. And do you have the resources you need to 
make that happen, to really inspect the southbound as you wish, 
pursuant to your plan?
    Mr. Owen. Well, again, the infrastructure is not there. And 
even our inbound ports are very outdated and not equipped for 
the volume of today and not--definitely not equipped for the 
post-9/11 security environment. So resources are a challenge 
both at the current inbound ports of entry, as well as 
outbound, yes, ma'am.
    Ms. Kirkpatrick. Thank you.
    Ms. Ayala, each year, huge amounts of narcotics are 
trafficked into the United States through the ports of entry 
along the southwestern border while the Border Patrol which 
defends the areas between ports of entries has doubled in size 
over recent years. OFO and ICE have remained comparatively 
stagnant. This makes it all the more important to maximize 
existing resources, and one way to do this is to ensure that 
the federal agents at the border have the full authority to 
investigate drug offenses.
    Over the summer, ICE and DEA signed an MOU that was 
expected to provide ICE with a far greater authority to enforce 
Title 21. Please tell me where you are in implementing this 
agreement and whether it is having the intended effect.
    Ms. Ayala. We are currently vigorously working with DEA to 
finalize those local protocols. As you know, we are working to 
salvage those protocols between 26 Special Agent in Charge 
offices with very different areas of responsibility. And even 
within those individual SAC offices, the landscape is 
completely different, as far as land ports of entry, maritime 
distances, and resources, among DEA and ICE.
    We are very close in finalizing those agreements, and what 
we want to do is make sure that they are flexible enough and 
not rigid, where it locks us into having one protocol in one 
area where there may be mature de-confliction centers, the same 
as in another area where they are not, when we may need to use 
other mechanisms.
    Just last week, we participated in a meeting with DEA, and 
we are very close to finalizing those protocols.
    Ms. Kirkpatrick. And when you say ``very close,'' I mean, 
are you thinking by the 1st of next year, or what is your 
timeline?
    Ms. Ayala. I think yes, but I will get back to you on 
exactly the timeline.
    Ms. Kirkpatrick. Okay. Thank you. Thank you both very much.
    I yield back.
    Ms. Sanchez. Okay. Now for the young and gentlelady from 
California, Ms. Harman, for 5 minutes.
    Ms. Harman. Madam Chair, you make my day. I came over here 
to be called young.
    I also came over to commend you and the ranking member for 
an excellent set of hearings over this term of Congress on 
issues like this. This committee punches above its weight on--
this subcommittee on the full committee. And I just want you to 
know that I am proud to be a young member of it.
    So then, our borders. We have had a lot of conversation 
about the southern border. I think about the northern border, 
because that is where Ahmed Ressam was intercepted by a very 
astute CBP agent in 2000. And his intention, so the legal 
charges and conviction state, was to bring his trunk full of 
fertilizer down to my district and to blow up LAX, the 
international airport in my district.
    So I want to commend you for the work that you did, but I 
also want to point out that that work was not done by 
technology. I don't think it was done by dogs, if I remember 
it. It was done by someone who could really assess suspicious 
behavior. I see a number of you nodding, so I think I have 
nailed it.
    So my question is about, how are we doing on improving our 
tradecraft, on recognizing suspicious behavior? As we all know, 
the Israelis are really good at this, so I want to know if the 
Americans are really good at this.
    Mr. Owen. Well, for the front-line CBP officers, yes, we do 
provide advanced, if you will, behavioral-type analysis, 
training so they can recognize the verbal and non-verbal cues 
as we are going through the interviews at the primary. And you 
are right. It was not technology; it was not a canine. It was 
the knowledge, the experience, and the intuition of that 
officer that was successful of that.
    So I think we are doing a strong job of giving our officers 
the training that they need to recognize those cues. And 
ultimately, again, it does come down to the instinct and the 
experience and the training of that front-line officer.
    Ms. Harman. Any other comments on this? I think you need to 
turn your mike on.
    Ms. Ayala. I just wanted to say, as far as the northern 
border, that both ICE and CBP are very much integrated into the 
northern border, integrate border enforcement teams that share 
intelligence and look for gaps along the northern border 
between the ports of entry.
    And, of course, we have three border enforcement security 
task forces that are located on the border in Blaine, Detroit 
and Buffalo, and we are working very closely with our Canadian 
counterparts, the Royal Canadian Mounted Police, the Canadian 
Border Services Agency, Ontario Provincial Police, Windsor 
Police, Niagara Police, on all cross-border crime and threats 
to our ports of entry.
    Ms. Harman. Well, I appreciate that. And I recall a really 
chilling video produced about 5 years ago by the Nuclear Threat 
Initiative that showed a truck loaded with a radiological bomb 
go driving across an essentially unguarded border point in the 
north.
    I am not saying that--well, that was the point of this 
video. And that is sort of the last shot. And in enters the 
radiological bomb. So I worry about this a lot.
    I don't think 100 percent protection can be achieved. 
Perfection is not possible. But risk management has to be the 
approach. And that is why I say that recognizing suspension 
behaviors and especially integrating your operations and 
information sharing are a good start.
    Is there anything else along the northern border that we 
should be paying attention to that we are not or any other help 
you need, in terms of--I am sure you could use more money, but 
anything else you need from Congress with respect to assuring 
that you manage risk as well as you possibly can on our 
northern border?
    Mr. Owen. If I could just make one comment about the 
crossings and the radiological detection, in about 3 weeks, we 
will reach a milestone on our border with Canada. We are 
deploying the final few radiation portal monitors. So the first 
week of November, we will have 100 percent coverage of all of 
those crossings, so every passenger vehicle, every truck that 
is now entering from Canada will have to first pass through a 
radiation portal monitor. So I think that is an important layer 
that we have been able to deliver on.
    Ms. Harman. Well, I agree with that. We have a number of 
radiation portal monitors at the ports of L.A. and Long Beach. 
And I know that the chair of the subcommittee and I have 
visited that many times. That technology is, again, not 
perfect, even in its second generation, but I appreciate 
everything you do, and I really want to commend you for being 
one of the bright spots in our evolving efforts to protect the 
homeland.
    Thank you, Madam Chair.
    Ms. Sanchez. I thank my colleague from California.
    Ms. Ayala and Mr. Owen, I have one question that I would 
like to make before we bring the next panel up. Can you go 
through what it looks like and if there is a difference from 
the northern to the southern border, what it looks like--what 
is the process? Let's say I am a trucker bringing in, I don't 
know, tomatoes from Mexico and I am bringing them into 
California. What is the process I have to go through, 
especially if I am in FAST or something like this?
    Does my company--you just--I know I have read everything, 
but the company has to get certified if they want a FAST entry. 
I have to have a background check and get certified. What about 
taking a look at who--is there a safety check on the actual 
vehicle? Is there a random check in the FAST when I go through?
    And what is the difference between my going through a lane 
like that, let's say, and not being able to get those types of 
documents or pass those types of tests, in the sense that I 
have to go through the regular line? And can you tell me if 
there is a difference between what we really see in a practical 
sense, what happens at a San Ysidro, for example, versus what 
might happen coming into Michigan from the north?
    Mr. Owen. Well, on the land borders, whether you are 
importing from the north or from the south, the foundation, 
first off, is what we call an e-manifest, an electronic 
manifest. So we receive information before the truck gets at 
the booth, okay, information on the driver, information on the 
cargo. The entities are involved. That is different than 3 
years ago. Three years ago, the truck would pull up to the 
booth, hand the officer a piece of paper with some of that 
information. He would start to run his checks.
    So through the e-manifest program, as part of our automated 
commercial environment, we now receive that ahead of time, 60 
minutes ahead of time for a non-FAST shipment, 30 minutes ahead 
of time for a FAST shipment. That gives us time to do more 
analysis, to run it through our systems, to be ready for when 
that truck appears, all right?
    Once the truck is there, then, again, the officer will do 
his thing. If he feels that there is no risk, the truck will be 
on its way. If it is a secondary, it will be sent over.
    Prior to this process, in an area where we call pre-
primary, is where you will have the canines working, perhaps. 
You will have the anti-terrorism contraband enforcement teams 
doing checks, talking to the driver. So there is that pre-
activity before the booth.
    The only real difference between, again, a FAST shipment 
and a non-FAST shipment, as you mentioned, a FAST shipment, all 
of the entities have to be in C-TPAT. So you have the importer 
that is in C-TPAT, the highway carrier, the Mexican 
manufacturer, and then the driver has to have a FAST car.
    What that affords them, again, is dedicated lanes which 
will expedite the release of that cargo. We also focus our 
inspections more so on our non-FAST lanes than our FAST lanes, 
because, again, the FAST universe is more known than the 
unknown FAST. But everyone in FAST is still subject to 
inspection if there is cause or concern, still subject to the 
canines, and we will do different types of random enforcement 
operations. For the next hour, for example, everybody in the 
FAST lane is going into secondary to do those randoms.
    So we do build in quite a bit of random activities, even in 
the FAST lanes, just to make sure, you know, everybody is 
staying honest and we are not overlooking anything in those 
lanes.
    Ms. Sanchez. And this happens both at the Canadian and 
the----
    Mr. Owen. Yes, both at the Canadian and at the southwest 
border crossings, as well.
    Ms. Sanchez [continuing]. Southwest border.
    Mr. Owen. Yes.
    Ms. Sanchez. Mr. Souder, it looks like you have a follow-up 
question or a question there?
    Mr. Souder. If I could, it is from your first comments, Mr. 
Owen, but it relates to this. Did you say you had 61 people who 
violated the FAST lane?
    Mr. Owen. There were 71 FAST cardholders in the last 2 
years, yes, sir.
    Mr. Souder. And what percentage of those were on the 
Mexican border versus the north border?
    Mr. Owen. I believe it was 35 of the 71, about 50 percent 
were Mexican, and the Canadian--I am sorry. Let me double check 
here. I am sorry. The FAST was 35 drivers; 71 was the C-TPAT 
numbers that I was giving you. So from the FAST drivers, we had 
had 35 incidents; 29 of those were narcotics-related, 4 were 
currency smuggling, and 2 were alien. So a very small 
percentage of drivers.
    Mr. Souder. And are those--looking at the 35 and 71, what 
was the north-south split?
    Mr. Owen. I don't have the north-south split, but I can 
provide you those. My instinct would be that the majority of 
those were on the southern border.
    Mr. Souder. And on the 35 and the 71, both those cases, 
what percent were larger companies? You suggested that most of 
these were single-truck operations or small companies.
    Mr. Owen. I don't have that information, but we can provide 
that as to the scope of the----
    Mr. Souder. Because this is----
    Mr. Owen [continuing]. The trucking company.
    Mr. Souder. This comes at the core of something that I felt 
for some time when we did a number of hearings on the border in 
another committee when we were in the majority. We have 
representatives of the Canadian trucking association and the 
American Trucking Association that said that for expediting, 
they would take even double penalties if they violated FAST.
    Now, you have to address things like what you said. I mean, 
did you have a rogue driver who loaded the trailer, but the 
corporation has to do that and take some responsibility for 
making sure what kind of drivers they have and so on. And one 
thing would be enhanced penalties.
    Now, the question here is, if very few of these were a 
traditional company, it would suggest that in these larger 
trucking companies in the United States, that we really don't 
have a huge problem and that, in fact, our attention on 
investigations and trying to clear a FAST lane person is much 
more targeted. What you are really looking at, much like you do 
when you check cargo or do an investigation is, what is the 
risk of this? What do we have known with them?
    And that the ones that are getting through may not be 
really a trucking problem. We may be able to expedite some of 
this with fewer checks, faster processes for companies that 
have no track record. They still need to be checked, but that 
if 90 percent of your problem is in one area and we have got 
the whole thing tied up because even for random traffic coming 
over for dinner, particularly at some of these crossings where 
you don't have enough lanes, you get trucks jamming up people 
for an hour when it is really we don't have a big enough truck 
lane to get them out.
    Can you provide that data to see how many of those were 
what we would call major trucking companies?
    Mr. Owen. Yes, I do know offhand that we have found drivers 
in very large companies that were involved in the smuggling, as 
well, so I don't think it is isolated to just the small 
trucking companies from Mexico.
    I think, unfortunately, the weakest link in any of these 
companies could be that driver. And we have seen it break down 
on large companies, as well as small companies.
    Mr. Souder. And how much did those--would independent----
    Mr. Owen. Yes, sir.
    Mr. Souder. I would like to see some kind of a breakout on 
targeting, and then you can zero in and figure out what we 
might do, enhance legislative penalties, if you can identify 
the problem.
    Mr. Owen. Yes, sir.
    Mr. Souder. Thank you.
    Ms. Sanchez. Mr. Owen, is there a safety check and who 
performs that? And is that random at the border? And who is 
checking? I mean, you know, I am also worried, you know, that 
these--some of these drivers are overworked, they haven't 
slept, and they are coming out into California.
    I had an accident where a Mexican driver slammed into a van 
on our freeway and, you know, that van had nine people in it 
and it burnt them all to death. So where do we--where does that 
happen in the system, also?
    Mr. Owen. The safety checks come after it has cleared the 
customs compound, if you will, by the state transportation 
officials, so that is a state responsibility. It is not a CBP 
responsibility. But most of those facilities, as the trucks 
leave the compound, you will see the state DOT has got their 
compounds right after it leaves the exit, if you will.
    Mr. Souder. And is it your experience that most of those 
trucks have to go through that? And has there ever--is it 
infrequent or frequent that maybe, while they are doing these 
safety tests, they might come across contraband or, you know, 
weapons or whatever else that is being----
    Mr. Owen. Yes, I can't speak to the frequency. I am not 
familiar with that. But I do know that every once in a while 
they will detect a load of narcotics that was not caught at the 
border, and we work very closely with the state highway patrol, 
depending on what state it is, like that, work with our 
criminal investigators, with ICE to track that down.
    So we do have a good relationship at the border with them, 
but I am not familiar as to how much actually gets sent or what 
their targeting methodologies are.
    Ms. Sanchez. Okay. Thank you.
    Ms. Harman or Ms. Kirkpatrick, before I release this panel, 
any questions?
    Mr. Souder, you are fine?
    Thank you very much for your testimony before us today. We 
really appreciate it.
    And now we will ask the second panel up. Thank you.
    And I welcome the second panel of witnesses. Our first 
witness is Ms. Colleen Kelley, the leader of the National 
Treasury Employees Union, NTEU, and it represents workers in 31 
government agencies, including the U.S. Customs and Border 
Protection Officers and employees. As the union's top elected 
officer, she leads the union's efforts to advocate for federal 
employees and represents NTEU with the agencies in the media 
and, of course, before Congress.
    Welcome.
    And our second witness is Mr. Stephen Russell, who has been 
chairman and chief executive officer of Celadon--did I say that 
correctly--trucking services since founding the company in May 
of 1985. Mr. Russell is a member of the American Trucking 
Association's executive committee and serves as the chairman of 
the audit committee. He previously was chairman of the homeland 
security policy committee.
    Without objection, your full statements will be put into 
the record, and I will now ask Ms. Kelley to summarize her 
statement for 5 minutes or less.

 STATEMENT OF COLLEEN M. KELLEY, NATIONAL PRESIDENT, NATIONAL 
                    TREASURY EMPLOYEES UNION

    Ms. Kelley. Thank you very much, Chairwoman Sanchez, 
Ranking Member Souder, and committee members. I appreciate the 
opportunity to testify today.
    NTEU represents Customs and Border Protection officers, CBP 
agriculture specialists, CBP seized property specialists, and 
CBP trade enforcement and compliance personnel at all 327 ports 
of entry, land, air and sea.
    CBP front-line employees at these ports of entry, as has 
been noted, have twin goals: anti-terrorism and facilitating 
legitimate trade and travel. A major challenge of this mission 
is securing the movement of goods without costly wait times and 
delays.
    On the one hand, CBP officers and agriculture specialists 
are to fully perform their inspectional duties; yet at all 
times, they are made aware by management of wait times. In land 
port booths, wait times are clearly displayed.
    Now, technology has helped to improve the length of wait 
times. With the use of these new technologies, the average 
inspection time per vehicle, as reported by CBP, is 30 to 45 
seconds in regular inspection lanes and, in the expedited 
inspection lanes, like the Free and Secure Trade, or FAST, 
truck lanes, the average processing time is 15 to 20 seconds.
    NTEU has confirmed with talking with front-line CBP cargo 
security personnel that these cargo inspection times per 
vehicle cannot realistically be further shortened. CBP's 
continuing emphasis on reducing wait times without increasing 
staffing at the ports of entry creates an extremely challenging 
work environment for front-line CBP personnel.
    It has been reported that a September 2009 draft report 
that the Homeland Security Advisory Council created--that was 
created by Secretary Napolitano to review commerce and security 
at the southwest border ports of entry has made the same 
recommendation as NTEU--more staffing is needed in the ports of 
entry--and has recommended that Congress fund CBP to hire more 
CBP officers for ports of entry.
    CBP's own 2007 staffing model shows that several thousand 
additional CBP officers and agriculture specialists are needed 
at our ports of entry. NTEU has repeatedly and continues to 
call on and ask for help from Congress for an increase of at 
least 4,000 new CBP officers in order for CBP to achieve this 
dual mission.
    In the past, CBP staffing shortages at the ports has been 
exacerbated by challenges in retaining staff, contributing to 
an increasing number of CBP personnel vacancies. CBP and 
Congress are to be commended for taking two steps at the urging 
of NTEU to greatly improve recruitment and retention of CBP 
personnel at the ports.
    In 2008, Congress prospectively provided to CBP officers 
the same law enforcement retirement benefits that other armed 
uniformed federal law enforcement officers receive. And just 
last week, CBP administratively gave CBP officers and 
agriculture specialists an increase in their journeyman pay 
level from a GS-11 to a GS-12. Both of these measures were hard 
won and well deserved.
    NTEU believes that an initiative of the previous 
administration that consolidated the roles and responsibilities 
of the CBP inspectional workforce at the ports of entry, which 
they call One Face at the Border, has actually resulted in a 
large expansion of the duties of each officer and has led to 
the dilution of the customs, immigration and agriculture 
inspection specializations, thereby threatening the quality of 
cargo inspections. We believe that inspection specialization 
should be reinstituted in this workforce.
    NTEU also recognizes that infrastructure impediments plague 
the operations at the land ports of entry and contribute to 
wait times and to costly delays and secure movement of cargo. 
Many infrastructure improvements are already underway at the 
U.S. land ports of entry, but all infrastructure projects take 
years to plan, to fund, and to implement, while increasing the 
number of CBP front-line personnel to address cargo security at 
the ports would bring immediate results.
    In conclusion, NTEU agrees with a leading report on CBP's 
challenges and opportunities that says that the U.S. ports of 
entry have been underfunded and understaffed for years. And we 
recommend the following: One, fill all vacancies and increase 
CBP officer and agriculture specialist staffing to those levels 
in CBP's own staffing model and has been recommended--as has 
been recommended by the Homeland Security Advisory Council 
report to the secretary.
    Two, fully staff all existing lanes at the ports of entry 
to capacity. Three, end the One Face at the Border initiative 
and re-establish specialization of prior inspectional 
functions.
    Four, extend the GS-12 journeyman pay to CBP personnel not 
included in the recent increase. Five, extend law enforcement 
officer retirement benefits to the CBP personnel not included 
in the 2008 legislation. And, six, require CBP to submit yearly 
workplace staffing models that include optimal staffing 
requirements to fully staff all of the lanes at every port of 
entry.
    Thank you, and I would be glad to answer any questions you 
have.
    [The statement of Ms. Kelley follows:]

                Prepared Statement of Colleen M. Kelley

    Chairman Sanchez, Ranking Member Souder, I would like to thank the 
subcommittee for the opportunity to testify on cargo security at the 
land ports of entry. As President of the National Treasury Employees 
Union (TEU), I have the honor of leading a union that represents over 
22,000 frontline Customs and Border Protection Officer, CBP Agriculture 
Specialists, CBP CBP Seized Property Specialists, and CBP Trade 
Operations, Revenue, legal and administrative personnel who are 
stationed at 327 land, sea and air ports of entry (POEs) across the 
United States, 15 Preclearance offices in Canada and the Caribbean and 
CBP headquarters.
    CBP enforces the import and export laws and regulations of the U.S. 
federal government and conducts immigration policy and programs. Ports 
also perform agriculture inspections to protect the U.S. from potential 
carriers of animal and plant pests, or diseases that could cause 
serious damage to America's crops, livestock, pets, and the 
environment. NTEU-represented CBP Officers, CBP Agriculture 
Specialists, and CBP trade personnel are our nation's first line of 
defense in the wars on terrorism and drugs, conteraband smuggling, 
human trafficking, agricultural pests, and animal disease while at the 
same time facilitating legitimate international trade and travel.
    On a typical day based on fiscal 2008 data, CBP Officers, CBP 
Agriculture Specialists and CBP trade personnel at the POEs arrested 73 
suspected criminals, executed 614 refusals of entry, intercepted 76 
fraudulent documents--1 for terrorism related/national security 
concerns; processed 1.09 million passengers and pedestrians, processed 
331,000 privately owned vehicles, processed 70,451 truck, rail, and sea 
containers, processed $90.4 million in fees, duties and tariffs, seized 
more than 7,621 pounds of illegal drugs, seized $295,829 in undeclared 
and illicit currency and intercepted nearly 4,125 prohibited 
agricultural meat, plant materials or animal products and 435 
agricultural pests.

LAND PORTS OF ENTRY
    The U.S. has 5,000 miles of land border with Canada and 1,900 miles 
of land border with Mexico. Most travelers enter the U.S. through the 
nation's 166 land border ports of entry. About two-thirds of travelers 
are foreign nationals and bout one-third are returning U.S. citizens. 
The vast majority arrive by vehicle. The purpose of the passenger 
primary inspection process is to determine if the person is a U.S. 
citizen or alien, and if alien, whether the alien is entitled to enter 
the U.S. In general, CBP Officers are to question travelers about their 
nationality and purpose of their visit, whether they have anything to 
declare, and review the travel documents the traveler is required to 
present.
    Each day CBP Officers inspect more than 1.1 million passengers and 
pedestrians, including many who reside in border communities who cross 
legally and contribute to the economic prosperity of our country and 
our neighbors. At the U.S. land borders, approximately two percent of 
travelers crossing the border are responsible for nearly 48 percent of 
all cross-border trips. At the land ports, passenger primary 
inspections are expected to be conducted in less than one minute. 
According to CBP, for regular lanes the average inspection time per 
vehicle is 30 to 45 seconds during which CBP Officers should handle 
documents for all vehicle occupants and, if necessary, detain and 
transfer suspected violators to secondary inspection. For FAST truck 
lanes, the average processing time is 15 to 20 seconds. (``CBP: 
Challenges and Opportunities'' Memo prepared by Armand Peschard-
Sverdrup for: Mexico's Ministry of the Economy: U.S.-Mexico Border 
Facilitation working Group, January 2008, page 5.)
    Yearly, CBP Officers and CBP Agriculture Specialists process more 
than 133 million conveyances--truck and rail containers--at the land 
ports located along the 7,500 miles of land borders between the United 
States and its North American neighbors.
    Out of the total 327 official POEs, currently on 24 major land POEs 
are situated on the Mexico-U.S. border: six in California, seven in 
Arizona, one in New Mexico and ten in Texas. On the Canadian-U.S. 
border there are 150 land POEs have a series of dedicated lanes for 
processing commercial traffic, passenger vehicles, pedestrians and in 
some cases rail crossings.
    Between the U.S. and Mexico, 68.4 percent of the total commercial 
two-way truck trade flow crossed through three land POEs--Laredo, El 
Paso and Otay Mesa. In rail traffic, trade is heavily concentrated 
(97.8%) in five rail POEs--Laredo, Eagle Pass, El Paso, Nogales, and 
Brownsville (Facilitating Legal Commerce and Transit 2009 Memo Prepared 
by Armand Peschard-Sverdrup for the Pacific Council/COMEXI Joint Task 
Force on Re-thinking the Mexico-U.S. Border: Seeking Cooperative 
Solutions to Common Problems, page 2).
    Each year, 45 million vehicles cross into the United States from 
Canada. Most of the trucks use 22 principal border crossings. By 2020, 
the volume of truck traffic is projected to grow to 19.2 million per 
year, an increase of 63% from 11.8 million in 1999. The six highest-
volume crossings on the Canada-U.S. border handled almost 90% of the 
value and three-quarters of the tonnage and truck trips. The six 
highest U.S.-Canada POEs are Ambassador Bridge (Detroit, Michigan), 
Peace Bridge (Buffalo, new York), Blue Water Bridge (Michigan), 
Lewiston-Queenston Bridge (New York), Blaine (Washington), and 
Champlain (New York). (Truck Freight Crossing the Canada-U.S. Border, 
September 2002, page 2, 6.)
    Cargo security, that is, preventing the flow of arms, drugs, other 
contraband, pirated merchandise, and undeclared cash, and invasive 
agricultural items, while at the same time facilitating trade and the 
legal movement of people as efficiently as possible is a daily 
challenge for CBP Officers and Agriculture Specialists at the land 
POEs.
Border Violence at U.S.-Mexico Land Ports:
    In the last year, a new challenge also confronts CBP personnel at 
the southwest land POEs. An epidemic of violence has erupted right 
across the U.S. southern border in Mexico due to an increase in Mexican 
drug cartel activity there and the crackdown on drug and human 
traffickers by the Mexican government. Drug violence in northern Mexico 
has skyrocketed with more than 13,800 homicides since January 2008. 
This violence is fueled by arms smuggling and bulk cash drug proceeds 
transiting south from the U.S. The incidence of violence is escalating 
daily at or near U.S.-Mexico POEs. On October 9 and again on October 
19, a victim of cartel violence was strung up at an overpass between 
the U.S. and Mexico border and three weeks ago, CBP Officers confronted 
with speeding vehicles running the port has to fire on three vans 
filled with over 70 illegal immigrants at the San Ysidro POE.
    NTEU is providing information to Congress and the Administration to 
help assess security equipment and other needs to address the increased 
threat to CBP personnel at the southern border. Safety of CBP Officers 
at the ports of entry is a major concern. Appropriate facilities, 
staffing and equipment are necessary at the southern land ports to 
ensure CBP Officers' safety.
    The FY 2010 DHS funding bill includes $8.1 million for 65 CBP 
Officers and 8 support staff positions to be dedicated to ``Combating 
Southbound Firearms and Currency Smuggling.'' NTEU believes that this 
staffing increase is insufficient to address the staffing needs at 
southern ports of entry and well below the 1,600 additional personnel 
and 400 canine teams sought by the Senate authorizing committee in its 
FY2010 funding request.
    Also, the last Administration fell down on the job of inspecting 
outbound traffic through U.S. and ports and not all U.S.-Mexico 
passenger vehicle, rail and truck port crossing are staffed or equipped 
to conduct southbound inspections. Rightfully, the new Administration 
is focused on putting more resources into southbound inspections to 
help curb arms and bulk cask trafficking into Mexico.

Cargo Security Challenges
    Cross-border commercial operators are acutely concerned about wait 
times and costs of delay at the land POEs. Wait times differ across 
POEs and vary depending on whether the congestion involves pedestrians, 
passenger vehicles, trucks or railcars and whether the ports 
participate in expedited crossing programs such as SENTRI for people or 
FAST (Free and Secure Trade) lanes for trucks and railcars that are 
certified as compliant with the Customs Trade Partnership Against 
Terrorism (C-TPAT) agreement. Wait times also vary with the day of the 
week and the time of day and holidays on either side of the border. 
Currently, not all available lanes are staffed to capacity. Antiquated 
port infrastructure and CBP personnel staffing shortages contribute 
directly to wait times at the land POEs.
    NTEU believes that there is no way you can speed up the inspection 
process in which CBP Officers are currently conducting primary 
inspections 30 to 40 seconds without increasing staffing. NTEU's 
position was confirmed on October 1, 2009, by a draft report of the 
Southwest Border Task Force created by Homeland Security Secretary 
Janet Napolitano and reported by the Associated Press that recommends 
the ``federal government should hire more Customs [and Border 
Protection] officers.''
    The task force led by former director of the FBI and CIA, William 
Webster, was created in June 2009 to study the balancing of security 
concerns with the need to facilitate trade between the U.S. and Mexico. 
According to the report, as of July 2009, 5,586 Customs Officers worked 
on the Southwest border and the fiscal 2009 DHS appropriations bill 
includes funds to hire only 212 additional CBP Officers.
    The report echoes the finding of the Border-Facilitation Working 
Group (The U.S.-Mexico Border Facilitation Working Group was created 
during the bilateral meeting between President George W. Bush and 
President Felipe Calderon held in Merida in March 2007.) ``In order to 
more optimally operate the various ports of entry, CBP needs to 
increase the number of CBP Officers. According to its own estimate, the 
lack of human resources only for the San Ysdiro POE is in the 
``hundreds'' and the CBP Officer need at all ports of entry located 
along the border with Mexico is in the ``thousands.'' (``CBP: 
Challenges and Opportunities'' page 1 and 2. Memo prepared by Armand 
Preschard-Sverdrup for: Mexico's Ministry of the Economy: U.S.-Mexico 
Border Facilitation Working Group, January 2008.)
    NTEU strongly supports the findings of the September 2009 Homeland 
Security Advisory Council draft recommendation to increase CBP staffing 
at the POEs.

CBP STAFFING SHORTAGES
    The most recent public data that NTEU has regarding CBP staffing 
needs at the POEs is from a report that Congress requested from the 
Government Accountability Office (GAO) entitled Border Security: 
Despite Progress, Weaknesses in Traveler Inspections Exist at Our 
Nation's Ports of Entry (GAO-08-219), on November 5, 2007.
    The conclusions of this report echo what NTEU has been saying for 
years:
        <bullet> CBP needs several thousand additional CBP Officers and 
        Agriculture Specialists at its ports of entry.
        <bullet> Not having sufficient staff contributes to morale 
        problems, fatigue, and safety issues for CBP Officers.
        <bullet> Staffing challenges force ports to choose between port 
        operations and providing training.
        <bullet> CBP's onboard staffing level is below budgeted levels, 
        partly due to high attrition, with ports of entry losing 
        officers faster than they can hire replacements.
    In order to assess CBP Officer and CBP Agriculture Specialists 
staffing needs, Congress, in its FY 07 DHS appropriations conference 
report, directed CBP to submit by January 23, 2007 a resource 
allocation model for current and future year staffing requirements.
    In July 2007, CBP provided GAO with the results of the staffing 
model. ``The model's results showed that CBP would need up to several 
thousand additional CBP officers and agricultural specialists at its 
ports of entry.'' (See GAO-08-219, page 31) CBP has determined that 
data from the staffing model are law enforcement sensitive and has not 
shared this data with NTEU.

IMPACT OF STAFFING SHORTAGES
    According to GAO, ``At seven of the eight major ports we visited, 
officers and managers told us that not having sufficient staff 
contributes to morale problems, fatigue, lack of backup support and 
safety issue when officers inspect travelers--increasing the potential 
that terrorists, inadmissible travelers and illicit goods could enter 
the country.'' (See GAO-08-219, page 7.)
    ``Due to staffing shortages, ports of entry rely on overtime to 
accomplish their inspection responsibilities. Double shifts can result 
in officer fatigue. . .officer fatigue caused by excessive overtime 
negatively affected inspections at ports of entry. On occasion, 
officers said they are called upon to work 16-hour shifts, spending 
long stints in primary passenger processing lanes in order to keep 
lanes open, in part to minimize traveler wait times. Further evidence 
of fatigue came from officers who said that CBP officers call in sick 
due to exhaustion, in part to avoid mandatory overtime, which in turn 
exacerbates the staffing challenges faced by the ports.'' (See GAO-08-
219, page 33.)
    Staffing shortages have also reduced the number of CBP Officers 
available to conduct more in depth secondary inspections. In the past, 
there were three inspectors in secondary processing for every one 
inspector in primary processing. Now there is a one to one ration. This 
has resulted in a dramatic reduction in the number of illegal cargo 
seizures. For example, at the Port of Sweet Grass, Montana , from 2000 
through 2007, there has been a 59% reduction in the number of seizures 
of illegal drugs, hazardous imports and other contraband and at the 
Port of Blaine, Washington as of August 2006, there were 192 narcotics 
and other seizures, while by August 2001, there were 434 narcotics and 
other seizures. Port-by-port seizure data is deemed law enforcement 
sensitive and it is now very difficult to compare number of seizures at 
a port from year to years.
    Without adequate personnel at secondary, wait times back up and 
searches are not done to specifications. This is a significant cargo 
security issue. For example, a full search of one vehicle for 
counterfeit currency will take two officers on average a minimum of 45 
minutes. Frequently, only one CBP Officer is available for this type of 
search and this type of search will then take well over an hour.
    Finally, NTEU has been told that when wait times in primary 
inspection becomes excessive in the opinion of the agency, CBP Officers 
are instructed to query only one occupant of a vehicle and to suspend 
COMPEX (Compliance Enforcement Exams) and other automated referral to 
secondary programs during these periods. This is an improvement over 
the past practice of lane flushing, but is still a significant security 
issue. Also, when primary processing lane become backed up, passenger 
vehicles are diverted to commercial lanes for processing. At the Port 
of Blaine, for example, on heavy traffic days, CBP Officers often route 
private vehicles through the commercial cargo facility where the lanes 
and the computers are not set up for private vehicle inspections. Truck 
drivers have complained that someone is going to get killed when they 
do this because they often cannot see the cars maneuvering around them.

CBP Officer Staffing:
    NTEU was pleased that Congress, in its FY 2007 DHS appropriations 
conference report, directed CBP to submit a workplace staffing model 
for current and future year staffing requirements. For years, NTEU has 
said that CBP needs several thousand additional CBP Officers and CBP 
Agriculture Specialists at its ports of entry; that insufficient 
staffing and scheduling abuses are contributing to morale problems, 
fatigue, and safety issues for CBP Officers and CBP Agriculture 
Specialists, and that CBP is losing personnel faster than it can hire 
replacements.
    CBP's staffing model concluded ``that the agency needs 1,600 to 
4,000 more officers and agricultural specialists at the nation's air, 
land and sea ports, or a boost of 7 to 25 percent, the GAO reported.'' 
(Washington Post, November 6, 2007)
    NTEU is disappointed that the FY 2010 DHS appropriations conference 
report increasing new hires for CBP Border Patrol Agents from 17,499 to 
20,000--an increase of 1,500, but no increase in frontline CBP Officer 
or CBP Agriculture Specialist new hires.
    NTEU agrees with the findings of the Border Facilitation Working 
Group, ``when you look at the budgets that are normally handed out to 
CBP to POEs, one can conclude that this unit has been traditionally 
under-funded.'' (See CBP: Challenges and Opportunities, page 1.)
    Again NTEU concurs with the AP-reported September 2009 Homeland 
Security Advisory Council Southwest Border Task Force Draft Report that 
calls on Congress to authorize funding to increase staffing levels for 
CBP Officers. NTEU urges Congress to authorize funding for CBP Officers 
and CBP Agriculture Specialists at the levels specified in CBP's own 
workforce staffing model, in addition to funding an increase in CBP 
Officer staffing needed to expand outbound inspection and address the 
increasing violence at the U.S.-Mexico border.
    NTEU also strongly supports legislation introduced by 
Representative Silvestre Reyes (D-TX) H.R. 1655, ``Putting Our 
Resources Towards Security (PORTS) Act.'' Representative Reyes' PORTS 
Act would authorize 5,000 additional CBP Officers and 1,200 additional 
CBP AS new hires, in addition to 350 border security support personnel 
at the nation's 327 official ports of entry over the next five years. 
In addition, the bill authorizes funding for infrastructure 
improvements at the existing ports of entry to repairs and improve the 
gateways into our country.

CBP Agriculture Specialists:
    In 2008, NTEU was certified as the labor union representative of 
CBP Agriculture Specialists as the result of an election to represent 
all Customs and Border Protection employees that had been consolidated 
into one bargaining unit by merging the port of entry inspection 
functions of Customs, INS and the Animal and Plant Inspection Service 
as part of DHS' One Face at the Border initiative.
    According to GAO-08-219 page 31, CBP's staffing model ``showed that 
CBP would need up to several thousand additional CBP Officers and 
agriculture specialists at its ports of entry.'' And GAO testimony 
issued on October 3, 2007 stated that, ``as of mid-August 2007, CBP had 
2,116 agriculture specialists on staff, compared with 3,154 specialists 
needed, according to staffing model.'' (See GAO-08-96 page 1.)
    NTEU urges Congress to authorize and fund the additional 2,274 CBP 
Officers and the 880 CBP Agriculture Specialist needed according to 
CBP's own staffing model.
    Also, NTEU continues to have concerns with CBP's stated intention 
to change its staffing model design to reflect only allocations of 
existing resources and no longer account for optimal staffing levels to 
accomplish their mission.
    Finally, NTEU strongly supports Section 805 of S. 3623, the FY 2009 
DHS Authorization bill introduced in the Senate last Congress, that 
through oversight and statutory language, makes clear that the 
agricultural inspection mission is a priority and increase CBP 
Agriculture Specialist staffing, impose an Agriculture Specialist 
career ladder and specialized chain of command. H.R. 3623 in Section 
815 also extends CBP Officer enhanced retirement to their ranks and to 
CBP Seized Property Specialists.

    Hiring of Supervisors v. Hiring of Frontline CBP Officers:
    NTEU continues to have concerns that CBP is continuing to increase 
the number supervisors when a much greater need exists for new 
frontline hires. In terms of real numbers, since CBP was created, the 
number of new managers has increased at a much higher rate than the 
number of new frontline CBP hires. According to GAO, the number of CBP 
Officers has increased from 18,001 in October 2003 to 18,382 in 
February 2006, an increase of 381 officers. In contrast, GS 12-15 CBP 
supervisors on board as of October 2003 were 2,262 and in February 2006 
there were 2,731, an increase of 462 managers over the same of time. 
This is a 17% increase in CPB managers and only 2% increase in the 
number of frontline CBP Officers. (See GAO-06-751R, page 11).
    In 2009, CBP reports that there are 19,726, CBP Officers of which 
16,360 are bargaining unit frontline employees--a ratio of one 
supervisor for every five CBP Officers. And according to CBP data, the 
current number of CBP Agriculture Specialists staff is 2,277, of which 
312 are non-frontline supervisors--a ratio of one supervisor for every 
six CBP Agriculture Specialists.


ONE FACE AT THE BORDER
    As part of the establishment of the Bureau of U.S. Customs and 
Border Protection (CBP) in March 200, DHS brought together employees 
from three departments of government--Treasury, Justice and Agriculture 
to operate at the 327 ports of entry. On September 2, 2003, CBP 
announced the One Face at the Border Initiative. The initiative was 
designed to eliminate the pre-9/11 separation of immigration, customs, 
and agriculture functions at US land, sea and air ports of entry. 
Inside CBP, three different inspector occupations--Customs Inspector, 
Immigration Inspector and Agriculture Inspector were combined into a 
single inspectional postition--the CBP Officer.
    The priority mission of the CBP Officer is to prevent terrorist and 
terrorist weapons from entering the U.S., while simultaneously 
facilitating legitimate trade and travel--as well as upholding the laws 
and performing the traditional missions of the three legacy agencies, 
the U.S. Customs Service, the Immigration and Naturalization Service 
(INS) and the Animal, Plant and Health Inspection Service (APHIS).
    This change in job description and job duties established by the 
One Face at the Border initiative resulted in the Herculean task of 
retraining and cross training newly created CBP Officers. It became 
clear after several months that Agriculture Specialists job duties and 
background was significantly unique to establish a CBP Agriculture 
Specialist job series 401, separate from the CBP Officer job series, 
1895.
    In practice, the major reorganization of the roles and 
responsibility of the inspectional workforce as a result of the One 
Face at the Border initiative, has resulted in job responsibility 
overload and dilution of the customs, immigration and agriculture 
inspection specializations and in weakening the quality of passenger 
and cargo inspections.
    In addition, the processes, procedures and skills are very 
different at land, sea and air ports, as are the training and skill 
sets needed for passenger processing, cargo and agriculture inspection. 
Under the One Face at the Border initiative, former INS agents that are 
experts in identifying counterfeit foreign visas are now at seaports 
reviewing bills of lading from foreign container ships, while expert 
seaport Customs inspectors are now reviewing passports at airports.
    It is apparent that CBP saw its One Face at the Border initiative 
as a means to ``increase management flexibility'' without increasing 
staffing levels. According to CBP, ``there will be no extra cost to 
taxpayers. CBP plans to manage this initiative within existing 
resources. The ability to combine these three inspectional disciplines 
and to cross-train frontline officers will all CBP to more easily 
handle projected workload increases and stay within present budgeted 
levels.'' This has not been the case. The knowledge and skills required 
to perform the expanded inspectional tasks under the One Face at the 
Border initiative have also increased the workload of the CBP Officer.
    NTEU believes the One Fact at the Border initiative has failed to 
integrate the different border functions is sought to make 
interchangeable, because they are not. The Customs, Immigration and 
Agriculture functions performed at our borders enforce different laws 
and require different training and skills. For these reasons, NTEU 
urges CBP to reinstate Customs and Immigration specializations, as it 
did with the Agriculture specialization, at the POEs.
    NTEU suggests that the Committees include the following provision 
in any upcoming CBP authorization.
    SEC. _. ESTABLISHMENT OF SPECIALIZED OFFICER OCCUPATIONS----The 
Secretary of Homeland Security shall establish within the Bureau of 
Customs and Border Protection two distinct inspectional specialization 
occupations for Customs and Border Protection Officers at the air, sea 
and land ports of entry; an immigration inspection specialization and a 
customs inspection specialization.
RECRUITMENT AND RETENTION ISSUES
    Reported staffing shortages are exacerbated by challenges in 
retaining staff, contributing to an increasing number of vacant 
positions nationwide. ``CBP's onboard staffing level is below its 
budgeted level. . .the gap between the budgeted staffing level and the 
number of officers onboard is attributable in part to high attrition, 
with ports of entry losing officers faster than they can hire 
replacements. Through March 2007, CBP data shows that, on average, 52 
CBP Officers left the agency each 2-week pay period in fiscal 2007, up 
from 34 officers in fiscal year 2005. . .Numerous reasons exist for 
officer attrition.'' (See GAO-08-219, page 34.)
    ``Aside from the budgetary constraints confronting CBP, there have 
also been dysfunctional ties within the civil service system of worker 
classification that applies to CBP officers. Because CBP officers were 
not classified as law enforcement officers, they were automatically 
excluded from eligibility for higher salary levels, benefits, and early 
retirement. CBP officers, for example, are normally ranked as GS-11-
level employees, a level that is considered a ``journeyman grade``and 
provides a salary that ranges between $54,000 and $70,000. Conversely, 
officers in other law enforcement agencies--such as Immigration and 
Customs Enforcement (ICE) and the U.S. Marshals Service--have the 
opportunity to ascend to GS-12 or GS-13 levels, in which the salary 
range is $70,000--$100,000. Moreover, CBP officers tend to have better 
prospects for promotion outside of CBP--in such agencies as Immigration 
and Customs Enforcement and the U.S. Marshals Service--than within CBP 
itself.'' (See Facilitating Legal Commerce and Transit by Armand 
Peschard-Sverdrup, page 10).
    NTEU is pleased to commend Congress and the Department for 
addressing these two major CBP Officer recruitment and retention 
challenges--lack of law enforcement officer retirement status and a 
lower rate of journeyman pay with respect to most other federal law 
enforcement occupations. In July 2006, Congress extended enhanced 
retirement prospectively to CBP Officers and on October 14, 2009 
announced an increase in the rate of CBP Officer and CBP Agriculture 
Specialists journeyman pay from GS-11 to GS-12. It is unfortunate that 
this pay increase and enhanced retirement coverage was not extended to 
the 120 armed, uniformed CBP Seized Property Specialists and the pay 
increase was not given to the nearly 400 CBP Officers (enforcement). 
NTEU is working to remedy these inequities in pay and benefits for CBP 
SPS and CBP Officers (enforcement.)

INFRASTRUCTURE ISSUES
    ``The average land POE is 40--45 years old. Urban sprawl has 
enveloped some of these ports, rendering them effectively landlocked. 
For example, the port of San Ysidro currently has 21 lanes, but only 4 
traffic lanes feed all the traffic to the booths; in addition, local 
street traffic intersects with border crossing traffic. Over time, 
eroding infrastructure and limits on the availability of land--along 
with projected growth in the legal movement of goods and people 
stemming from the continued deepening of economic integration--will 
require both governments to erect new infrastructure.'' (See 
Facilitating Legal Commerce and Transit by Armand Peschard-Sverdrup, 
page 4).
    Infrastructure issues vary from port to port. NTEU does not dispute 
that the infrastructure problems at the POEs need to be addressed. But 
all port infrastructure solutions, including constructing additional 24 
hour port facilities, will take years to achieve. What is necessary 
today is to staff all existing lanes to capacity. Without adequate 
staffing to achieve this, excessive overtime practices, as well as 
increased wait times, will continue.
    Also, the observations and suggestions of frontline CBP Officers 
should be taken into account when planning new infrastructure 
solutions. For example, since before 9/11, the lack of a manned egress 
point for the Cargo Inspection facility at the Port of Blaine has been 
noted by numerous port runner incidents. After years of lobbying by 
Officers, a manned egress booth is being built as we speak. But, there 
is still no way to physically stop a vehicle and driver who want to run 
the port. There are no gates, no tire shredders, or deployable bollards 
at the new egress point. Pulling into secondary is still largely 
dependent on the honor system. A manned egress point will intercept the 
lost drivers, and the drivers who can't understand instructions from 
the primary officer, but it won't stop deliberate port runners.
    I am told that there is a similar egress lane configuration and 
port runner issue at the new Port of Champlain that is allowing 
absconders to avoid stipulated secondary inspection.
    Another concern is that the upcoming Winter Olympics in February 
2010 will increase travel volume through the Blaine POE. According to 
CBP Officers, there is room for two or more additional traffic lanes at 
the Pacific Highway crossing. On busy weekends, CBP routes cars through 
the truck area forcing them to maneuver around semi trucks. Can 
something be done to get these two lanes in place prior to the 
Olympics?

TECHNOLOGY ISSUES
    Customs and Border Protection relies on technology to process 
border crossings with greater efficiency and speed. To compensate for 
the inadequacy of personnel at land POEs CBP is relying more on 
technology, such as Radiation Portal Monitors (RPM) and Radio Frequency 
Identification (RFID).
    Technological advances are important, but without the training and 
experience, technology alone would have failed to stop the millennium 
bomber at Port Angeles, Washington. Today, primary processing is 
increasingly dependent on technology. CBPOs are instructed to clear 
vehicles within thirty seconds. That is just enough time to run the 
license through the plate reader and check identifications on a data 
base. If the documents are in order the vehicle is waived through. The 
majority of a CBPO's time is spent processing I-94s documents non-
resident aliens need to enter the U.S.
    Also, technology improvements can't overcome deficiencies in port 
infrastructure. For example at the Blaine POE, CBP management recently 
moved the primary lane vehicle queue within 10 feet of the primary 
booth in order to speed processing time an average of eight seconds per 
car. This creates a great deal of confusion locating Radiation Portal 
Alerts, Traveler Enforcement and Compliance System (TECS) hits, and 
National Crime Information Center (NCIC) hits from the RFID technology 
as two or three cars are now past the RPM detectors and RFID readers 
moves these vehicles into the ``fatal funnel``for any ``Armed and 
Dangerous'' encounter in primary. Earlier this month, there was an NCIC 
hit that the officers responded to on primary. They took proper cover 
behind the car in primary and extracted the occupants only to later 
discover that the NCIC hit was in queue behind the car stopped in 
primary. The stacking of vehicles in the queue just prior to the 
primary booth is creating problems for officers locating and isolating 
radiation portal alerts. The price of these eight seconds could be very 
high if Officers miss a vehicle smuggling radioactive materials or an 
``Anned'and Dangerous'' encounter goes bad and innocent people are 
trapped in the cross fire with nowhere to retreat.
    Expedited inspection programs such as FAST work very well for the 
participants in these programs in that their clearance process is 
reduced. CBP, however, needs a higher level of verification of FAST 
participants because of the higher risk their expedited clearance 
creates. For example, at the Blaine POE, many of CBP Officer's 
narcotics seizures have come out of FAST approved Carriers and 
Consignees. Expedited inspection programs such as FAST and C-TPAT, 
require additional CBP Officers to conduct these verifications.

NTEU RECOMMENDATIONS
    One of the key goals of the new administration's senior management 
is to earn the respect and trust of frontline workers. To that end, 
NTEU is pleased that a CBP Commissioner has been recently nominated.
    Federal employees represented by NTEU look forward to working with 
the new CBP leadership that will provide agencies with the staffing, 
tools and resources they need to accomplish their missions and will 
listen to employees' ideas about how to do the work better.
    As noted by DHS's own Advisory Council headed by William Webster, 
for too long, CBP at the POEs has been unfunded and understaffed. DHS 
employees represented by NTEU are capable and committed to the varied 
missions of the agency from border control to the facilitation of trade 
into and out of the United States. They are proud of their part in 
keeping our country free from terrorism, our neighborhoods safe from 
drugs and our economy safe from illegal trade. The American public 
expects its borders and ports be properly defended.
    Congress must show the public that it is serious about protecting 
the homeland by:
        <bullet> fully funding CBP ``salaries and expenses at the 
        POEs'' to hire more CBP personnel at the POEs as recommended by 
        the draft September 2009 Homeland Security Advisory Council 
        Report and Recommendations;
        <bullet> fully staff all existing lanes at the POEs to 
        capacity;
        <bullet> ending the One Face at the Border initiative by 
        reestablishing CBP Officer and CBP Agriculture Specialist 
        inspection specialization at our 327 ports of entry;
        <bullet> extending LEO coverage to armed, uniformed CBP Seized 
        Property Specialists and uniformed CBP Agriculture Specialists, 
        and
        <bullet> extending GS-12 journeyman pay to CBP personnel not 
        included in the recent GS-12 journeyman pay increase--CBP trade 
        operations personnel, CBP Seized Property Specialists and CBP 
        Agriculture Specialists; and
        <bullet> authorizing CBP to submit yearly workplace staffing 
        models that include optimal staffing requirements for each POE 
        to fully staff all lanes and reduce wait times.
    Again, I would like to thank the committee for the opportunity to 
be here today on behalf of the 150,000 employees represented by NTEU 
and the 22,000 CBP personnel the ports of entry.

    Ms. Sanchez. Thank you, Ms. Kelley.
    I will now recognize Mr. Russell to summarize his statement 
in 5 minutes or less. Welcome.

STATEMENT OF STEPHEN RUSSELL, CHAIRMAN AND CEO, CELADON GROUP, 
   INC., INDIANAPOLIS, INC., (REPRESENTING AMERICAN TRUCKING 
                         ASSOCIATIONS)

    Mr. Russell. Thank you very much, Madam Chairwoman, members 
of the committee.
    My name is Steven Russell, and I am chairman and CEO of 
Celadon Group, based in Indianapolis, Indiana. We are a U.S. 
trucking company that provides transportation services within 
the U.S., as well as to Canada and to Mexico. Celadon was the 
first motor carrier to be approved by CBP to participate in the 
C-TPAT program in 2003, as well as ACE program. Today, I am 
appearing on behalf of the American Trucking Association.
    First, I want to commend the committee for getting the 
SAFE, SAFE Trucker Act passed by the House. What that did was 
eliminate the need for drivers to file various requests for 
HAZMAT, various kinds of approvals, and we thank you from the 
bottom of our heart, because it is meant a lot to our drivers.
    The trucking industry has worked closely with government 
agencies to increase security and improve trade facilitation. 
After 9/11, C-TPAT was developed, establishing a more robust 
and comprehensive security program. C-TPAT is an excellent 
model for ensuring the security of our international supply 
chain. It requires investing resources to develop security 
processes and systems which are closely verified by CBP.
    The growing concern of C-TPAT members is some drastic 
measures that CBP has taken when a single truckload of 
contraband is found in a C-TPAT truck. CBP immediately suspends 
the carrier and turns off its identifying number. This number 
allows the trucking company's customers to know if the carrier 
is still in good standing with C-TPAT.
    Before canceling a carrier's C-TPAT privileges due a single 
incident, CBP should consider first investigating how the 
illegal cargo got into the conveyance. Most trailers that cross 
the border have one shipper's goods in it, and basically the 
shipper loads it, packs it, and then seals it. It is important 
to recognize when a carrier gets suspended from C-TPAT not only 
does it affect the carrier, but its C-TPAT customers are also 
impacted.
    We also want CBP to differentiate between a single security 
incident and a systematic security issue.
    With regard to FAST lanes, a related program to C-TPAT is 
the Free and Secure Trade program, or FAST. Basically, FAST 
requires our drivers to undergo a thorough background check to 
access the FAST lanes when transporting C-TPAT cargo.
    I urge this committee to work on other relevant--and work 
with other relevant congressional committees to improve border 
infrastructure by developing true FAST lanes, because right 
now, essentially, it is only the last few hundred yards, which 
means the lines are long to get through.
    Overall, I think we have established a very strong 
partnership between industry and government agencies to meet 
security challenges at our borders. However, with any 
partnership or marriage, success can be achieved when both 
partners are working together to achieve a common goal.
    CBP could be somewhat more flexible in working with 
partners to correct security breaches and in developing 
security measures that will complement partner-business models 
while working towards our common goal of securing the supply 
chain. By improving border infrastructure and information 
collection systems, in addition to trust-but-verify programs, 
security at our land borders will continue to improve.
    I thank you for your attention, and I would be happy to 
answer any questions.
    [The statement of Mr. Russell follows:]

                 Prepared Statement of Stephen Russell

Introduction
    Madame Chair Sanchez, Ranking Member Souter, and members of the 
Subcommittee, my name is Steve Russell, and I am Chairman, CEO and 
founder of Celadon Group, Inc., headquartered in Indianapolis, Indiana. 
Celadon is primarily a truckload carrier with approximately 3,000 power 
units, or tractors, and 10,000 53' trailers and about 3,900 employees. 
Celadon generates about forty percent of our business from the movement 
of freight across our land-borders with Canada and Mexico, while sixty 
percent of our business is generated domestically. Celadon is one of 
the top truckload carriers in North America serving a variety of 
customers providing time-sensitive cargo shipments through trailer 
``door-to-door``transport throughout North America. Celadon has been 
recognized for our safety record as well as for our environmental 
programs. For the second consecutive year, Celadon won the top award 
from the Environmental Protection Agency's (``EPA'') Smartway program, 
as a result of our achievements in reducing emissions through various 
innovative programs.
    Celadon is also a certified and validated member of the Customs--
Trade Partnership Against Terrorism (``C-TPAT'') program, and we were 
the first motor carrier approved for participation in the Automated 
Commercial Environment's (``ACE'') electronic manifest system. Both of 
these programs, as described further below, play an important role in 
improving the security of international commerce at our land borders. 
Celadon is also an ISO 9001 certified company and plays an integral 
role in our customers' supply chain management process serving a 
variety of high-intensity production lines, distribution channels, and 
customer direct traffic.
    Today I appear on behalf of the American Trucking Associations, 
Inc. federation of motor carriers, state trucking associations, and 
national trucking conferences created to promote and protect the 
interests of the trucking industry. The ATA federation has over 37,000 
member companies representing every type and class of motor carrier 
operation.
    First and foremost, I want to thank this Committee, specifically 
your leadership madam chair together with Congressmen Thompson and 
Lungren, and Congresswoman Jackson-Lee, in getting the SAFE Trucker Act 
of 2009 introduced and passed by the House of Representatives. SAFE 
Trucker is critical to the men and women of the trucking industry, by 
bringing relief from redundant, unnecessary and expensive multiple 
fingerprint-based background checks. Again, on behalf of the three 
million commercial drivers who transport America's cargo, we thank you 
for your leadership and support in passing the SAFE Trucker Act.
    I commend the Subcommittee for holding this hearing today to gather 
information on the status of our land border ports of entry. The 
trucking industry supports efforts to address and eliminate to the 
greatest extent possible any threats posed to our nation's security, 
including establishing the necessary infrastructure, both physical--
i.e. ``bricks and mortar``--and implementing technologies, to improve 
the clearance and throughput of trade with the highest standards of 
security. At a similar hearing two years ago, I focused my comments on 
three primary areas in relation to border operations:
         Ongoing security programs involving trucking operations 
        across our borders with Canada and Mexico to ensure supply 
        chain security;
         Implementing automated systems to improve the gathering and 
        analysis of data for targeting and release of cargo, people, 
        and equipment entering the U.S.; and,
         Strengthening the relationships among the three North 
        American governments to develop joint border infrastructure and 
        improve information sharing mechanisms.
    My comments today will update this Committee on the status of these 
issues, in addition to discussing other critical aspects of cross-
border operations.

Background
    Trucking continues to be a critical component of our country's 
economy, and trucks continue to transport the majority of cross-border 
trade with Canada and Mexico. However, compared to two years ago, today 
we are facing the most challenging global economic conditions with a 
significant negative impact on trucking operations.
    Since 2007, freight levels have decreased dramatically: 
domestically, the number of loads within the truckload sector has 
decreased by more than 17 percent while revenue has decreased even 
further by nearly 29 percent. In terms of cross-border trucking 
operations, the value of trade transported by trucks with Canada has 
declined nearly 30 percent, and about 18 percent with Mexico. For the 
purpose of this hearing, it is important to keep in mind that this 
precipitous drop in cross-border trade volumes means that we are not 
seeing the same levels of trade that normally strain our border 
facilities and personnel during better economic times.
    However, this reduction in trade flows doesn't mean that trade has 
stopped. Manufacturers, retailers, warehouses and, most importantly, 
consumers, continue to count on trucks to get the goods and products 
they need and use each and every day, transporting almost 70 percent of 
the value of freight between the United States and Canada, and about 80 
percent of the value of freight.\1\ The trucking industry is proud of 
its role in delivering North America's freight and we will continue to 
do so with the highest regard for security and efficiency.
---------------------------------------------------------------------------
    \1\ Bureau of Transportation Statistics, U.S. Department of 
Transportation (2006).
---------------------------------------------------------------------------
    Today, we continue to work in partnership with our government 
counterparts to improve the security and efficiency of cross-border 
trucking operations. Our industry supports programs that help motor 
carriers increase the security and safety of their operations, 
especially if such programs can be implemented in an effective and 
efficient manner and provide real security benefits. ATA believes that 
the end goals of security and efficiency are not mutually exclusive. 
Though it is impossible to achieve absolute security without bringing 
trade to a standstill, we can greatly reduce the potential of being 
targeted by our enemies by managing risk, increasing security awareness 
among company personnel, and implementing simple cost-effective 
security measures. In essence, we must continue to strive to establish 
a ``security culture'' within our companies and we must continue to 
improve our partnership and cooperation with our government 
counterparts.
    For many years, ATA has supported efforts to elevate the 
coordination of human resources, infrastructure, and technology in 
improving clearance systems and processes at our land borders. For 
example, long gone are the days when our tractors and trailers were 
literally drilled to inspect the inside of the conveyances--making our 
equipment look like Swiss cheese and resulting in very costly repairs. 
Now, through the use of Non-Intrusive Inspection (``NII'') systems, x-
rays and gamma rays are used to capture images of any anomalies within 
our commercial vehicles. Such technological advances and tools have 
improved CBP officers' enforcement capabilities while improving the 
efficiency and throughput of commercial vehicles across our borders.

Cross-Border Security Programs
    Security in cross-border operations pre-dates the 911 1 attacks on 
our Nation due to the threat posed by drug and alien smugglers -a 
threat that continues to challenge us, especially at our southern land 
border. Through programs such as the Land-Border Carrier Initiative 
Program (``LBCIP'') started in the mid 1990's trucking companies and 
their drivers were certified to participate in this program after 
undergoing audits and background checks. In return for participating in 
the LBCIP, motor carriers gained expedited clearance of their cargo.
    The LBCIP concept was upgraded immediately after 9/11 with the 
creation of the C-TPAT program, which included the development of the 
Free and Secure Trade (``FAST'') program specifically established for 
motor carriers with cross-border operations in North America. The 
overall goal of C-TPAT is to ensure the security of the entire 
international supply chain: from overseas manufacturing operations, to 
transportation providers, to entities such as importers, brokers, and 
forwarders involved in the processing of cargo entering our country.
    In order to participate in FAST, motor carriers must become C-TPAT 
certified (See Appendix I for C-TPAT Minimum Security Criteria) and 
their commercial drivers must complete an application and undergo a 
background check through various databases. Once such steps have been 
taken and verified, motor carriers benefit by receiving expedited 
clearance of their equipment, driver, and cargo -as long as it belongs 
to a C-TPAT importer -in addition to getting access to a dedicated 
FAST-lane for use only by FAST participants.

    The Need for FAST-Lanes at Ports of Entry
    The biggest challenge trucking companies continue to face with the 
program is the lack of ``true'' C-TPAT/FAST lanes--in essence, lanes 
that extend far back from the port of entry, instead of FAST lanes that 
begin only a few yards prior to arrival at the primary inspection 
booth. This results in low-risk C-TPAT carriers being stuck in the same 
traffic as non-C-TPAT certified carriers. Thus, C-TPAT certified motor 
carriers with drivers who have undergone FAST background checks are not 
getting the benefits that were promised for investing to comply with 
the program.
    I urge this Committee to consider alternatives for developing and 
implementing extended FAST lanes to ensure the security of C-TPAT 
operations by keeping these low risk vehicles moving and segregated 
from regular traffic.

Suspension of C-TPAT Benefits: Single Incident vs. Systemic Problems
    Another major challenge that motor carriers face regarding 
participation in C-TPAT is the fact that a single security incident 
that involves a motor carrier tends to result in the immediate 
revocation of that C-TPAT status. Such a drastic measure takes place 
before any investigation is undertaken to understand what led to the 
security incident. For example, if during an inspection it is found 
that a truck belonging to a C-TPAT carrier has illegal narcotics on 
board, the motor carrier is suspended immediately without knowing if 
the illegal cargo was place aboard the conveyance at the point of 
loading or during the manufacturing process unbeknownst to the motor 
carrier. It is simply unfair and unjust to hold the motor carrier 
liable for a security breach that occurred at another point within the 
supply chain.
    ATA and its members have met with U.S. Customs and Border 
Protection (``CBP'') officials on repeated occasions to discuss our 
concerns. ATA fully supports and applauds the efforts by the C-TPAT 
office for an open dialogue with industry and working to improve the C-
TPAT program. They clearly recognize the security challenges faced by 
cross-border trucking operations and have been extremely helpful in 
trying to resolve industry concerns. However, our discussions have not 
yet arrived at a ``justifiable'' suspension process for motor carriers 
involved in a security incident.
    ATA believes that the following steps should be considered and 
taken prior to a motor carrier being suspended from C-TPAT due to a 
security incident:
         If this is the motor carrier's first security incident, CBP 
        should:
                 Not immediately suspend the motor carrier, and thus 
                it should not off' its Status Verification Interface 
                (``SVI'') number, until an investigation determines the 
                nature of the narcotics and at what point the illicit 
                cargo was introduced into the conveyance;
                 Consider putting the motor carrier on ``probation'' 
                if the investigation demonstrates that the carrier was 
                not at fault. The ``probation``period can be lifted 
                once CBP is satisfied that the motor carrier has taken 
                steps to properly implement all the Minimum Security 
                Criteria and considered establishing applicable 
                recommended best practices to reduce the risks of 
                future security breaches;
         If an investigation demonstrates a willful disregard on the 
        part of the motor carrier of the C-TPAT Minimum Security 
        Criteria, CBP could:
                 Suspend the motor carrier and turn off its SVI 
                number;
                 Require the motor carrier to reapply and undergo 
                again a full validation of the C-TPAT requirements 
                prior to being re-admitted to C-TPAT.
    It is important for CBP, and for this Committee as well, to 
recognize that C-TPAT motor carriers take their responsibilities very 
seriously, and to recognize the challenging security environment that 
cross-border operations can represent on a daily basis. I would like to 
emphasize that no one is immune to the potential for ``bad'' actors 
infiltrating our operations: neither private sector companies nor the 
law enforcement agencies in charge of securing our border and 
protecting our country. We all face the same risk. Therefore, a single 
security incident should not result in a motor carrier being 
automatically suspended unless an investigation demonstrates a 
``systemic security'' problem and a lack of proper security measures by 
the trucking company. Individual incidents, even if perpetrated by a 
company employee, should not be treated as systemic problems.

Automated Clearance Programs
    The trucking industry is also closely involved in the development 
of information systems and technologies to facilitate enforcement 
activities while at the same time expediting the movement of cargo 
across our borders. ACE is a system that has been under development by 
CBP for well over a decade, and is now fully deployed along our land 
border ports of entry. ATA and many of its members worked on the design 
and development of the ACE manifest data requirements necessary for the 
transmission of data. The deployment of ACE is an important tool to 
improve the efficiency for capturing trade data, clearing cargo 
entering the US, and provides CBP an improved system for targeting, 
risk analysis, and release of cargo. Although the ACE system has 
suffered through a number of challenges, including service 
interruptions, malfunctions of the in-bond system and of the FAST-ACE 
interface, carriers are generally happy with the new e-manifest system.
    CBP is also developing the International Trade Data System 
(``ITDS'') as an integral part of ACE. The ITDS concept is simple: 
Traders and carriers submit commercially based, standard electronic 
data records through a single federal gateway for the import or export 
of goods. As a single information gateway, ITDS distributes these 
records to the interested federal trade agencies, such as CBP, the Food 
and Drug Administration (``FDA''), DOT and others, for their 
selectivity and risk assessment. In standardizing the process, ITDS 
reduces the confusion and complexity of international trade, and speeds 
the processing of goods, equipment and crews across our borders. ITDS 
also benefits the government by providing more current and accurate 
information for revenue, public health, statistical analyses, safety 
and security activities, as well as significantly reducing data 
processing development and maintenance costs.
    The development and implementation of the is an essential component 
in accelerating the flow of commerce while also improving the ability 
of CBP to analyze and target data entries.
    The trucking industry encourages the U.S. government, in 
cooperation with both Canada and Mexico, to improve and to facilitate 
the capture and exchange of information on goods and people crossing 
our land borders. A large portion of the U.S. international trade and 
immigration transactions generated every day occur from transactions 
along our land borders. ATA recommends that the U.S. government move 
forward with an aggressive in implementing both the Smart Border Accord 
between the U.S. and Canada, and the 22 Point Plan between the U.S. and 
Mexico, as well as implementing the recommendations established under 
the North American Security and Prosperity Partnership.

Conclusion
    The trucking industry believes that through NII technologies, C-
TPAT, ACE and industry initiatives, cross-border operations and the 
international supply chain are becoming increasingly secure. C-TPAT and 
FAST have created an excellent working relationship between industry 
and government to jointly confront these challenges, but closer 
cooperation and understanding between industry and government can yield 
an even higher degree of security at our borders.
    In summary, ATA raises the following issues for attention by this 
Committee so we can continue to increase the security and efficiency 
benefits of cross-border operations:
         ATA encourages this Committee to work with other relevant 
        Congressional Committees to analyze funding to improve border 
        facilities and infrastructure. This is essential in ensuring a 
        smooth flow of legitimate travelers and commerce across our 
        borders while ensuring our national security.
                 Border infrastructure planning must incorporate the 
                development of access roads and lanes at our ports of 
                entry that are reserved solely for ``low and ``trusted-
                travelers'' programs, such as FAST.
                 Such an analysis should consider an appropriate level 
                and mix of technology, equipment and personnel to 
                maximize the capabilities of border facilities.
         CBP must establish clear, reasonable and manageable 
        procedures for suspending motor carriers from C-TPAT and 
        recognize the difference between ``single``security incidents 
        and ``systemic``security problems.
         CBP/DHS must take a leading role among federal agencies in 
        managing systems and processes at our ports of entry, 
        especially with agencies outside of the DHS chain of command. 
        Though other federal agencies not within DHS have statutory 
        mandates requiring them to implement procedures for clearing 
        certain goods entering at U.S. ports of arrival (for example 
        FDA's implementation of the prior import notice requirements 
        under the Bioterrorism Act), these agencies should be required 
        to coordinate and work closely with CBP on the system.
    ATA and motor carriers throughout North America are committed to 
partnering with government and other sectors of our economy to improve 
and ensure our country's national and economic security.

    Ms. Sanchez. Thank you, Mr. Russell. And I thank both of 
the witnesses for their testimony.
    I will remind each member that he or she will have 5 
minutes to question the panel. And now I will recognize myself 
for a few questions.
    Mr. Russell, I really enjoyed hearing specifically how you 
described the important need to develop a security culture 
within companies and subsequent need to improve cooperation 
with the government. Can you describe CBP's security outreach 
efforts to your industry? Can you give some insight into how 
you educate your members on the issues that are important so 
that we have a smoother ability to drive commerce, if you will, 
across these borders.
    Mr. Russell. Let me discuss that from a personal situation 
at Celadon. We have about 4,000 employees. We run about 3,000 
trucks and about 10,000 trailers.
    Every one of our drivers is Highway Watch approved, which 
means that basically they are trained by us to ensure that they 
are looking for terrorist risks, et cetera. We also were the 
first carrier that was C-TPAT and ACE. Basically, that was 6 
years ago. We have been audited by the Department of Homeland 
Security and stayed very focused on security from the 
standpoint of America.
    I think what you will find in the trucking--the American 
Trucking Association is a focus on developing that culture and 
a focus on developing that philosophy. Can we vouch for every 
single owner-operator? No. But I believe that most of the more 
significant companies in our industry follow the--basically the 
philosophy espoused by the ATA and espoused by Celadon and 
espoused by companies involved in international trade.
    Ms. Sanchez. Because I have another question for you. What 
could we further do at the land borders to expedite legitimate 
cargo and legitimate companies, legitimate truckers, to get 
across and not have to wait in lines? And in some cases, I have 
seen long lines. In some cases, as Ms. Kelley says, the process 
is pretty--you know, they are doing their part to make the 
process fast as you go through, but sometimes the wait is 
pretty long in these lines.
    What can we do to bring the time to cross a border in a 
legitimate way down? And are there any other frustrations with 
respect to the whole process that you hear from the membership?
    Mr. Russell. In January, I was having a tooth pulled, and 
the orthodontist came in, gave me a shot of Novocain. And as he 
finished giving me the Novocain, he said, ``I will be back in a 
couple of minutes.'' And I looked at him, and I said, ``The 
true test of someone in life isn't someone who can make an 
asset into a bigger asset. It is somebody who can make a 
liability into an asset.''
    I said, ``Tell me something you have learned in life that 
will make this experience positive, not negative for me.'' He 
looked at me. He said, ``You have got to be kidding.'' I looked 
at him, and I said, ``I am not kidding.'' And he thought for a 
minute or two, and he said, ``I am not talking about your 
tooth. I am talking about life.'' He said, ``Lean into the 
pain. Don't run from it.''
    That philosophy is one that I believe CBP is following. I 
think, are there tweaks that can be done? Yes. In Laredo, for 
example, it is--on weekends, the border is only open from 10 
o'clock to 2 o'clock. Could that be extended? Absolutely. Can 
there be more folks hired to make the process faster? Yes.
    The biggest issue from an investment or a time standpoint 
are these FAST lanes, because right now, a FAST driver who has 
to pay to be FAST-approved, et cetera, the company has to 
support it and all that, that essentially all he can do is sit 
in the same traffic everybody else is until he gets to the very 
end of the line. And if that takes 2 hours, that is costing our 
driver money, it is costing the companies money, et cetera.
    The FAST program as envisioned I thought was terrific. The 
problem is, without the infrastructure changes in the roads 
themselves, it is going to be difficult to achieve.
    Ms. Sanchez. Thank you.
    Ms. Kelley, your organization is aware, I hope, that I have 
been one of the people that have been attempting to increase 
the number of CBP officers for some time now, since I do 
believe that they are understaffed across the board. Can you 
tell me how it affects the workforce, this understaffing, and 
how it affects, you think--what effect is has on the true 
security of our nation, as you are trying to figure out who 
should come in and who should stay out?
    Ms. Kelley. On the workforce, the impact is seen in a 
couple of ways. In many places, because of the staffing 
shortages, officers are forced to work double shifts, working 
16 hours at a time. That alone would raise questions for many 
as to, you know, how alert and, you know, sharp you can be at 
the 16th hour as you were at the 7th or 8th or 9th hour.
    There is also a huge morale issue, because from an employee 
perspective of trying to have a life and plan their family 
obligations with their children or their parents or their 
extended family, that becomes impossible in places where they 
know they can always be held over, as they call it, for another 
shift.
    And it is also things like this that make officers look to 
other occupations and decide maybe that this is not the place 
for them for a career. And it creates safety issues. Officers 
will tell you that often they believe that there should be more 
than one of them, whether it is inspecting a truck or boarding 
a ship, that they should not be going to many of these things 
alone. And in many locations, they do them without the number 
of officers that they believe they should have from a safety 
perspective.
    So there are a lot of aspects to it. And it impacts not 
only the morale, but I think it does--it is a factor for 
attrition, also.
    Ms. Sanchez. Talking about that particular issue of safety 
and your officers, let's say, checking a truck on their own 
without backup officers or directly there with them, have there 
been incidents where they have actually been attacked or 
threatened or anything of the sort?
    Ms. Kelley. I would have to go back and check the actual 
records just from a time perspective. I mean, I know that there 
have been incidents and there have been reports and concerns 
raised. It is as much about trying to avoid a problem and just 
kind of knowing in their guts, as a law enforcement officer, 
you know, who they should have with them or what kind of 
support and backup they should have.
    Ms. Sanchez. And I also want to explore--and we can do 
that, you know, outside of this environment, because I don't 
want to take up too much more time--but this whole issue of One 
Face at the Border, which initially, when that all happened, I 
wasn't very happy personally about seeing that, because I 
talked to many people--for example--you know, PhDs in I don't 
know, vermin and pests and things of the sort.
    I am in particular very interested in the issue of 
agriculture, because California, my home state, is, as you 
know, a big agriculture state. And we are always very worried 
about bugs and things coming through on paths from some straw 
that one would never even think there would be eggs in there, 
et cetera, certain worms or what have you.
    And it just felt to me like somebody who had 7 weeks or 
training with respect to INS, with respect to immigration, 
visas, customs rules, and then on top of that, agriculturally 
intense issues, just put more on everything that they would 
need to, whereas before we had very specialized people. So I 
would like to follow up with you on that and see how--how much 
we have missed or what we think we have missed in having put 
everybody together in one person.
    Ms. Kelley. I would welcome that opportunity, because as 
you mentioned, the rules and the laws and the regulations are 
very different for the customs focus, for the immigration 
focus, and for the agriculture focus. And, really, what One 
Face at the Border did was put everyone in one uniform and 
cross-train them and pretend that there was an enhancement of 
the workforce. And it was not.
    They used it--they actually told us at the time they were 
using it as a force multiplier without really having to add any 
additional staff. So it gave the appearance that there were 
more, but it really diluted, as you mentioned, the expertise.
    And we need--they did maintain--I will say this--they did 
at least maintain the agriculture specialist position. Where 
they did not maintain, the customs inspector position or the 
immigration inspector position. So at least there was a 
recognition that that specialization had to exist.
    Now, then there are a lot of issues about training that has 
not occurred, the cross-training, still kind of the dilution, 
the agriculture specialists having to do backup work in 
immigration and customs, when that is not what they are trained 
on, and then not having the time to do the agriculture 
inspections that, as you say, are so important.
    Ms. Sanchez. And just as I am concerned about the 
agriculture specialists, if you look at all the types of visas 
and documents one can enter this country in----
    Ms. Kelley. Specialization.
    Ms. Sanchez [continuing]. It is a pretty good book. So to 
be specialized in that is a difficulty.
    Thank you for your testimony.
    I will recognize my ranking member for 5 minutes.
    Mr. Souder. Thank you.
    First, Ms. Kelley, Congressman Cuellar asked the agency to 
provide what they believe the optimum strategy would be at the 
different crossings. Could you provide to the degree possible a 
similar type of thing? It would be interesting to match, and it 
also may make theirs a little more adequate.
    Ms. Kelley. Well, I would be glad to provide NTEU's 
estimates based on the information we have, but the information 
that Mr. Cuellar asked for that you will receive I will never 
see. It is designated as sensitive information.
    So I know anecdotally what we know from the staffing and 
talking to our members at the ports of entry, but I would not 
have nearly the detail that they will have.
    Mr. Souder. I think we had a few, because, obviously, it is 
not this administration or the last administration. You could 
say it is almost every administration, since OMB basically 
writes testimony, and if it relates to a cost issue, it becomes 
very hard for us to estimate what is actually needed outside of 
what the president wants us to know or OMB wants us to know.
    Even if it is anecdotal at different things and we say, 
``Hey, what is this gap here?'' We are hearing from agents in 
the field that they feel they are short-staffed there, and you 
are saying you are full-staffed there.
    Ms. Kelley. I would be glad to--I can tell you where they 
are working double shifts----
    Mr. Souder. That was going to be my next question. Where 
can you show----
    Ms. Kelley [continuing]. I can tell you where there--where 
all the lanes are not open because they don't have enough 
staff----
    Mr. Souder. That would be another.
    Ms. Kelley [continuing]. To staff the lanes, where all the 
technology is not being used because there is no one staffed to 
back us that day.
    Mr. Souder. Yes, those would be very interesting things to 
know.
    Ms. Kelley. I can give you our----
    Mr. Souder. Where do we have technology that isn't being 
used?
    Ms. Kelley [continuing]. Best guess about----
    Mr. Souder. Where are we double-staffing? Those things 
would be all very helpful.
    Ms. Kelley. Sure. I will be glad to do that.
    Mr. Souder. We would like to think that there weren't those 
places, but that is a little naive, too, I guess.
    Mr. Russell, We had some discussion about the differences 
in Canada and Mexico, and particularly, for example, the 
Canadians have more equipment and are fairly aggressive with 
their equipment and inspections. You know, this question of 
outbound, when you go into Canada, could you describe what 
happens to one of your trucks, as opposed to when you go into 
Mexico?
    Ms. Sanchez. I am sorry. We can't hear you. Can you bring 
the mic closer?
    Mr. Russell. I am sorry. Thank you.
    Right now, the law prohibits American trucks to go into 
Mexico, so our trucks don't go into Mexico. Our trucks do go 
into Canada. And basically, there is not much difference 
between going into Canada and coming back into the U.S. If you 
were to ask, you know, the time, et cetera, from a driver's 
standpoint, but there is no way to compare going into Canada 
with going into Mexico.
    Mr. Souder. And I----
    Mr. Russell. A trailer goes into Mexico, but not the 
tractor.
    Mr. Souder. We have had this huge Mexican trucking argument 
about whether Mexican trucks are safe coming into the United 
States and all this type of things. And I have been involved 
with that for years, but I am not sure I fully understood. You 
can't go into Mexico? Why do we allow Mexican trucks in the 
United States if you can't go into Mexico?
    Mr. Russell. We don't. There was a pilot test. The pilot 
test was stopped about 6 months ago. But the only thing that 
can go across today are drayage trucks, and those drayage 
trucks may have been the ones that the chairwoman talked about 
in that accident. But the drayage trucks literally can only go 
20 or 30 miles. I forgot the exact number of miles. And those 
are generally Mexican trucks that cross the border just to pull 
their trailer, and then they go back to Mexico. They are not 
allowed to run in the U.S.
    Mr. Souder. So all the drivers are contracted, in effect? 
When you say trucks, are you talking about the driver's unit, 
as opposed to the trailer?
    Mr. Russell. Exactly. The trailer goes through. We were the 
first carrier--that is how I started the company in 1985. We 
were the first carrier to allow the trailer to go into Mexico.
    Mr. Souder. So when we are allowing--when we are doing 
accountability for the trucking companies that--and we are 
talking about violations, because one of my questions is going 
to be, what percent--even domestically, different companies 
deal with contractor drivers. So no drivers on either side are 
basically employees of your company, if they are in Canada and 
Mexico? In other words, no--
    Mr. Russell. No American driver.
    Mr. Souder. No American--the cab going into Mexico will not 
be yours and the cab coming into the United States will not be 
Mexican?
    Mr. Russell. Correct. Basically, our U.S. tractor will take 
the trailer to Laredo or to El Paso, the north side of the 
border.
    Mr. Souder. So how does accountability work here? So when 
we get the trailer, how do you do an investigation--how do you 
keep rogue cab drivers from sticking things on your trucks?
    Mr. Russell. Basically, in our case, we are a truckload 
carrier, which means that we have one company's goods in the 
trailer, General Electric, Cara Corporation, whoever. That 
trailer is taken from a point in the U.S. to the Mexican border 
where the trailer is then turned over to a customs broker, who 
then arranges the drayage, meaning just across the border. So 
that is basically the way it works today.
    Mr. Souder. So in the----
    Mr. Russell. That is on the Mexican border.
    Mr. Souder. Have you been directly involved in a violation? 
Or do you know, obviously, other execs who have been? And how 
exactly does this sort through it? Because if we are trying to 
figure out how to, in effect, accelerate this, give more 
flexibility, find out who are the highest risks, hold them 
accountable, I mean, I have run into this, because every time 
we define it, it seems like everybody has some kind of excuse, 
because the driver can walk back, stick it underneath into 
that, the load--well, it wasn't the loader. It wasn't me, the 
driver. I didn't know. Somebody, when they opened the door, 
stuck it in. They attached it as I was getting dinner. How do 
you--
    Mr. Russell. The reality today is the Canadian border is, 
say, a free-flow border. An American tractor can take a load 
from Kansas City to Toronto, same driver, same trailer, same 
tractor crossing the border. A Canadian driver or an American 
driver can take it from Montreal to Dallas.
    The Mexican border doesn't work that way. The Mexican 
border, the American truck can take it to the northern part of 
the border itself. The Mexican truck can take it to the 
southern part of the border. And then these little drayage 
trucks take it back and forth.
    That may well be a real security risk today. It has always 
been that. About 5 years ago, we had an issue with a marijuana 
movement. And upon review and working with the FBI, the issue 
became the drayage company itself. It was neither the Mexican 
trucker or the U.S. trucker, but it was the same trailer.
    Ms. Sanchez. Thank you.
    We have about 9 minutes left on a vote that is on the 
floor. We have three votes up. So I would like to give some 
time for Ms. Kirkpatrick to ask a few questions, and then we 
will stop the hearing and end it, okay?
    Ms. Kirkpatrick. And I just have a quick question.
    Ms. Sanchez. Go right ahead.
    Ms. Kirkpatrick. Ms. Kelley, I noticed that you have an 
accounting degree, undergrad and master's degree, so I have a 
quick numbers question. You said that we need 4,000 more CBP 
officers. Does that include existing vacancies? And, also, do 
you have an estimate of the increased cost that that would be 
to the department?
    Ms. Sanchez. Can you--yes, thank you.
    Ms. Kelley. We believe the 4,000 is over and above current 
authorized staffing. That would be 4,000-plus existing 
vacancies.
    From a cost perspective, I have not done those numbers for 
today, at least, and we have gathered that data over the years, 
so I can recalculate that today.
    Ms. Kirkpatrick. Okay. That would be great. I appreciate 
that.
    And then you talked about the inspection specialization. 
Can you give me an idea of the type and length of training that 
it takes to have these specialized officers?
    Ms. Kelley. You know, again, I will have to check what the 
current training is versus what it used to be. It used to be 
that if you were an immigration inspector, you went to FLETC, 
the law enforcement training academy, and you are--you had--I 
am going to hesitate--I will be wrong on the weeks, but say it 
was 13 weeks. And if you were a customs inspector, you got 11 
weeks. And if you were an agriculture specialist, you went to a 
different academy, actually, that was specific. And most 
agriculture specialists have degrees in science, in botany or 
biology, and many times advanced degrees, not just a 
bachelor's.
    And when they created this One Face at the Border and put 
them all in one uniform, they merged all the training together. 
And now they go through--maybe it is a 14-week training where 
they combined everything, and you get--and you always got a bit 
of immigration, a bit of customs, because you are the first set 
of eyes when anything comes across--you know, any of the--
through any of the ports of entry.
    So there was always some training so you would at least 
recognize things to send over to secondary. But now it just all 
got consolidated, and everybody gets the same training, and 
especially in the immigration and customs. They all get trained 
on immigration. They all get trained on customs. But there are 
volumes of law rule and regulation about customs and about 
admissibility.
    They did actually create an admissibility position a few 
years ago and only staffed it with a few hundred people. And I 
had hoped they were going to recognize the need for the 
specialization for the immigration position and then someday 
see it for customs, but that has not happened.
    Ms. Kirkpatrick. Madam Chairwoman, in the interests of 
getting to the floor for a vote, I will yield back the balance 
of my time.
    And I thank the witnesses very much for being here today.
    Ms. Sanchez. Mr. Souder has asked something for the record.
    Mr. Souder. Mr. Russell, if you are comfortable, if you 
could provide both your personal and if the trucking 
association would, as you talked about this lane crowding and 
inability to get trucks separated out, could you rank the top 
five crossings north and south--or make it the top three north, 
top five south--of where this problem occurs so we have that?
    Ms. Sanchez. And what type of a problem it is, so that we 
have some sort of working knowledge of what it is that we might 
put assets to and----
    Mr. Souder [continuing]. Over a bridge farther south here, 
but I would like to know what the industry feels----
    Mr. Russell. We will get you that information.
    Ms. Sanchez. Great. Perfect. Thank you so much.
    I thank the witnesses for their valuable testimony and the 
members for their questions. And the members of the 
subcommittee may have additional questions for you all. We will 
ask you to respond quickly in writing to those questions.
    And hearing no further business, this subcommittee stands 
adjourned.
    [Whereupon, at 11:40 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

       Questions From Chairwoman Loretta Sanchez for Janice Ayala
    Question 1. Over the summer, ICE signed a new MOU with DEA to 
better coordinate their narcotics investigations and provide additional 
resources to fight violence along the border.
    Please describe the current state of the MOU's implementation.
    When does ICE anticipate local protocols will be finalized?
    Answer. On June 18, 2009, U.S. Immigration and Customs Enforcement 
(ICE) and the Drug Enforcement Administration (DEA) signed a new 
interagency cooperation agreement regarding investigative functions 
related to the Controlled Substance Act.
    Both Secretary Napolitano and Attorney General Holder have made 
clear that this agreement is the most efficient and effective way to 
promote coordination, de-confliction, and streamline communication 
between the two agencies. This agreement, which went into effect 
immediately, strengthens collaboration and partnership between ICE and 
the DEA, bolsters information sharing and coordination, and provides 
ICE agents the authority needed to work important drug trafficking 
cases.
    Negotiations between ICE and the DEA are currently underway to 
determine specific implementation plans for the MOU including 
finalizing local protocols that will be mutually beneficial to the 
respective agencies and field components.
    Question 2. Trafficking drugs in commercial trucks allows the 
cartels to move larger quantities of drugs faster and with relative 
ease compared to the time it may take a smuggler to transport a smaller 
shipment through the desert.
    Please provide this Committee with the number of investigations ICE 
conducted on commercial carriers in fiscal year 2009 by northern and 
southern border.
    Has ICE noticed any trends with respect to the use of commercial 
carriers in drug and human trafficking?
    Answer. In Fiscal Year 2009, ICE initiated 901 investigations 
stemming from seizures involving commercial modes of transportation, 
such as commercial trucks and trains.
    With respect to trends involving the use of commercial carriers, 
ICE has observed that narcotics trafficking and human smuggling 
involving commercial trucks and trains are generally encountered during 
the inbound examination process into the United States, whereas bulk 
cash smuggling is generally encountered during outbound examinations.
    Question 3. DHS offers many programs that allow expedited 
processing at our ports of entry for trusted travelers and companies. 
Has ICE's investigations indicated any loopholes or vulnerabilities in 
C-TPAT or FAST that can be exploited by the drug traffickers?
    Answer. To date, ICE has not identified any loopholes or 
vulnerabilities to the Customs-Trade Partnership Against Terrorism (C-
TPAT) or Free and Secure Trade (FAST) programs. U.S. Customs and Border 
Protection employs a layered enforcement strategy for FAST and C-TPAT, 
which includes vetting all applicants, validating the entire supply 
chain from point of stuffing to receipt of the goods in the United 
States, and conducting random and non-intrusive inspections.
    Question 4a. Please explain the operational differences between the 
Integrated Border Enforcement Teams (IBETs) and the Border Enforcement 
Security Task Forces (BEST). Both appear to be bi-national (U.S.-
Canada, and U.S.-Mexico) multi-agency efforts to enhance cooperative 
border enforcement.
    Answer. The Integrated Border Enforcement Teams (IBETs) are 
intelligence-led, multi-agency, field-level groups of law enforcement 
officials dedicated to securing the integrity of the shared border 
between Canada and the United States. They include multi-disciplinary 
intelligence and enforcement units, and, unlike BESTs, they do not 
concentrate on one specific geographic location, but rather focus on 
national security, organized crime, and other criminal activity more 
generally between the ports of entry.
    Border Enforcement Security Task Forces (BESTs) leverage Federal, 
State, local, and foreign law enforcement resources in an effort to 
identify, disrupt, and dismantle organizations that seek to exploit 
vulnerabilities and threaten the overall safety and security of the 
border. BESTs concentrate in particular cities or areas to investigate 
individuals and organizations involved in drug smuggling, human 
smuggling, arms trafficking, bulk cash smuggling and money laundering. 
There are currently three BESTs along the Northern Border operating at 
the ports of entry in Buffalo, New York, Detroit, Michigan, and Blaine, 
Washington. On the Southern Border there are currently ten BESTs 
located in Laredo, Texas, El Paso, Texas, Rio Grande Valley--Texas, 
Phoenix, Arizona, Tucson, Arizona, Yuma, Arizona, Deming, New Mexico, 
Las Cruces, New Mexico, San Diego, California, and Imperial Valley, 
California. Additionally, there is one BEST operating in Mexico City, 
Mexico.
    Question 4b. When would a case or investigation be referred to a 
BEST as opposed to an IBET, particularly where the BEST and IBET 
jurisdictions overlap?
    Answer. While the BESTs on the Northern Border operate at major 
ports of entry, the IBETs operate between the ports of entry. In 
particular, at the ports of entry, the BESTs generally obtain their 
investigation leads from U.S. Customs and Border Protection (CBP), 
Office of Field Operations. Conversely, IBETs obtain their 
investigative leads from agencies operating between the ports of entry, 
such as CBP's Office of Border Patrol.
    Question 4c. How are BEST cases and investigations prioritized and 
coordinated (if at all) with those of the IBETs?
    Answer. BEST and IBET coordinate, cooperate, interact, and 
deconflict intelligence and investigative information. The IBET Joint 
Management Team (JMT), which meets quarterly to provide specific 
guidance and contributions to case prioritization for BEST/IBET 
activity, is composed of IBET member agencies; ICE, United States 
Customs and Border Protection, United States Coast Guard, the Royal 
Canadian Mounted Police, and Canada Border Services Agency.
    Question 5. Please provide the Committee with resource allocation 
models for land ports of entry.
    Answer. U.S. Customs and Border Protection (CBP) Office of Field 
Operations (OFO) uses the Workload Staffing Model (WSM) to assist in 
requesting personnel and aligning staffing levels. OFO developed the 
WSM for CBP Officers, focusing on all aspects of CBP processing for 
passengers and cargo in the air, land, and sea environments.
    The existing model for assessing staffing needs at land ports of 
entry is based on workload data, processing times, and complexity and 
threat levels. When allocating available resources, both the WSM as 
well as the judgment of experienced personnel are taken into 
consideration. In addition, CBP evaluates other factors such as 
overtime constraints, special enforcement initiatives, wait times, 
specific local issues, and the unique attributes of each port. Also 
considered is CBP's ability to hire, train, and deploy officers in a 
timely manner, the training capacity at the Federal Law Enforcement 
Training Center (FLETC), and the physical constraints of current 
facilities and infrastructure.
        Question From Honorable Mark E. Souder for Janice Ayala
    Question. Of the contraband and human smuggling seizures made by 
Immigration and Customs Enforcement (ICE) Special Agents, excluding 
those referred to ICE by Customs and Border Protection and other 
agencies, how many are related to intelligence versus ``cold hits?''
    Answer. While U.S. Customs and Border Protection (CBP) patrols the 
front line, ICE by virtue of its investigative responsibilities, 
generally is not in a position to experience ``cold hits.'' As such, 
ICE initiates its own investigations and investigates leads from other 
law enforcement and regulatory agencies.
    Currently, there is no auditable way to track which contraband and 
human smuggling seizures are a direct result of ICE intelligence leads. 
However, during Fiscal Year 2009, ICE's Office of Intelligence 
satisfied 1,429 requests for intelligence support related to human 
smuggling issues and 908 related to contraband investigations. Many of 
these requests were for strategic intelligence products that identify 
smuggling routes, methods of concealment, and avenues for identifying 
active smuggling investigations. The intelligence provided back to 
field offices helps ICE appropriately direct resources to maximize 
enforcement efforts. The resulting shift in resources or enforcement 
methods leads to increased seizures overall.
    Questions From Chairwoman Loretta Sanchez for Colleen M. Kelley
    Question 1a. A few years ago, it was widely reported that CBP 
needed roughly several thousand new front-line officers to adequately 
fulfill its mission at the ports of entry. Since that time, CBP has 
made only modest increases in staffing.
    What are NTEU's recommendations for staffing?
    Answer. Based on CBP internal documents, the Washington Post 
reported that CBP needs to hire 1600 to 4000 new CBP Officers and 
Agricultural Specialists to adequately staff the nation's air, sea and 
land ports of entry while allowing for contingencies, such as training. 
This number is in line with NTEU's estimation of CBP Officer staffing 
needs based on our own research.
    The actual number of frontline non-supervisory CBP Officers remains 
elusive (as Rep. Cuellar can attest to.) CBP claims to have 19,972 CBP 
Officers, yet NTEU's most recent number of CBP Officers in the 
bargaining unit is about 17,750. Are the rest (over 2,200) non-
frontline supervisors? The ratio of non-frontline working CBP 
supervisors to frontline CBP Officers has been of major concern to 
NTEU's members for years.
    Question 1b. How is the lack of CBP officers affecting the 
workforce and the security of our ports of entry?
    Answer. The Federal Human Capital Survey released in 2009 shows 
that DHS continues to receive some of the lowest scores of any federal 
agency on a survey for job satisfaction, leadership and workplace 
performance.
    One of the most significant reasons for low morale at CBP is the 
continuing shortage of staff at the 367 ports of entry (POEs). Despite 
CBP's own staffing allocation models and a GAO report that states that 
CBP needs up to 4000 additional CBP Officers at the POEs, there was not 
new CBP staffing at the ports of entry included in the fiscal year 2010 
DHS Appropriations bill.
    Also, CBP Officer staffing shortages at the POEs have resulted in 
limited staff available at secondary to perform those inspections 
referred to them because the majority of CBP Officers are assigned to 
primary passenger processing to reduce wait times. CBP Officers are 
extremely concerned about this diminution of secondary inspection in 
favor of passenger facilitation at primary inspection since the 
creation of the Department of Homeland Security. A robust secondary 
inspection regime is vital to the nation's security.

    Question 2a. Over the last few years, CBP has implemented a number 
of new technologies and programs to increase security and expedite the 
flow of commerce at ports of entry.
    Do you believe CBP has placed an overreliance on technology to 
compensate for the lack of personnel and inadequate infrastructure?
    Answer. Advances in technology have been useful in enhancing port 
security. Risk-based targeting and implementation of expedited crossing 
programs such as SENTRI for people or FAST (Free and Secure Trade) 
lanes for trucks and railcars that are certified as compliant with the 
Customs Trade Partnership Against Terrorism (C-TPAT) agreement help in 
speeding frequent travelers and known cargo conveyances through the 
inspection process. Today, primary processing is increasingly dependent 
on technology. CBPOs are instructed to clear vehicles within thirty 
seconds. That is just enough time to run the license through the plate 
reader and check identifications on a data base. If the documents are 
in order the vehicle is waived through. The majority of a CBPO's time 
is spent processing I-94s--documents non-resident aliens need to enter 
the U.S.
    Technology, therefore, has its limits. There is no way you can 
speed up the inspection process in which CBP Officers are currently 
conducting primary inspections in 30 to 40 seconds without increasing 
staffing. NTEU's position was confirmed on October 1, 2009, by a draft 
report of the Southwest Border Task Force created by Homeland Security 
Secretary Janet Napolitano and reported by the Associated Press that 
recommends the ``federal government should hire more Customs [and 
Border Protection] officers.''
    Also, reliance on technology should not discount well-honed human 
instinct that is based on years of experience in the job. Technological 
advances are important, but without the training and experience, 
technology alone would have failed to stop the millennium bomber. It is 
important to remember that Ahmed Ressam, the millennium bomber, had a 
valid passport when he attempted to enter the U.S. from Canada by ferry 
at Port Angeles, Washington. It was years of experience that convinced 
now-retired U.S. Customs inspector Diana Dean, after brief questioning 
at primary, to send Ressam to secondary where the true purpose of his 
visit to the U.S. was discovered.
    Without adequate personnel at secondary, wait times grow and 
searches are not done to specifications. For example, a full search of 
one vehicle for counterfeit currency will take two officers on average 
a minimum of 45 minutes. Frequently, only one CBPO is available for 
this type of search and this type of search will then take well over an 
hour.
    Question 2b. Are you satisfied with the level of training your 
members are receiving to operate these new technologies and programs?
    Answer. Because of staffing shortages at the POEs, there is never 
enough time for adequate training because it takes staff away from 
primary processing and adds to wait times. Training is always a 
secondary priority when scheduling work at the POEs.
    Question 3. Please describe how the One Face at the Border 
initiative has affected CBP Officer training, expertise and port of 
entry inspections. How does current training compare to training before 
the implementation of the initiative?
    Answer. In June 2007, NTEU testified before the Homeland Security 
Subcommittee on Management, Investigations and Oversight, on this very 
issue. Please find attached NTEU's June 19, 2007 testimony entitled 
``Ensuring We Have Well-Trained Boots on the Ground at the Border.''
    The testimony outlines the changes in training time, subject matter 
and type of training (i.e., computer-based versus on-the-job training) 
since the institution of the One Face at the Border initiative. Also 
attached to the testimony is a virtual learning certificate of training 
that goes into each Officers personnel file upon completion of a 
computer-based training module. Computer-based training is now the 
norm, not on-the-job training with an experienced Officer.
         Questions From Chairman Loretta Sanchez for Todd Owen
    Question 1a. Congress provided $720 million through the American 
Recovery and Reinvestment Act of 2009 (ARRA) for construction at land 
ports of entry.
    How will this stimulus funding support the processing of commercial 
traffic?
    Answer. The $420 million of ARRA funding dedicated to both the 
General Services Administration (GSA) and the U.S. Customs and Border 
Protection (CBP)-owned land ports of entry and the $300 million 
dedicated to General Services Administration (GSA)-owned land ports of 
entry provides for critical security upgrades to enable law enforcement 
officers to do their jobs and protect national security along our 
Northern and Southern Borders. The modernization will also improve 
commercial inspection infrastructure, enabling CBP to efficiently and 
expeditiously screen, assess risk, and inspect incoming cargo. The 
ports will be built with dual-use primary inspection booths that can be 
configured to process both commercial and non-commercial traffic, and 
infrastructure to support radiation portal monitors to comply with the 
Congressional mandate to screen all commercial traffic entering the 
United States.
    Question 1b. What is CBP's long-term strategy to improve and 
further enhance commercial cargo processing at land ports of entry?
    Answer. CBP's long-term strategy to improve and further enhance 
commercial cargo processing at land ports of entry is to continue to 
expand the physical processing capacity through infrastructure 
improvements, which includes leveraging the most up-to-date technology 
available to perform screening and scanning of incoming cargo at the 
ports of entry. CBP's strategy also includes modernizing automated 
systems that contribute to the risk assessment and release decisions 
made by CBP. Additionally, CBP will continue to work with the trade 
community and others to obtain their input on operational and policy 
concerns. This collaboration enables CBP to incorporate feedback from 
the private sector into key initiatives while fulfilling its dual 
missions of securing our borders while facilitating legitimate travel 
and trade.
    Question 2. The fiscal year 2010 Congressional Budget Justification 
for CBP indicates that one of the goals for fiscal year 2010 for CBP is 
to maintain 90 percent or higher compliance rates for C-TPAT members in 
terms of the ratio of suspensions/removals to the overall number of 
certified/validated partners. Please explain this measure and how CBP 
plans to achieve this goal.
    Answer. This measure determines the percentage of members whose 
security procedures were validated by U.S. Customs and Border 
Protection (CBP) and were found to be in line with the program's 
security criteria. The figure is calculated by dividing the number of 
failed validations, i.e. companies suspended and/or removed as a result 
of a Customs-Trade Partnership Against Terrorism (C-TPAT) validation, 
into the total number of validations performed in a given period.
    Historically, the compliance rate has ranged from 95--99.97% 
depending on the period reported, showing that the vast majority of 
companies pass the validation. C-TPAT provides members a period of 90 
days to address the validation findings and the member's status is 
tracked automatically. In those cases where the company does not 
adequately resolve the findings, the program takes action to suspend 
the member.
    Question 3a. Recently, CBP issued a number of solicitations for 
various large-scale non-intrusive inspection equipment (NII) systems.
    What is the status of the $88 million in American Recovery and 
Reinvestment Act funds pledged for non-intrusive inspection (NII) 
technology at the ports of entry? Has the new equipment been installed?
    Answer. CBP received $100 million dollars in American Recovery and 
Reinvestment Act (ARRA) funds for purchasing Non-Intrusive Inspection 
(NII) technology to be deployed to U.S. ports of entry. Approximately 
95% of the funds have either been obligated or awarded. Vendors are 
currently producing the equipment and the entire inventory of ARRA-
funded equipment is scheduled to be deployed during the 2009 and 2010 
calendar years.
    Question 3b. How will CBP ensure that this investment meets the 
challenges of detecting new and emerging weapons and concealment 
methods?
    Answer. CBP constantly evaluates its Non-Intrusive Inspection (NII) 
Acquisition and Deployment Strategy and continues to make appropriate 
adjustments aimed at enhancing the overall efficiency and effectiveness 
of the program. CBP is currently replacing obsolete and aging systems 
with a mixture of fixed and mobile high-energy and low-energy systems 
that possess the performance characteristics that meet the mission-
specific requirements of CBP. These systems must be seamlessly 
integrated into an existing port's processes and infrastructure.
    There is no single technological solution to improving security. As 
technology matures, we must evaluate and adjust our operational plans. 
CBP will continue to pursue a mix of new and emerging technologies with 
enhanced performance characteristics designed to complement one another 
and present a layered defense to smuggling attempts.
    Question 3c. How does CBP evaluate the total life cycle costs for 
NII equipment deployed at ports of entry?
    Answer. Total life cycle costs for NII equipment are based on a 10-
year life-cycle that includes acquisition, testing, deployment, 
training, operation and maintenance, and disposal/retirement at the end 
of the equipment life.
    Question 3d. It is our understanding that CBP purchased mobile 
backscatter NII with ARRA funds. How does CBP plan to use this 
technology?
    Answer. NII technology is an essential element of the CBP layered 
enforcement strategy. The goal is to match the technology and equipment 
with the requirements at each location based upon a comprehensive 
analysis of the unique configuration at every deployment site.
    Under the American Recovery and Reinvestment Act (ARRA), DHS 
recently received funding to purchase additional NII technology, 
including mobile low-energy backscatter technology, and deployment to 
land border ports of entry. Low-energy portal and mobile systems have 
minimal penetration capabilities, they allow CBP to effectively image 
privately owned vehicles, buses, recreational vehicles and empty-only 
cargo conveyances for the presence of contraband. These systems require 
a much smaller footprint and have bidirectional capabilities which 
provide CBP with the added flexibility to image conveyances both 
arriving and departing the United States.
    Question 4. Please provide the Committee with resource allocation 
models for land ports of entry.
    Answer. Response was not received at the time of publication.
         Questions From Honorable Mark E. Souder for Todd Owen
    Question 1a. Please provide the following information regarding C-
TPAT and FAST violation incidents involving highway carriers:
    The number on the northern border versus the southern border.
    Answer. Eleven northern border vs. 35 southern border violations 
(CY 08-09).
    Question 1b. The number involving drayage trucks on the southern 
border.
    Answer. C-TPAT and FAST do not maintain drayage statistical 
information is not kept by C-TPAT and FAST. If a highway carrier 
company crosses the border with cargo, has a Standard Carrier Alpha 
Code, a Department of Transportation number and meets the Minimum 
Security Criteria, then it is generally eligible to participate in C-
TPAT.
    Question 1c. A comparison of the incidents between small and large 
companies.
    Answer. A comparison of the incidents between small and large 
companies: CBP does not keep statistical information differentiating 
small and large carriers.
    Note: In many of the cases involving security breaches, C-TPAT 
members were utilizing the services of non-C-TPAT members. C-TPAT has 
sent out information bulletins to remind all members that they are 
expected to use C-TPAT partners to the extent possible and that they 
are expected to conduct extensive screening on their non C-TPAT 
business partners.
    Question 2. What mechanisms exist for bi-lateral and tri-lateral 
discussions for ways to improve port of entry infrastructure and roads 
leading to the ports of entry, as well as harmonization of security and 
trade policies?
    Answer. The United States, the Government of Canada (GOC) and the 
Government of Mexico (GOM) are linked by common borders and economic 
ties, and have strong bilateral and trilateral partnerships concerning 
law enforcement and trade issues.

Canada
Joint Border Risk Assessment
    U.S. Customs and Border Protection (CBP) and Canada Border Services 
Agency (CBSA) are working on a joint border risk threat assessment 
focused on activity at the northern border ports of entry. This project 
is on schedule and the assessment will be available by the April 2010 
deadline.

Customs-Trade Partnership Against Terrorism (C-TPAT)/Partners in 
Protection (PIP)
    C-TPAT, a voluntary public-private sector partnership program, is 
an integral part of DHS's layered enforcement strategy. C-TPAT members 
agree to incorporate certain supply chain criteria into their business 
practices and in return, DHS offers trade-based incentives for 
participants. For example, DHS provides pre-vetted members access to 
the FAST lanes on the Canadian border. Canada's equivalent of the C-
TPAT is the Partners in Protection (PIP). In June 2008, DHS and CBSA 
signed a mutual recognition arrangement on C-TPAT and PIP, enhancing 
the ability of the two programs to share information, recognize the 
findings of the validation visits conducted by each program, and 
provide participating businesses with a standardized set of security 
requirements, as well as a reduced number of validation visits. On 
November 25, 2009, the United States Secretary of Homeland Security and 
the Canadian Minister of Public Safety publicly announced that CBP and 
CBSA will continue to work together closely in order to achieve 
harmonization of these two programs as quickly as possible. The 
harmonization of these two trusted shipper programs will improve the 
security of private sector supply chains and benefit shippers.

Bilateral Partnerships
    Both the U.S. government and GOC recognize the need to enhance and 
expand national and bilateral partnerships to increase security and 
facilitate trade and travel. Examples of these bilateral partnerships 
currently in place include the Integrated Border Enforcement Teams, 
Cross-Border Crime Forum, Shared Border Accord Coordinating Committee, 
Cooperative Border Management Working Group, and the Export Controls 
Working Group.

Cross-designation of CBP and CBSA Officers
    CBP and CBSA are examining the feasibility of cross designating 
CBSA officers as CBP officers. This cross designation will increase 
cooperation between CBP and CBSA by allowing officers to work together 
to prevent criminals and terrorists from using the border to evade 
enforcement or to inflict harm on U.S./Canada.

Shiprider
    On May 26, 2009, the U.S. Secretary of Homeland Security and the 
Canadian Minister of Public Safety publicly announced the Shiprider 
initiative. The Shiprider initiative involves law enforcement officials 
from both countries operating together in integrated teams. Utilizing 
Royal Canadian Mounted Police (RCMP) and U.S. Coast Guard vessels, the 
U.S./Canada combat smuggling, organized drug crime, gun trade and other 
criminal activity in shared waterways. Shiprider enables the RCMP and 
the U.S. Coast Guard to cross-train, share resources and personnel and 
utilize each others' vessels in the waters of both countries. Working 
together, Canadian and U.S. law enforcement will help ensure that 
criminal organizations no longer exploit the shared border and 
waterways because of the inherent jurisdictional challenges associated 
with cross-border policing.

Capital Planning and the Establishment of Joint Facilities
    CBP and CBSA met in September 2009 in order to discuss the 
establishment of joint CBP and CBSA facilities (one facility for both 
agencies on the border) and other long-term capital plans. The CBP and 
CBSA working group will be holding additional meetings on this topic.

Mexico
Bilateral Strategic Plan (BSP)/Declaration of Principles (DOP)
    On June 08, 2007, DHS and Mexico's Department of Finance and Public 
Credit signed the Declaration of Principles (DOP) to provide for 
increased commitment and cooperation. A key provision of the DOP was 
the direction to implement a Bilateral Strategic Plan between U.S. 
Customs and Border Protection (CBP), U.S. Immigration and Customs 
Enforcement (ICE) and Mexico Customs (MXC). The BSP was formally 
implemented by the three agencies on August 13, 2007, establishing four 
working groups to coordinate and implement the goals set forth in the 
document (the Capacity Building Working Group, the Customs Security 
Working Group, the Border Management Working Group, and the Customs 
Enforcement Working Group). On June 15, 2009, DHS Secretary Napolitano 
and SHCP Secretary Carstens signed a Letter of Intent to revise and 
update the BSP and DOP. Subsequently, CBP, ICE, and MXC jointly revised 
the BSP and DOP which was signed by Secretary Napolitano and Secretary 
Carstens on December 7, 2009.

Port Bi-National Security Committees
    The establishment of Port Bi-National Security Committees between 
the United States Government (USG) and the GOM will serve as the 
foundation for a formalized process to address security concerns and 
other related issues at ports of entry on both sides of the border.

Canine Training
    As part of the Merida Initiative, CBP and the Department of State 
will conduct canine training for experienced Mexican dog handlers and 
supervisors. The Canine Center in El Paso is planning to train 44 
canine detection teams (40 for MXC and 4 for the Mexican Navy), 
including eight canine instructors for MXC. The teams will be trained 
in the discipline of 22 narcotics and 22 currency/firearms.

Coordination of Border Infrastructure
    There are a number of formal mechanisms in place for coordination 
of border infrastructure. These include:
         The U.S.-Mexico Joint Working Committee led by the Federal 
        Highway Administration (FHWA), whose focus is evaluating and 
        coordinating border-wide transportation improvements.
         The Binational Bridges and Border Crossings Meeting, led by 
        the Department of State (DOS), whose focus is on coordination 
        and alignment of project priorities and implementation 
        schedules
         The Border Liaison Mechanism (BLMs) meetings, which provide 
        land port of entry project-specific work groups to address all 
        aspects of project design, construction, and delivery. These 
        forums consists of government officials from the Federal, 
        State, and local levels and also include private stakeholders, 
        such as bridge board members, metropolitan planning 
        organizations, and other such entities.
    Question 3. What other agencies or departments are authorized to 
place holds on commerce crossing the border? How does CBP coordinate 
with these entities to move legitimate cargo through as quickly as 
possible?
    Answer. Other agencies or departments authorized to place holds on 
commerce crossing the border are as follows: U.S. Fish and Wildlife 
Service, U.S. Coast Guard, U.S. Food and Drug Administration, U.S. 
Department of Agriculture's Animal and Plant Health Inspection Service, 
U.S. Environmental Protection Agency, the U.S. Department of 
Agriculture's Food Safety and Inspection Service, Bureau of Alcohol, 
Tobacco, Firearms and Explosives, U.S. Department of Treasury's Office 
of Foreign Assets Control, U.S. Department of State's Directorate of 
Defense Trade Control, and the Department of Commerce's Bureau of 
Industry and Security.
    CBP coordinates with these agencies and departments to move 
legitimate cargo as quickly as possible. CBP can either release the 
cargo to the other agency or department or CBP can inspect on its 
behalf.
    Question 4. What is the process when another federal entity places 
a hold on an import but is not physically present at the port of entry 
to do an inspection?
    Answer. When another Federal entity places a hold on an import, but 
is not physically present at the port of entry to do an inspection, CBP 
communicates with that entity electronically or verbally, and then 
either releases control of the cargo to the other agency or department 
or inspects the cargo on behalf of the other agency or department.
    The process may be initiated through any of the following methods:
         Other agencies or departments may delay the release of cargo 
        by based on criteria submitted to CBP and entered into the 
        Automated Commercial System (ACS).
         Other agencies or departments may request CBP to flag 
        specific commodities for intensive examination which can 
        further delay its release.
         Other agencies or departments may call CBP and request a 
        shipment be held for examination.
     Questions From Chairwoman Loretta Sanchez for Stephen Russell
    Question 1a. Despite the various steps CBP has to process 
commercial traffic more efficiently, the Committee continues to hear 
about growing wait times, longer inspections, and limited staffing at 
our ports of entry.
    Are you satisfied with the steps that CBP has taken to process 
legitimate commercial traffic?
    Question 1b. What more needs to be done to expand and expedite 
commercial processing?
    Answer. Chairwoman Sanchez, I do believe that CBP, operating under 
the present constraints of our border infrastructure, has taken a 
number of steps to improve the throughput of commercial cargo across 
our land border ports of entry. The use of certain technologies has 
allowed CBP to become more efficient reviewing manifest information, 
performing risk analysis and targeting, and for inspecting commercial 
vehicles for any potential anomalies that could indicate the presence 
of illegal cargo. As I mentioned in my testimony, the use of Non-
Intrusive Inspection (NII) systems has not only allowed CBP to look 
inside tractors and trailers without spending hours loading, unloading 
and reloading freight from a trailer to inspect for potential 
contraband, but it has also averted any physical damage being done to 
our equipment through the use of other more rudimentary inspection 
tools such as drills.
    We are clearly seeing a large reduction of commercial flows across 
our borders with Canada and Mexico due to the present economic 
situation. This has alleviated some of the congestion and usual delays 
faced by trucking companies. Of course, we are concerned that once 
economic output begins to increase again throughout North America, that 
long lines at border crossings will once again become the norm.
    As a member of the Customs_Trade Partnership Against Terrorism (C-
TPAT), Celadon is proud to work in partnership with CBP in securing the 
international supply chain so critical to our country's economic 
wellbeing. However, one of the key incentives and benefits for motor 
carriers to participate in C-TPAT is the concept of Free and Secure 
Trade (FAST) lanes. The concept of the FAST lane is that C-TPAT motor 
carriers, transporting freight for a C-TPAT importer, and using a 
driver who has undergone a FAST background check, get to use a FAST 
``lane'' that separates ``low-risk'' cargo from the regular traffic. 
However, today the concept has not evolved into a FAST-lane, but simply 
into a FAST ``gate'': C-TPAT motor carriers are commingled with the 
rest of the traffic until the point at which they arrive at the gate 
and proceed to a FAST gate, not providing any real benefit or relief 
from congestion. CBP must work with their Canadian and Mexican 
counterparts to implement true FAST/C-TPAT lanes.
    I also encourage this Committee to monitor and review how border 
infrastructure needs are developed and implemented. Agencies such as 
CBP, the General Services Administration (GSA) the Departments of State 
and Transportation, and others need to closely coordinate their 
planning and operational needs to have the proper level of physical 
infrastructure, technology systems and human resources to ensure that 
our ports of entry operate securely and efficiently. For example, the 
development of FAST/C-TPAT lanes has to be part of border 
infrastructure planning and financing.
    I urge the Committee to take the following steps:
         Work with other relevant Congressional Committees to improve 
        border infrastructure, including the building of FAST/C-TPAT 
        lanes, so low-risk commercial carriers get the one true benefit 
        of expedited processing and clearance at our ports of entry;
         Increase the number of NII systems at our busiest land-border 
        ports of entry to further increase throughput of commercial 
        vehicles while improving CBP's ability to detect illicit cargo; 
        and,
         Provide CBP with the necessary resources to ensure the agency 
        has enough personnel to operate every gate during peak-times so 
        that our border infrastructure is utilized at its optimal 
        capacity.
    Question 2a. The Automated Commercial Environment (ACE) has 
undergone some significant modifications over the last few years and 
more are scheduled so that the system can included all modes of cargo 
shipments.
    Please discuss your use of the ACE system and how the system can be 
improved.
    Question 2b. What type of input have ATA members had in the 
development of ACE?
    Answer. The development and implementation of the ACE system has 
been in the making since 1993, the year in which Congress passed the 
Customs Modernization Act. If you consider that the first electronic 
manifest within ACE was implemented in December of 1994, and we are 
still lacking some functions, it has taken nearly 16 years to get the 
ACE system up and running.
    For the trucking industry, the implementation of the e-manifest 
system has been critical for several reasons. First, it allows trucking 
companies to be in compliance with the Trade Act of 2002 requirements 
for submitting information in an electronic format prior to arrival at 
a port of entry. The Trade Act mandates that cargo, equipment and 
driver information has to be received electronically by CBP 1 hour 
prior to arrival--30 minutes for C-TPAT members. The ACE e-manifest 
allows motor carriers to provide key data elements directly to CBP for 
the review of freight information and clearance of freight prior to 
arrival. Second, the trucking industry was the only transportation mode 
prior to ACE that did not have an automated manifest system. Thus, the 
trucking industry was still operating under a cumbersome, paper-based 
system in which we relied on third parties to provide and submit the 
information to CBP for clearance, which in turn resulted in unnecessary 
delays and negatively impacted our operations. Third, the ACE e-
manifest provides CBP a much improved system and process for reviewing 
the information and data provided for review and clearance of the 
cargo, vehicle and driver even prior to the cargo arriving at the port 
of entry.
    Regarding the input that ATA members have had in the development of 
ACE, I can tell the Committee that ATA has been actively involved from 
the very beginning in the various working groups and committees 
developing the ACE Multi-Modal-Manifest system. Obviously, we have been 
very involved for several years in the development specifically of the 
e-manifest for trucks with several ATA members of different sizes 
testing and providing feedback on the system. ATA has spearheaded bi-
weekly teleconferences with CBP to discuss issues and fixes to the ACE 
truck e-manifest for the past several years. These teleconferences 
began in 2005 and are ongoing, providing a forum for both CBP and the 
trucking industry to work on improvements that need to be made to the 
system. At this time, the trucking industry is waiting for the ocean 
and rail ACE e-manifests to be rolled out, which will add significant 
flexibility and function to the ACE truck e-manifest.
    We understand that CBP and Congress have been looking at the cost 
of ACE relative to the functions it will provide for the agency and 
trade. At this time, the ACE system needs to be expanded, rather than 
contracted so our trade systems stop depending on a paper-based system. 
One of the improvements recommended by the trade community is to 
enhance ACE with the ability to pass imaged information to CBP. Another 
is to enhance the communication between brokers and transportation 
providers by improving the already programmed but seldom used ``broker 
download,'' which would put a stop to faxing and phone calling. In 
order to make these improvements, and others, ACE needs to be fully 
funded.
    Question 3. In your testimony, you state that CBP could exercise 
more flexibility with industry partners in correcting security breaches 
and developing security measures that complement partner business 
models. Please elaborate.
    Answer. Members of C-TPAT take their responsibilities for 
implementing security measures required by the program very seriously. 
Securing our operations is not only vital to improving the security of 
our Nation, but to also ensuring the security of the international 
supply chain, and the security of our customers' cargo. In essence, C-
TPAT is a ``partnership'' program between CBP and the trade community, 
a partnership that requires understanding each other's operations and 
needs. Thus, there is a need for greater ``flexibility'' by CBP when a 
C-TPAT member has been targeted and used by smugglers to try to 
introduce illegal cargo or aliens into the U.S. by using one of our 
conveyances.
    This request for flexibility arises from the present CBP policy of 
terminating a C-TPAT member's privileges due to a single security 
incident. When illegal cargo, such as illegal drugs or aliens, is 
discovered in a conveyance belonging to a C-TPAT motor carrier, the 
Status Verification Interface (SVI) number for that motor carrier is 
turned off even prior to an investigation taking place by CBP. The SVI 
number allows C-TPAT importers to review if a motor carrier is in good 
standing within the program. If a C-TPAT importer finds that the motor 
carrier's SVI has been turned off, the importer will then need to 
scramble to find another C-TPAT motor carrier to transport its cross-
border cargo. At the same time, the motor carrier whose SVI number has 
been turned off could potentially lose a large account of business.
    The scenario described above can dramatically disrupt cross-border 
operations for both the motor carrier and the C-TPAT customers who 
depend on the carrier to transport their cargo safely and securely. C-
TPAT motor carriers have requested that CBP not turn off the SVI number 
until a preliminary investigation has taken place and it has been shown 
that the motor carrier did not have the necessary security steps to 
stop illegal cargo from being introduced into the conveyance. If the 
carrier has had security breaches in the past that have resulted in 
past reviews and suspensions, then we recognize the need by CBP to take 
action, noting a potential ``systemic'' security problem within the 
company. However, if the motor carrier has implemented the security 
criteria expected by CBP and demonstrated efforts to continually 
improve security, a ``single'' security incident should not result in 
the motor carrier's suspension from C-TPAT. Rather than operate under a 
``gotcha'' mentality in which the motor carrier is suspended, ATA and 
its members believe that CBP should a take a pro-active approach of 
working with the motor carrier to review and suggest security 
improvements.
    This is especially a concern on the U.S.-Mexico border where cross-
border trucking operations and business models are quite different from 
those on the U.S.-Canada border. For example, let's consider a load of 
computer parts that travels from Silicon Valley in California down to 
an assembly plant in Guadalajara, Mexico. A U.S. carrier picks up the 
cargo in California and drives to Laredo, Texas, where the U.S. motor 
carrier drops off the trailer with the parts. After being cleared for 
entry into Mexico, a ``drayage'' tractor will come across the border, 
hook up the trailer and transport the trailer just to the other side of 
the border, where the long-haul Mexican partner of the U.S. motor 
carrier will then hook up the same trailer and transport it to its 
final destination in Guadalajara. Once the computers are assembled and 
ready for the U.S. market, they will be transported by the Mexican 
long-haul motor carrier and be dropped off at Nuevo Laredo, Tamaulipas. 
After being cleared by CBP for entry into the U.S. a ``drayage'' truck 
will again pick up the trailer and transport it across the border to 
Laredo, Texas, and drop it off at the U.S. motor carrier's terminal for 
further delivery in the U.S.
    The challenge faced by these types of operations is that neither 
the U.S. long-haul nor the Mexican long-haul carriers have ``control'' 
of the trailer when crossing the U.S.-Mexico border because the drayage 
tractor is an independent agent that tends to have a relationship with 
either a customs broker or freight forwarder. In essence, this 
operation in which multiple companies are in charge of transporting a 
trailer across the border results in a much tougher risk-management 
process due to a higher threat level for smugglers to target and 
introduce illicit cargo into a conveyance. Long haul motor carriers 
would like to have greater control over the movement of such cargo 
across the U.S.-Mexico border. But today, long-haul motor carriers from 
both countries are not allowed to operate across the border. Allowing 
long-haul motor carriers to cross the border would greatly improve not 
only cross-border trucking efficiency, but also greatly improve the 
security of such operations especially by C-TPAT motor carriers.
        Questions From Honorable Mark Souder for Stephen Russell
    Question 1. What do you believe are the most crowded ports of entry 
on both land borders of the United States and what do you attribute the 
main cause for congestion?
    Answer. I believe the Ambassador Bridge between Detroit, Michigan 
and Windsor, Ontario, and the bridge between Laredo, Texas, and Nuevo 
Laredo, Tamaulipas are the two busiest border crossings for commercial 
vehicles at the northern border and southern border, respectively. At 
the Ambassador Bridge the automotive industry plays a very large role, 
with plants on both sides of the border, which produce and manufacture 
auto-parts that travel back and forth across the border. Because the 
larger ports at the northern border are able to process freight 24 
hours a day, it has been easier to stagger scheduled freight crossings; 
however, we still see peak hour congestion at these crossings. 
Developing better and more flexible infrastructure both leading to and 
leaving the ports would be a positive step towards reducing congestion 
at the northern border. At the southern border, the causes of 
congestion range from limited hours at the ports, the need for more 
inspections, and the business systems in place that prevent crossings 
at times other than daylight hours.
    Question 2. During the hearing, there was discussion regarding the 
potential vulnerability to the supply chain created by drayage 
companies on the southwest border. Please expand upon this issue, 
including the impact on C-TPAT and FAST Membership when a violation 
with a drayage truck or trailer moved by a drayage truck.
    Answer. As I described above in a similar question by Chairwoman 
Sanchez, ATA and motor carriers have held discussions with CBP 
regarding how motor carriers participate in the C-TPAT program on the 
U.S.-Mexico border, where long-haul motor carriers are unable to cross 
the border to pick up or deliver cargo. The business model of the 
``drayage'' operation, primarily used at the Laredo-Nuevo Laredo 
crossing, by far the largest commercial border crossing on the U.S.-
Mexico border, has always represented a challenge to motor carriers 
providing cross-border services on the southern border because long-
haul motor carriers tend to lose control of the trailer and thus the 
ability to mitigate security risks and prevent the introduction of 
contraband or unauthorized cargo.
    In the early discussions about C-TPAT between ATA and CBP, trucking 
industry representatives explained to CBP that drayage carriers pick up 
trailers on the U.S. side and transport them across the border into 
Mexico. And because one of the critical qualifying components for motor 
carrier participation in C-TPAT is that the motor carrier's equipment 
and driver must physically cross the border, this drayage model means 
that only the drayage carrier qualified to participate in C-TPAT, and 
not the U.S. or Mexico-based long-haul carriers. This limitation on 
motor carrier participation applies to all movements across the 
southern border, north and south. Thus, the major participants in the 
movement of freight into and/or out of Mexico--i.e., the long-haul 
carriers--are, for the most part, were excluded from membership in C-
TPAT because they do not actually cross the border. After these early 
discussions, CBP decided to incorporate a Mexican long-haul C-TPAT 
highway carrier program, which allowed for this important segment of 
cross-border operations to finally participate in C-TPAT and have 
improved security controls over the long-haul leg in Mexico.
    C-TPAT certified carriers are required to screen business partners 
(including drayage companies) to determine whether or not they meet C-
TPAT security recommendations. If business partners are not C-TPAT 
certified, the carriers must ensure through contractual agreement that 
they are willing to commit to C-TPAT security recommendations. 
Regardless of commitments from drayage companies, the C-TPAT carriers 
are ultimately responsible for their equipment and associated freight 
as it crosses the border despite the carrier's lack of physical custody 
or control.
    If unauthorized cargo, tampering, or anomalies are discovered at 
the border, CBP's promulgated 17 point conveyance inspection checklist 
used to inspect equipment en route is critical in determining where the 
breach occurred. If C-TPAT carriers can demonstrate through documented 
inspections while the equipment was in their custody that it was secure 
from unauthorized cargo, tampering or anomalies--CBP will then 
investigate the drayage carriers to determine their responsibility for 
the violation(s). If C-TPAT carriers have not performed the 17 point 
conveyance inspections en route, it is impossible to determine where 
the breach occurred or that the carrier or driver was not involved in 
an attempt to introduce unauthorized cargo or contraband. If it is 
impossible to determine where the breach occurred, the carrier's C-TPAT 
membership and associated FAST privileges can be revoked.

                                 <all>

</pre></body></html>
